<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              


                        TUESDAY, MARCH 25, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 3:30 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Jeanne Shaheen (chairwoman) 
presiding.
    Present: Senators Shaheen, Coons, and Hoeven.

                      UNITED STATES CAPITOL POLICE

STATEMENT OF CHIEF KIM C. DINE, U.S. CAPITOL POLICE, 
            WASHINGTON, DC

              OPENING STATEMENT OF SENATOR JEANNE SHAHEEN

    Senator Shaheen. Good afternoon, everyone. I think we have 
some other members who will be joining us, but Senator Hoeven 
and I will begin. The Subcommittee on the Legislative Branch 
will come to order.
    I want to welcome everyone to the second hearing of the 
Appropriations Subcommittee on the Legislative Branch for 
fiscal year 2015. I want to just say, we're hoping to get Chief 
Dine out of here as quickly as possible, since he's not feeling 
well. And we would like to hold on to Mr. Gainer as long as 
possible.
    And, Nancy, you can do whatever.
    Just kidding.
    Today we continue our work reviewing the budget requests of 
the legislative branch agencies and offices for fiscal year 
2015.
    Like many agencies in the executive and judicial branches, 
agencies in the legislative branch share the goal in 2015 to 
return to normal business after years of budget uncertainty and 
sequestration. The same is certainly true for the Capitol 
Police, the Sergeant at Arms, and the Office of the Secretary 
of the Senate, who are represented today by Chief Dine, who is 
the head of the Capitol Police, by Senate Sergeant at Arms 
Terry Gainer, and by Secretary of the Senate Nancy Erickson. 
Thank you all for being here.
    And, Mr. Gainer, as I think most people here know, you 
recently announced that you will soon retire from the Senate 
after 7 years as Sergeant at Arms and 5 years as Chief of the 
Capitol Police. We will certainly miss you very much and are 
very appreciative of all of the service that you have given, 
not just to the Senate and to Congress, but to this country. 
Thank you very much.
    All three of the agencies represented today work together 
seamlessly to ensure that our democratic process can be carried 
out in a safe and transparent manner, from protecting Americans 
and our guests from around the world visiting the Capitol, to 
hosting foreign dignitaries, meetings with Senators and 
Representatives, to ensuring that live video and transcripts of 
Senate proceedings are available to all Americans and the 
world. I look forward to discussing with our witnesses how 
their agencies are shifting from putting out the fires caused 
by sequestration and the shutdown to focusing strategically on 
how to best meet their core missions at the best value for the 
taxpayer. I also look forward to discussing other challenges 
that you expect to face and that you would like to raise as you 
look at 2015.
    Now I'd like to turn to Ranking Member Senator Hoeven for 
his comments.

                    STATEMENT OF SENATOR JOHN HOEVEN

    Senator Hoeven. Thank you, Madam Chairman. Appreciate being 
here with you.
    And I want to thank all of you for being here, not only the 
three at the head table, but all of you that are here. I think 
you do a tremendous job for the citizens of this country, and I 
want to express my appreciation, right up front, for the 
professional way that you do your job. We appreciate it, and we 
see it every single day.
    And, to Terry Gainer, 47 years is--amazing track record. 
And I think that you really exemplify the professionalism that 
we see with all of you here, in terms of the legislative branch 
staff, the professionalism that you have demonstrated over 47 
years. And, I have to say, on behalf of the members, we have 
just an incredible level of confidence in you and your ability 
and your skill set. How you handle things, I think, really sets 
a great tone for those that follow you. And so, you've got a 
tremendous legacy here, and I always have this vision of you, 
you know, as you come in leading the President at the State of 
the Union events, and how, again, you just have done a 
tremendous job of instilling confidence on the part of 
everybody that works here at the Capitol complex. So, you know, 
very best wishes, good luck, and believe me, we will miss you, 
without a doubt.
    All of you have had to do more with less, and that is a 
challenge. We understand that. But, that is the reality we 
face. We have a government that is running a large deficit and 
a debt, and it's something that we need to overcome for the 
good of our country, both now and for future generations. That 
is the reality. There is no question about it. And so, you have 
to lead by example. And you have been, and you've been doing a 
good job of it. We continue to be pressed for resources. So, 
our job is really to work with you to figure out how we can do 
the very best job possible with the limited resources we have. 
And I think you've demonstrated a lot of creativity, in terms 
of all the things that you've done, and we're going to need to 
continue that kind of creativity here as we work to make sure 
that we not only address the deficit, but the long-term debt.
    I do think that, ultimately, we've got to get--economic 
growth is a big part of getting out of the deficit, but, at the 
same time, we've got to find ways to husband our resources and 
do as much as we possibly can with the dollars that we have.
    Again, that being said, we'll try to help you do the very 
best possible job. And again, thank you for all that you do.
    Senator Shaheen. Thank you very much, Senator Hoeven.
    I would ask that each of you keep your comments to about 5 
minutes, if you will, so we have plenty of time for Q&A, and we 
will take the rest of your testimony for the record.
    Chief Dine, if you would begin, followed by Mr. Gainer and 
Ms. Erickson.

                 SUMMARY STATEMENT OF CHIEF KIM C. DINE

    Chief Dine. Good afternoon, Chairwoman Shaheen, Ranking 
Member Hoeven, and members of the committee. I'm honored to be 
here today, and I appreciate the opportunity to present the 
United States Capitol Police budget request for fiscal year 
2015.
    I'm joined here today by Assistant Chief Daniel Malloy, our 
Chief of Operations, as well as some members of my executive 
management team and a representative from our Office of 
Inspector General.
    I consider the United States Capitol Police to be America's 
police department, a premier Federal law enforcement agency 
that works to ensure that the Legislative Branch of our 
Government can function without disruption or lapses in 
security or safety. Our mission is to protect the facilities we 
all work in and around, to protect you and your fellow members, 
your staff, the Capitol Hill community, and the millions of 
visitors who come here to be part of the democratic process on 
a regular basis. We practice the best in American policing, 
represent the country we serve, and protect the democratic 
process. We consider all the people that--and facilities that 
we protect, and the legislative business that we secure, as one 
community. Although we are professionals dedicated to public 
service and public safety, the employees of the Department gain 
strength and encouragement from your recognition of our 
accomplishments.
    My management team and I are aware that the fiscal 
situation in the Federal Government requires that we manage 
ourselves and plan for our future responsibly and accurately. 
Therefore, I believe it is our responsibility to submit a 
budget request that is accurate, reasonable, responsible, and 
based on critical requirements necessary to mitigate and 
address both identified and emerging threats and risks.
    Our fiscal year 2015 budget request focuses on those 
critical mission requirements necessary for the Department to 
address the security of the Congress so that it may conduct its 
constitutional responsibilities in an open and safe manner 
without disruption from crime or terrorism.
    Our fiscal year 2015 request again includes funding for 
1775 of our 1800 sworn, authorized positions and 370 of our 443 
civilian positions. These are the staffing levels funded 
through fiscal year 2014.
    Our officers provide a safe environment for the facilities 
of Capitol Hill. In fiscal year 2013, the Department performed 
over 9.8 million screenings of people entering congressional 
buildings, including 1.6 million visitors to the Capitol 
Visitor Center. Outside the buildings, we kept the Capitol 
grounds safe by conducting more than 150,000 K-9 vehicle sweeps 
and over 27,000 offsite vehicle inspections. And these are just 
a few examples of our efforts to keep the campus, and you, 
safe.

                           PREPARED STATEMENT

    I'm grateful for your time today. We will continue to work 
closely with you to make sure that we meet the demands of our 
mission in a reasonable and responsible manner.
    I want to thank the women and men of the USCP for their 
support.
    I appreciate the opportunity to appear before you today, 
and would be glad to answer any questions you may have at this 
time.
    Thank you.
    [The statement follows:]
                Prepared Statement of Chief Kim C. Dine
    Chairwoman Shaheen, Ranking Member Hoeven and members of the 
subcommittee, I am honored to be here today, and I appreciate the 
opportunity to present the United States Capitol Police budget request 
for fiscal year 2015. I am joined here today by Assistant Chief Daniel 
Malloy, our Chief of Operations, and Mr. Richard Braddock, our Chief 
Administrative Officer, as well as some of the members of my Executive 
Management Team and our Inspector General.
    At the outset, we at the Capitol Police are proud of the role we 
play in enabling a safe environment on Capitol grounds for the people 
of this great country. As the persistent threats to safety and security 
continuously evolve, we must adapt and evolve as well to effectively 
address them and maintain our readiness to mitigate threats and tactics 
of groups trying to do the Capitol Complex harm. We strive to 
accomplish that through collaborating with all stakeholders and other 
Federal partners, employing robust and timely capabilities, and 
maintaining world-class readiness.
    I have the distinct honor of leading this great organization that 
is made up of extraordinarily professional and capable women and men, 
who are dedicated to their work. I also have come to appreciate the 
interests of the Congress, and especially this Committee, in the 
continued safety and security of the legislative process. My management 
team and I are very proud of the close partnership that has evolved 
between us to make this possible. Your confidence in us, and the 
support you have provided to the Capitol Police over the years, has 
indeed been a remarkable contributor to our success in achieving our 
mission. You and your staffs have taken the time to work closely with 
the Department's leadership team and have shown a keen awareness of the 
complexity of our mission and the challenges we face.
    I consider the United States Capitol Police to be America's Police 
Department: a premier Federal law enforcement agency that works to 
ensure that the legislative process of our Government can function 
without disruption or lapses in security or safety. Our mission is to 
protect the facilities we all work in and around; to protect you and 
your fellow members, your staff, the Capitol Hill community and the 
millions of visitors who come here to be a part of the democratic 
process on a regular basis. We practice the best in American policing, 
represent the country we serve, and protect the Democratic process. We 
consider all of the people and facilities we protect and the 
legislative business that we secure as one community that we serve. 
Although we are professionals dedicated to public service and public 
safety, the employees of the Department gain strength and encouragement 
from your recognition of our accomplishments.
    Before I begin the specifics of my fiscal year 2015 budget request 
I would like to express again our appreciation to the Committee and the 
Congress for providing the essential salaries and general expenses 
funding for fiscal year 2014 to support our personnel and operations, 
which has ensured a high-level of capability and mission readiness. In 
fiscal year 2013, the Department realigned resources to meet the 
mission under reduced funding without compromising safety and security, 
which was accomplished with the oversight the Capitol Police Board. We 
reduced a number of manned access points to the Capitol, thus reducing 
the total manpower needs and resulting overtime costs. We also delayed 
expenditures for many of the General Expenses related to training, 
lifecycle replacement, equipment and technology upgrades to maintain 
our operations within our funding limits. I assure the Committee that 
my team understands the need to maintain a balance between security and 
facilitation of Congress, and as such, we continue to look at our use 
of personnel and resources to meet the mission in an efficient manner.
    My management team and I are aware that the fiscal situation in the 
Federal Government requires that we manage ourselves and plan for our 
future responsibly and accurately. Having worked a large portion of my 
38-year law enforcement career in local government, I can tell you that 
I have a first-hand understanding of the hardships faced by all levels 
of government and by average citizens in communities across the 
country. Therefore, I believe it is our responsibility to submit a 
budget request that is accurate, reasonable, responsible, and based on 
critical requirements necessary to mitigate and address both identified 
and emerging threats and risks. Our fiscal year 2015 budget request 
focuses on those critical mission requirements necessary for the 
Department to address the security of the Congress, so that it may 
conduct its constitutional responsibilities in an open and safe manner 
without disruption from crime or terrorism.
    Our mission-focused request is grounded in the framework of our 
Strategic Plan. To achieve our mission as a premier law enforcement 
organization, the Department continues to reinforce a culture that 
supports effective planning, communication, accountability and employee 
empowerment. We are developing the internal framework to employ smart 
policing; by taking a results-oriented, data-driven approach that 
effectively meets current and future threats and challenges. We will 
continue to deliver safety and security by deploying effective law 
enforcement services through collaboration, adaptability and 
innovation. We will strive for organizational excellence to maximize 
efficiency and effectiveness through best practices, while promoting 
accountability through employee engagement and a positive work 
environment. We believe that our people are the key to our continued 
strength and success; and we want to focus on the future, keeping our 
employees at the top of their game.
    One project that I know you have provided a great deal of support 
for is our Radio Modernization Project. I am pleased that our new state 
of the art radio system is operational, as it allows our officers to 
have reliable situational awareness and the ability to communicate 
effectively, which keeps all of us safe in the process. The planning, 
building, and implementation of this system has eliminated considerable 
risk in our future capability to communicate and to direct mission-
critical activities. Because the ability to communicate is critical to 
life and safety of our officers, we took the necessary time to design, 
procure, install and test the new radio system. We appreciate the 
patience of the Congress during this journey. I also want to express my 
gratitude to our partners in this endeavor; the Capitol Police Board, 
the Architect of the Capitol and Naval Air Systems Command (NAVAIR). 
Not only were we able to complete the project within the planned scope, 
and within the funding you provided--but we found efficiencies that 
allowed us to include the O'Neill Building in the project.
    At this time, I would like to offer the Committee an overarching 
summary of our fiscal year 2015 request. I will follow this summary 
with a discussion of specific budget items of particular significance 
to you and the Department.
    The Department's fiscal year 2015 request totals nearly $356 
million and represents an overall increase of 5 percent, or $17 million 
over the fiscal year 2014 enacted funding level of $338 million.
    As with other law enforcement agencies, personnel salaries and 
overtime represent the majority of our budget each year. After all, we 
are a service organization, and we need the dedicated and trained 
professionals to provide that service.
    The Department's fiscal year 2015 personnel request reflects our 
continuous efforts at all levels of management to effectively and 
prudently manage our existing resources to achieve the best possible 
balance of staff versus overtime to meet mission requirements. We are 
constantly analyzing our workforce to align job functions, assignments, 
workload, risk management, and organizational readiness along with the 
ever-changing threat assessments and mandatory mission requirements of 
a dynamic Congressional community.
    In light of the fiscal constraints of the Department and the entire 
Federal Government, our fiscal year 2015 request again includes funding 
for only 1,775 of our 1,800 sworn authorized positions and 370 of our 
authorized 443 civilian positions. These are the staffing levels funded 
during fiscal year 2014. While the staffing levels remain static in the 
2015 request, the funding request represents an overall increase of 
approximately 4 percent over the fiscal year 2014 enacted level. This 
increase is necessary to addresses the natural cost of living and 
within grade salary increases incurred by the Department.
    As you are aware, the Department's current sworn staffing levels do 
not entirely provide the necessary resources to meet all our mission 
requirements within the established sworn officer utility or the number 
of work-hours in a year that each officer is available to perform work. 
This ``utility'' number is used to determine overall staffing 
requirements, and balances the utility of available staff with annual 
salary and overtime funding along with known mission requirements such 
as post coverage, projected unscheduled events such as demonstrations, 
late sessions, holiday concerts, et cetera, and unfunded requirements 
that occur after the budget is enacted, such as unforeseen critical 
emergency situations. Because of the need to fill the mission 
requirement gap through overtime, the Department has struggled to pull 
our sworn personnel offline to conduct training. In order to achieve 
mandatory training, we must utilize overtime to ensure that the 
officers may be offline for training, while meeting our daily mission 
requirements. There are flexibilities in other law enforcement agencies 
in offsetting or deferring daily requirements to allow for training 
that our unique mission does not afford and we are grateful that you 
have provided us the means to conduct this training in fiscal year 
2014.
    Thus, mission requirements in excess of available personnel must be 
addressed through the identification of efficiencies such as post 
realignment and/or reductions, technology, and cutbacks within the 
utility. Where necessary, we meet this requirement through the use of 
overtime. The Department is currently implementing an action plan that 
is simultaneously evaluating our staffing processes to find more 
efficiency through information-based management, while developing 
training and guidance for supervisors on methods for reducing overtime. 
At the same time, we are considering enhancements to a number of 
policies and procedures that have an indirect impact on overtime needs. 
At the requested funded staffing levels, the Department's fiscal year 
2015 overtime projection is $23.45 million, which is just over a half 
million dollars more than our overtime allocation for fiscal year 2014. 
This amount will cover base mission requirements, support of non-
reimbursable events at the Library of Congress and an offset to allow 
for appropriate security staffing so that sworn employees can be 
backfilled while they attend necessary and mandatory training.
    The second area I want to cover in some detail is our requested 
general expenses budget, which includes protective travel; hiring, 
outfitting, and training of new sworn personnel; supplies and 
equipment; management systems; and other non-personnel needs. We are 
requesting $64 million for general expenses, which is an increase of 
nearly $5 million over the fiscal year 2014 enacted level. No new 
initiatives or program increases are included in this request. The 
increase results from normal increases in costs and restoring annual 
levels reduced in previous fiscal years to meet immediate needs. The 
amount of the general expense request is slightly lower from last 
year's request and we will continue to identify areas that we can 
target for further efficiency or elimination.
    With your support, the Department continues to successfully perform 
our operational mission and has achieved several key accomplishments 
over the last year, some of which have resulted in greater efficiencies 
for the Department, which include addressing several administrative 
challenges and improving corresponding business practices.
    Our officers provide a safe environment for the facilities of 
Capitol Hill. For the U.S. Capitol Building alone, we provided a secure 
and open environment for well over 1.5 million square feet, over 600 
rooms, approximately 850 doorways and miles of corridors; which speaks 
to the vast magnitude of our mission and how our ability to remain 
agile and prepared to respond is key to the accomplishment of our 
mission. In fiscal year 2013 the Department performed over 9.8 million 
screenings of people entering congressional buildings (including over 
1.6 million visitors to the Capitol Visitor Center). Outside the 
buildings we kept the Capitol grounds safe by conducting more than 
150,000 K-9 vehicle sweeps and over 27,000 offsite vehicle inspections.
    The Department continues to implement uniform procedures to 
effectively measure and justify U.S. Capitol Police planning, program, 
and resource requirements through a comprehensive, standardized, and 
repeatable management process, which we call the ``Force Development 
Business Process.'' It provides for a transparent decisionmaking 
process, including reviews and approvals by an Investment Review Board 
made up of key agency management, and provides a structure that is 
results-driven and based on meeting operational needs. In addition, in 
order to ensure the accuracy of our budget request, our fiscal year 
2015 budget went through multiple layers of review and validation, and 
is traceable to supporting documentation for each budget element.
    Further, we continue our work to close audit recommendations and to 
address our material weaknesses from prior audits by working closely 
with our Inspector General and the Government Accountability Office to 
address identified issues and by providing the evidence necessary to 
close findings. In particular, I am pleased to report that the 
Department received a third consecutive unqualified ``clean'' opinion 
on our financial statements. Also thus far in fiscal year 2014, we have 
worked closely with the Office of Inspector General to close 18 
recommendations and have completed actions that we believe could lead 
to closure of another eight recommendations. Further, we are working on 
the resolution of a number of other recommendations in order to achieve 
efficiency and effectiveness of our administrative programs. The long-
term resolution of recommendations related to internal controls, 
business processes and material weaknesses remains of the highest 
importance to our management team.
    Before I close my remarks, I want to talk a little bit about our 
future. The Department has evolved from a lone watchman in the early 
1800s to a professional and unique law enforcement and homeland 
security force. Over the past 13 years, we have adopted new 
capabilities to address our fluid threat environment. These changes 
have led to an increase in personnel, tools, special skills and new 
levels of accountability. Over the past year, we have been in the midst 
of updating our Strategic Plan to ensure that our existing structures 
are sufficiently aligned and resourced to support our mission 
requirements into the future. While I gave you a high level summary 
earlier in my testimony, in the near future we will be unveiling our 
new Strategic Plan in its entirety.
    As we look towards the future, we will be transforming and 
strengthening our culture to continue to meet 21st Century challenges 
with a focus on results. We will be engaging you and our other 
stakeholders more as we further develop this new plan of action. Some 
of our transformational priorities include improving our management and 
planning processes; improving communications; enhancing our future 
leadership capacity; establishing clear expectations and accountability 
for all personnel; and evolving the Department into an organization 
that learns from our experience and shares knowledge within our 
workforce. These will be the foundations upon which we will build a 
nimble, data-driven, community-focused law enforcement agency for the 
future.
    I am grateful for your time today. As I said earlier, we realize 
that we have to function within the parameters of the economic and 
fiscal realities facing the country and specifically the legislative 
branch. We will continue to work closely with you to make sure that we 
meet the needs of our mission in a reasonable and responsible manner. I 
want to thank the women and men of the USCP for their support; I 
appreciate the opportunity to appear before you today and would be glad 
to answer any questions you may have at this time.

    Senator Shaheen. Thank you very much.

                    SERGEANT AT ARMS AND DOORKEEPER

STATEMENT OF HON. TERRANCE W. GAINER, SENATE SERGEANT 
            AT ARMS, WASHINGTON, DC
    Senator Shaheen. Mr. Gainer.
    Mr. Gainer. Thank you, Madam Chairwoman and Ranking Member 
Hoeven. I appreciate the opportunity to appear before you this 
afternoon on behalf of the Sergeant at Arms team to present our 
budget request for the upcoming fiscal year.
    I ask that my written testimony be submitted and made part 
of the record.
    As you mentioned, this will be the last time testifying 
before you in my capacity as the Senate Sergeant at Arms. I 
want to thank this committee and your staff for all you have 
done to support our organization and the Capitol Police during 
my 12 years on the Hill.
    Our total budget request for fiscal year 2015 is just under 
$200 million, which is an increase of $3.6 million, or 1.8 
percent, over the fiscal year 2014 enacted level. This includes 
a salary request of $71 million and an expense request of 
$128.8 million. As in previous years, our budget and operating 
plans have been formulated with service, safety, and security 
of the Senate community as our highest priorities.
    First, allow me to recognize our professional SAA staff who 
consistently do an outstanding job. Behind me is Drew Willison, 
the nominated replacement for Sergeant at Arms, and Mike 
Stenger, a long-term member of the Secret Service who has been 
nominated to be the Deputy Sergeant at Arms. I am sure that 
they will continue guiding the organization in the right 
direction.
    Over this past year, we reduced the size of our 
organization by 68 people using the VSIP retirement plan. Over 
the last 4 years, we have reduced the size of the organization 
by nearly 100. This action resulted in annual savings of 
approximately $5 million in salary expenses. Utilizing 
efficiencies gained through reorganization, technology 
enhancements, hard work, and strong leadership, we were able to 
achieve that result.
    On the expense side, we renegotiated our largest IT 
contract, resulting in a sizable reduction. We anticipate that 
change will save about $10 million per year. We also 
consolidated our retail postal service into one location by 
closing our Post Office in the Russell Building.
    Although we have been diligent in our efforts to reduce 
costs, there are several elements of our budget that are not 
directly under our control and continue to climb each year. For 
instance, our organization is responsible for maintaining the 
leases of the Senate's 454 State offices across the country. 
The fiscal year 2015 budget request to fund these leases is $21 
million. Lease costs increase by an average of 3 percent each 
year. In addition, the cost for our suite of services, known as 
the Constituent Service Systems, or CSS, continue to climb. In 
2009, these services totaled $3.9 million. In fiscal year 2015, 
we anticipate these services will be $5.2 million.
    Next I want to mention the breadth of services we provide 
and a few accomplishments from our team during this past year.
    You are now familiar with the Watson Unified Conferencing 
System and our new telephone system. These new systems save 
time and money through reduced maintenance and support. This 
year, we will begin to expand the Watson phone service to all 
of the State offices.
    Second, all of the State offices and committees migrated to 
an enterprise mail system, which has vastly increased our 
ability to support and protect our email systems while reducing 
the costs required for maintaining the systems.
    Third, we successfully processed 306 million Internet email 
messages while protecting our customers from spam and malicious 
messages.
    Fourth, we started a project to upgrade State offices to 
broadband Internet services using local providers. This will 
significantly improve bandwidth and Internet usage 
capabilities, allowing the members to respond to their 
constituencies far more quickly.
    Fifth, we continue to update and expand the tools that 
Senators and staff use to stay connected with each other and 
their constituents. This includes several new models of the 
Apple iPhone, iPad services and the newest BlackBerry devices. 
We also plan to add Windows 8 smartphones into our catalog 
later this year.
    Sixth, we continue to provide our customers with 
photocopying, graphic design, printing, mailing, and 
presentation documents. Last year, our PGDM operation produced 
over 61 million items.

                           PREPARED STATEMENT

    Finally, our offices work closely with the Secretary of the 
Senate, the Capitol Police, the Architect of the Capitol, the 
Senate Committee on Rules, and this committee to provide 
quality service to the Senate.
    I am grateful for the support of my staff, led by Drew 
Willison, and the great people who work very hard to make your 
work easier.
    I, too, am happy to answer any questions.
    Thank you.
    [The statement follows:]
             Prepared Statement of Hon. Terrance W. Gainer
                              introduction
    Madam Chairwoman, Ranking Member Hoeven, and members of the 
subcommittee, thank you for inviting me to testify before you today. I 
am pleased to report on the progress the Office of the Senate Sergeant 
at Arms (SAA) has made over the past year and our plans to enhance our 
contributions to the Senate in the coming year.
    For fiscal year 2015, the Sergeant at Arms respectfully requests a 
total budget of $199,800,000, 1.8 percent above the current enacted 
level. Although this budget is nearly at the 2007 level, we will 
continue to provide the necessary and high-quality services that the 
Senate community has come to expect from us. Since 2007, we have 
realized cost savings from the staff buyouts completed in 2013 and from 
rigorous contract management and restructuring.
    Our challenge for last year was to minimize the effect of this 
staffing reduction on services to the Senate. I believe we have taken 
extraordinary steps to mitigate the impact of those reductions and that 
the changes have appeared seamless in the way we support our customers.
    We had major successes in a number of key areas over the last year. 
In information technology, for example, the continuation of our server 
virtualization efforts allowed us to reduce energy, maintenance, and 
support costs by running more than 887 servers in a virtual 
environment. Our Help Desk team continued to perform extremely well, 
with a customer satisfaction rating of more than 99 percent at the very 
satisfactory or excellent level. Since we moved to the new Watson 
system, we have processed almost 89 million telephone calls. This year, 
we will be expanding our telephone and voicemail systems and evaluating 
the technology associated with expanding the service to State offices. 
We continued to benefit from the consolidation of our e-mail, mobility, 
and network authentication systems, which has yielded improved 
functionality and a reduction of over $700,000 in yearly contractor 
support costs. We continued to update and expand the tools that 
Senators and staff can use to stay connected with each other and their 
constituents--supporting the latest Apple and BlackBerry smartphones 
and tablets and enhancing the user experience.
    We consistently evaluate new equipment and vendors to ensure that 
office equipment offerings stay current. Some examples include adding 
new models of copiers to the Technology Catalog, providing current 
functionality with a smaller footprint, and offering secure travel 
pouches for iPads. We completed a project to provide office 
administrators with the ability to update the person and location 
associated with a specific piece of equipment and enhanced workflows 
allowing staff to trace their requests for repairs, moves, 
reassignments, returns to stock, inaccuracy alerts, and lost/stolen 
equipment reports. In addition, a new project is under way to provide 
office administrators with the ability to return multiple wireless 
devices to stock using automated workflow to prepopulate configuration 
sheets, reducing the potential for user error.
    We also improved our information technology security posture, so 
that the Senate has not suffered any major compromises of information 
security. But, again, continued reductions in our budget continue to 
challenge our ability to support our customers with information and 
communications technology.
    For our Capitol Operations team, 2013 was another busy and 
productive year serving Senators and their staff members, visitors to 
the Capitol, members of the news media who cover Congress, and the 
broader public who have a fundamental interest in knowing what the 
Senate does. Using both traditional and new media, as well as good old-
fashioned customer service, Capitol Operations helped to bring people 
to the Senate--and to bring the Senate to the people across the country 
and around the world. Our Twitter account surpassed 5,000 followers, 
and we used the Twitter Alerts emergency notification feature to keep 
staff and others informed about the shooting incident that occurred on 
October 3.
    Last year, for example, the Senate Recording Studio provided 794 
hours of gavel-to-gavel coverage of Senate floor proceedings and 
provided broadcast coverage of 730 Senate committee hearings--an 
increase of 33 percent over the previous year. In addition, Recording 
Studio staff produced a total of 922 television productions for 
Senators, an 11 percent increase over 2012. And, last year Doorkeepers 
assisted 210,164 visitors in viewing the Senate Chamber, both when the 
Senate was in session and during recess, which reflected a 13 percent 
increase from the 2012 visitor total.
    Our continuity and emergency preparedness staff completed over 20 
exercises, tabletops, tests, and guided discussions in 2013. These 
covered all aspects of emergency response including primary and 
alternate emergency operations centers, Chamber protective actions, 
briefing center transportation, contingency telecommuting, evacuation, 
internal relocation, shelter-in-place, mass casualty response, alert 
notification, and continuity of government.
    Our Printing, Graphics and Direct Mail department saved $1 million 
in postage costs by pre-sorting 5.89 million pieces of outgoing Senate 
franked mail and another $72,820 in postage by using new software to 
identify 161,822 undeliverable addresses before they were introduced 
into the United States Postal Service mail stream.
    During fiscal year 2013, our Capitol Facilities team completed 
3,263 special event setups in the Capitol and Capitol Visitor Center 
(CVC) Senate expansion space, an increase of 33 percent from fiscal 
year 2012. Service requests from Capitol offices for moving furniture, 
delivering supplies, and providing picture frames to Senate offices 
totaled 5,320, an increase of nearly 87 percent from fiscal year 2012.
    Our customer satisfaction levels remain high. And as you can see, 
the Sergeant at Arms team continually works toward the vision of our 
Strategic Plan: Exceptional Public Service . . . Exceeding the 
Expected.
    Leading the efforts of the Office of the Sergeant at Arms is an 
outstanding senior management team including Drew Willison, who serves 
as my Deputy; Republican Liaison Mason Wiggins; General Counsel Terence 
Liley; Legislative Liaison Nancy Olkewicz; Assistant Sergeant at Arms 
for the Office of Protective Services and Continuity Mike Stenger; 
Assistant Sergeant at Arms and Chief Information Officer Vicki Sinnett; 
Assistant Sergeant at Arms for Operations Bret Swanson; Assistant 
Sergeant at Arms for Capitol Operations Kevin Morison; and Chief 
Financial Officer Chris Dey. The many goals and accomplishments set 
forth in this testimony would not have been possible without this 
team's leadership and commitment, as well as the dedication of the 
women and men who work for these leaders.
                   protective services and continuity
Emergency Preparedness
    Our emergency plans and procedures are designed to ensure the 
safety of Senators, staff, and visitors within our facilities by 
equipping them with the necessary tools to prepare for and respond to 
emergency situations. Throughout 2013, we remained committed to 
improving life safety and emergency procedures using best industry 
practices, lessons learned, and scheduled events. We continued to 
ensure staff preparedness through enhanced Emergency Action Plans, 
mobility-impaired evacuation procedures, internal relocation and 
shelter-in-place protocols, and the annual Chamber protective actions 
exercise.
    The Emergency Action Plan is a central document that reflects our 
preparedness efforts across the Senate. Each Senator's office 
maintained a customized plan based on its unique circumstances and 
needs in 2013. This past year, over 65 percent of these plans were 
reviewed and validated using guidelines set forth by the Occupational 
Safety and Health Administration and the Congressional Accountability 
Act. The remaining 35 percent of Emergency Action Plans were in various 
stages of verification or completion at the end of 2013. We worked 
closely with Office Emergency Coordinators (OECs) to update 210 of the 
322 plans maintained Senate-wide to ensure each plan's accuracy. We 
assisted new Senate offices with developing their Emergency Action 
Plans as they moved from transition space to permanent offices. We 
provided individual training sessions on Emergency Action Plan 
procedures, ALERTS account maintenance, personnel accountability, and 
emergency equipment use to 17 new Senators and their offices. Fifteen 
new Senators also received personal emergency preparedness training and 
escape hood orientation. Postal Square Emergency Action Plans were 
updated and staff was trained on new protocols and notification 
procedures after the United States Capitol Police (USCP) post was 
discontinued.
    The protection and preparedness of Senators, staff, and visitors 
within the Senate Chamber continues to be one of our main focus areas. 
We conduct a full-scale exercise annually to test and validate the 
Chamber Protective Actions Guide, which serves as the collective 
Chamber Emergency Action Plan. The 2013 exercise was the most attended 
event to date with over 161 staff members from SAA, Secretary of the 
Senate, USCP, and member offices participating. This was also the first 
time that active shooter response procedures and the AIRCON picket line 
were used during the exercise. Additional areas of emphasis included 
using emergency escape hoods, setting up portable comfort stations, 
preparing the Capitol Visitor Center gallery check-in room, activating 
the fourth floor ALERTUS notification system, and transporting 
mobility-impaired Senators to the Briefing Center during AIRCON 
evacuations.
            Emergency Communications and Accountability
    We continue to improve notification and communication programs to 
ensure devices and systems are ready to support the Senate during local 
or large-scale emergencies. The Accountability and Emergency Roster 
System (ALERTS) is the primary single-interface alert and notification 
system for delivering emergency e-mail, PIN, and voice messages to the 
Senate community and accounting for staff during emergencies. 
Throughout 2013, we conducted an exhaustive review of staff names 
entered in the database to ensure alert messages and accountability 
information are delivered correctly.
    We conducted regular emergency notification tests for staff and 
biannual tests for Senators in conjunction with the USCP, Secretary of 
the Senate, party secretaries, and other stakeholders. These tests are 
designed to ensure our emergency messaging systems reach intended 
recipients and that staff understand the multiple ways alerts may be 
delivered. Monthly communications tests were also held with executive 
branch agencies to verify contact information between continuity sites. 
Video teleconferencing equipment continues to be tested monthly at 
various Senate contingency sites. Additionally, secure and unsecure 
satellite phones, the Wireless Priority Service, and the Government 
Emergency Telecommunications Service are all tested quarterly.
    In 2013, we also routinely tested the Senate contingency radio 
system that provides radio coverage throughout Capitol Hill and at 
other continuity sites. The system is used by Sergeant at Arms and 
Secretary of the Senate staff who have responsibilities during 
emergencies and special events. The radio system allows staff to 
coordinate activities that directly support the Senate's essential 
functions when cellular phones, e-mail, and text messaging have been 
severely degraded during large-scale emergencies. The radio system was 
used during both the Presidential Inauguration and State of the Union 
address in 2013.
    We support staff accountability operations at assembly areas with 
tablets and laptops, remote check-in procedures, PIN messaging to OECs, 
and accountability desk activation. In 2013, we conducted over 60 in-
office trainings for new and existing OECs on emergency staff 
accountability procedures. We also had over a 90 percent reporting rate 
for the Hart, Dirksen and Russell Senate Office Building drills this 
year.
    Our staff that serves in the USCP Command Center--after normal 
business hours whenever the Senate is in session and during emergency 
incidents and special events--were trained to use the Senate Dialogic 
and Chyron systems to assist USCP and provide senior leadership with 
amplifying information regarding ongoing events. Dialogic emergency 
message templates were updated this year to provide operators with 
additional scenario options to improve efficiency and quicker message 
delivery. We also implemented a new Chyron Web interface to improve our 
ability to quickly edit, review, and release alert messages to the 
Senate community via the cable television system.
    We continue to administer and improve WebEOC, a crisis information 
management application utilized by the Senate Emergency Operations 
Center (EOC) during emergencies and special events. SAA departments can 
now report their operational status and ability to carry out mission-
essential functions. The application can also track offices and staff 
assigned to alternate office space as needed. Collaboration continued 
with the House of Representatives, Architect of the Capitol (AOC), 
other Government branches, and local and State National Capital Region 
WebEOC users for seamless information sharing across different 
networks. The WebEOC system was used during the Presidential 
Inauguration and State of the Union address to increase the situational 
awareness of SAA staff supporting these events.
    In 2013, we developed an informational Website to launch during a 
large-scale emergency which will provide event and accountability 
information about Capitol Hill visitors and staff. The general public 
would be directed to this Web site to prevent overwhelming the Capitol 
switchboard with a high volume of phone calls.
            Training and Equipment
    Training and outreach programs are designed to provide interactive 
classroom and personalized instruction to the Senate community. These 
valuable programs provide a wealth of preparedness and life safety 
awareness information to enhance office personnel preparedness. This 
past year, we conducted 246 training sessions on a variety of 
preparedness topics with over 4,555 staff participants. Training 
sessions covered Emergency Action Plans, escape hoods, emergency 
equipment, internal relocation, shelter-in-place, responding to an 
active shooter, accountability actions, and life safety procedures. 
Last year, we issued six OEC certificates to recognize staff who 
enhanced their professional knowledge and readiness by completing 
requisite emergency preparedness training courses.
    We hosted the sixth annual Senate Emergency Preparedness Fair to 
highlight our training and outreach programs during September's 
National Preparedness Month. Over 24 members of the emergency 
management community throughout the National Capital Region set up 
equipment displays, provided preparedness information, and demonstrated 
new products. The 2013 keynote speaker was the Mayor of Avalon Borough 
and Cape May County Emergency Manager, Martin Pagliughi. A record 142 
staff members attended the event.
    Our continued management and support of protective emergency 
equipment caches in each Senate office have been crucial to the 
preparedness program. Our office ensures equipment functionality 
through an extensive annual inventory that replaces expired and faulty 
items. Over 268 offices with 28,500 pieces of emergency equipment--
escape hoods, emergency supply kits, and wireless emergency 
annunciators--were inventoried in 2013. Additional portable comfort 
stations were placed at multiple internal relocation sites, and 39 
green beacons were deployed to assist staff and visitors in more easily 
locating their nearest internal relocation site.
            Exercises
    We continue to manage a comprehensive exercise program structured 
to ensure Senate plans are practiced and validated regularly. The Test, 
Training, and Exercise (TT&E) program validates our ability to respond 
in times of crisis as well as identifies areas where better planning 
and procedures would be beneficial. Our program is outlined in an 
annual guidance document that is coordinated with stakeholders and 
jointly signed by the Secretary of the Senate and myself. This document 
provides overarching guidance for three TT&E program areas:
  --A 6-year exercise program that focuses on areas relating to our key 
        capabilities;
  --Recurring TT&E support activities throughout the year; and
  --A calendar of annual exercises that reflects contingency program 
        goals and objectives.
    During 2013, we conducted several joint exercises with the 
Secretary of the Senate, USCP, AOC, Office of Attending Physician, 
party secretaries, and other key congressional stakeholders, including 
the chamber protective actions, active shooter, chemical response, mass 
casualty response, internal relocation, and classified continuity 
exercises. We completed over 20 exercises, tabletops, tests, and guided 
discussions in 2013, covering all aspects of emergency response, 
including primary and alternate emergency operations centers, 
transportation, contingency staffing, evacuation, shelter-in-place, and 
Alternate Chamber media operations. We regularly exercised the offsite 
EOC to test our ability to quickly move staff to a distant location and 
maintain Senate operations. This past year we also conducted the first 
evacuation drill for both day and night shift staff at the Senate 
storage and printing facilities in Maryland. This was also the first 
year that we conducted a shelter-in-place exercise for SAA staff 
assigned to the sixth floor of the Postal Square building.
    The Senate EOC is utilized during emergencies and special events to 
coordinate information, resources, and response efforts. Last year, we 
conducted an online EOC exercise allowing staff to work at their normal 
office location to simulate a shelter-in-place situation. ``Take at 
Your Desk'' exercises are also e-mailed multiple times per year for 
staff to practice using the emergency management information software.
    After-action reports are often generated for each exercise by 
documenting lessons learned into a remedial emergency action tracking 
system (REACTS) for future plan improvement and to track identified 
issues. A classified version of REACTS was developed in 2013 to track 
lessons learned from our growing classified exercise program.
Contingency Programs
    Our staff, in collaboration the Joint Continuity Office (JCO), 
further developed and refined contingency transportation and relocation 
site plans in 2013. The Office of Protective Services and Continuity 
details staff to this office to support the planning process, policy 
guidance, and direction from congressional leadership. Over the last 
year, JCO continued developing plans for classified relocation sites, 
leadership evacuation sites, transportation operations, and embarkation 
points. Continuity of Government plans coordinated with our 
congressional planning partners and supporting agencies are on schedule 
to be finalized, validated, and exercised.
    This year, we launched the Senate Emergency Relocation Group (ERG) 
to address the Senate's unique staffing requirements during contingency 
operations. Skilled SAA staff were identified and trained to support 
Senate continuity operations during an emergency event requiring 
relocation. This program provides information, training, supplies and 
support to 60 SAA staff members who may relocate to alternate sites 
during a contingency event.
    Maintaining a viable COOP program is critical to the Senate's 
ability to perform constitutionally-mandated functions during local 
emergencies. Drafting, developing, and finalizing COOP plans for member 
offices and committees is often challenging during periods of demanding 
legislative activity. Nonetheless, our team continued working closely 
with member offices and committees to ensure their continuity plans 
were developed, regularly updated, and ready for execution by using a 
simplified template. In 2013, our office began sending reminder 
messages to all new member offices emphasizing the importance of 
developing their office emergency preparedness and COOP plans. We 
developed a new program to assist committees with creating and 
maintaining a fly-away kit to be stored at a secure offsite location 
for future emergency relocation events.
    Our organization also continues to ensure existing plans and 
capabilities are regularly maintained and updated. We completed 
physical expansion and IT upgrades at the local Alternate Chamber 
continuity site. The Alternate Chamber plan was also revised to reflect 
these upgrades to better support site operations.
    Validating existing contingency plans is critically important and 
best accomplished through exercise design and execution. In 2013, our 
office again conducted three major exercises at classified continuity 
sites in collaboration with the JCO. One exercise validated the use of 
pre-staged materials at local departure points and a new automated 
Congressional Personnel Accountability System in our emergency boarding 
and manifesting plans. Over 40 staff members were identified, 
manifested, and transported using emergency bus assets during this 
functional exercise. These exercises allowed us to validate draft 
plans, confirm critical supply and equipment set-up, develop space 
allocation plans, and conduct mock Chamber and broadcast operations. 
After-action reports were completed for each exercise and remedial 
activities were tracked until completion.
Security Planning and Police Operations
    The Police Operations program coordinates with the USCP to process 
security requests and services for Senate offices, committees, and 
support offices on Capitol Hill. Police Operations staff also 
coordinate security assessments, security sweeps, and installations of 
proximity card readers and duress buttons. They facilitate security 
briefings and police outreach for Capitol Hill Senate staff. Over 260 
DC and field committee hearing security assessments were coordinated in 
2013.
    The Senate Campus Access program facilitates vehicle and delivery 
requests to access the Capitol's secure perimeter from congressional 
offices, constituents, outside vendors, and other groups. During 2013, 
the Senate Campus Access program facilitated 928 access requests 
including 269 Senate military liaison office and other Department of 
Defense agency requests; 236 member offices requests; 273 USCP, AOC, 
and House of Representatives requests; and 150 Federal and foreign 
government agencies requests. Senate staff rely heavily on this program 
to ensure their guests and constituents, materials, and equipment for 
special events are screened and approved by USCP before entering the 
Capitol complex.
    A USCP Command Center Duty Representative is stationed in the 
Command Center to monitor events on or near Capitol Hill and ensure the 
Senate community is alerted to any security incident or emergency event 
whenever the Senate is in session, including late nights, weekends, and 
holidays. In 2013, the Command Center Duty Representative monitored 373 
incidents or events including demonstrations, suspicious packages, 
evacuations, and local law enforcement responses.
    For the upcoming year, the Police Operations program will continue 
providing security assistance to Senate offices and serve as the 
Sergeant at Arms USCP liaison. The Senate Campus Access program is 
essential to screen and inspect materials and items used by outside 
groups for events, exhibits, and displays.
    The State Office Readiness Program provides security and 
preparedness resources to State offices, mirroring programs currently 
available to Capitol Hill Senate offices. Participating offices receive 
a variety of security enhancements, including secure reception areas to 
screen visitors, duress and burglar alarm systems, and closed-circuit 
camera systems. The Sergeant at Arms office pays for installation, 
maintenance, and alarm monitoring services, including annual 
inspections and equipment tests. The program also assists State offices 
with completing Emergency Action Plans to identify unique security and 
emergency preparedness procedures.
    We're always looking for ways to leverage technology to provide 
long-distance services as both the program's budget and contract staff 
have steadily decreased. We distribute a monthly OEC Bulletin to all 
State offices that contains relevant security, preparedness, and hazard 
awareness articles. We also provide two Webinars, Security and 
Emergency Response for State Offices and State Offices: Responding to 
Physically Threatening Individuals, three times each month.
Intelligence, Threat Assessment, and Special Projects
    Our office recognizes the value of maintaining collaborative 
partnerships with the intelligence community, various Federal, State, 
and local law enforcement agencies, and force protection departments in 
order to identify potential security risks, monitor threat streams, and 
maintain situational awareness. Collaborative partnerships ensure 
appropriate mitigation and prevention strategies are deployed to 
protect and promote the safety and security of the U.S. Senate, both 
domestically and internationally.
    Our office, in coordination with the USCP and other law enforcement 
entities, ensures appropriate outreach to and coordination among 
Senators and staff who receive specific threats. We continuously 
review, evaluate, and conduct vulnerability, risk, and threat 
assessments to determine and implement appropriate security measures 
and Senator protective operations coverage. Additionally, our office 
provides a regular situational awareness outreach campaign to the 
Senate community regarding upcoming significant events or planned 
activities on and in close proximity to the Capitol complex which may 
adversely impact Senate business.
    This program also supports comprehensive contingency planning, 
oversees security operations planning, and creates comprehensive 
incident management and response action plans for major events 
including the Presidential Inauguration, State of the Union address, 
Senatorial retreats, nationally televised concerts at the Capitol, and 
various joint sessions of Congress.
                         information technology
    From a budgetary standpoint, more than half of the CIO 
organization's fiscal year 2015 request will cover the installation and 
support of the equipment acquired by offices through the economic 
allocation, and for other programs that benefit offices directly. One 
third will be devoted to providing services at the enterprise level, 
such as information security, the Senate data network, electronic mail 
infrastructure, and telephone systems. The remainder is almost equally 
divided between supporting the office of the Secretary of the Senate 
with payroll, financial management, legislative information, and 
disclosure systems, and our own administrative and management systems.
Enhancing Service, Security and Stewardship
    We continue to provide a wide range of effective information 
technology solutions to facilitate the Senate's ability to perform its 
legislative, constituent service, and administrative duties; safeguard 
the information and systems the Senate relies upon; and remain ready to 
respond to emergencies and disruptions. As in our other areas, we also 
emphasize stewardship--the careful use of all of our resources, 
including the funding we are provided, our personnel, and the external 
resources that we consume--in all aspects of our information technology 
operation.
    As we do each year, we have updated our 2-year Information 
Technology Strategic Plan. The current version, under which we will be 
operating in fiscal year 2015, continues to emphasize our five 
strategic information technology goals and their supporting objectives 
that drive our programmatic and budgetary decisions:
  --Secure: A secure Senate information infrastructure
  --Customer Service Focused: A customer service culture top-to-bottom
  --Effective: Information technology solutions driven by business 
        requirements
  --Accessible, Flexible & Reliable: Access to mission-critical 
        information anywhere, anytime, under any circumstances
  --Modern: A state-of-the-art information infrastructure built on 
        modern, proven technologies
    Our fourth information technology strategic goal--Accessible, 
Flexible & Reliable--may be the most impactful of the five goals. This 
goal undergirds everything we do from a technology standpoint. We must 
ensure that almost every system and every service we deploy can 
withstand disruptions to our operating environment, can be reconfigured 
if necessary to cope with disruptions, and can be used regardless of 
whether the person trying to use it is located within one of our spaces 
or elsewhere. We continuously reevaluate existing services and systems 
to identify areas for improvement and make those improvements as soon 
as we can, in an effort to ensure the Senate can continue to do its 
work under any circumstances.
Enhancing Service to the Senate
            Customer Service, Satisfaction, and Communications
    Our information technology strategic plan stresses customer service 
as a top priority, and we actively solicit feedback from all levels and 
for all types of services. For instance, we ask for customer feedback 
on every Help Desk ticket opened. In major contracts that affect our 
customers, we include strict service levels that are tied to the 
contractors' compensation--if they do well, they get paid more; if they 
do poorly, they get paid less. Because of reductions to our budget, we 
have had to relax the service level requirements, reducing services to 
our customers. During the past year, the percentage of on-time arrivals 
for the IT installation team never dropped below 99 percent, and 99 
percent of customer surveys rated the IT Help Desk and installation 
services as either ``very satisfactory'' or ``excellent.'' We expect 
this excellent level of performance to continue through fiscal year 
2014 under the renegotiated service levels.
    We satisfy our customers' demands for the latest in mobile wireless 
technology by keeping our technology catalog up to date with the latest 
offerings. Last year, we made available several new models of Apple 
iPhone and iPad devices. We enhanced our BlackBerry 10 server 
environment to support the newest BlackBerry 10 devices, including the 
high-end Z30, and plan to add Windows 8 smartphones into our technology 
catalog. Microsoft's Enterprise tablet, Surface Pro 2, is already 
available to offices in the technology catalog. Our CIO staff also 
continues to work extensively with third-party software providers to 
enhance our iPhone and iPad corporate e-mail client, looking toward 
alternatives that will allow for greater iOS feature integration while 
maintaining a solid security posture. Finally, we continue to monitor 
and test Android devices with the goal of supporting Android devices 
when we can do so with adequate security.
    We have made strides in further protecting our mobile devices, 
using a service known as LoJack for Laptops. In the event of a loss or 
theft, this service enables us to lock or remove all data from the 
physical laptop once it is connected to the Internet. Once initiated, 
the lock or data wipe command cannot be overridden, even if the laptop 
is taken off the Internet. Information provided by the LoJack client 
and service may also be used by law enforcement agencies to track and 
recover the laptop.
    We have enhanced file-sharing and collaboration services to provide 
the ability to synchronize your data with all the devices you use. The 
Box Enterprise service gives you access to your most recent files, and 
makes it possible for you to collaborate with individuals and groups 
anywhere, anytime, from any Internet-connected desktop, laptop, tablet 
or smartphone. Moreover, my staff has negotiated a purchasing agreement 
for this service that will save our customers from $96 to $216 per user 
annually on top of the General Services Administration (GSA)-scheduled 
discount, depending on the number of user licenses they purchase.
    In fiscal year 2015 we will continue to communicate effectively 
with our customers through a well-developed outreach program that 
includes the CIO area on Webster, information technology newsletters, 
periodic project status reviews, information technology working groups, 
weekly technology and business process review meetings with customers, 
and joint project and policy meetings with the Committee on Rules and 
Administration, the Senate Systems Administrators Association, and the 
administrative managers steering group.
            Robust, Reliable and Modern Communications
    We provide modern, robust and reliable data network and network-
based services that the Senate relies upon to communicate 
electronically within and among offices on Capitol Hill and in the 
States; to and from other legislative branch agencies; and through the 
Internet to the public, other agencies and organizations.
    In coordination with the four major cellular carriers (AT&T, 
Sprint, T-Mobile, Verizon), we are in the process of upgrading the 
Senate's in-building cellular wireless system to provide 4G/LTE 
wireless service throughout the Senate campus. To date, three carriers 
have completed their installations, and the fourth should be done by 
the end of June.
    As part of an effort to improve network performance at the Senate 
Support Facility (SSF) located in Maryland, we extended conduit and 
fiber-optic cable to the Printing, Graphics and Direct Mail (PGDM) 
facility located in the same office park. The PGDM facility is 
connected to the Senate campus across a high-speed, direct fiber-optic 
connection, while the SSF uses a lower-speed connection through our 
Wide-Area Network (WAN) provider. The investment of conduit and cabling 
between the sites allows us to utilize the high-speed fiber-optic 
connection for both facilities, while utilizing the lower-speed 
connection as a redundant connection to both sites.
    In 2013, we completed the campus-wide replacement of all wireless 
access that comprise the Senate's Enterprise wireless local area 
network (LAN) service, commonly referred to as Odyssey. This was a 
significant project that required staff to replace more than 500 access 
points with newer models. This project increases the overall throughput 
of an individual wireless client.
            Providing Services that meet Business Requirements
    In 2014, we anticipate the rollout of a new wireless LAN service 
called Discovery. This service will provide both an enhancement to our 
customer base and improve the overall security of the wireless LAN. As 
part of the rollout, customers will be able to gain access to the 
Discovery network using their Active Directory login credentials, which 
is the same username/password combination they use to access their 
local LAN. Once authenticated, wireless clients will be placed in their 
appropriate local LAN and be afforded the same level of network access 
as they have when working from their desktop. This will no longer 
require clients to log in to the wireless LAN and establish a virtual 
private network (VPN) connection to access the internal Senate data 
network. As part of the rollout to Discovery, and from a security 
perspective, wireless clients will also undergo an assessment of their 
laptop or mobile devices that will verify their devices are compliant, 
with up-to-date virus software and definitions, and operating system 
updates. This is a significant enhancement to the Senate's wireless LAN 
service, as this security assessment has never been an option before 
now.
    Providing wireless LAN service to the Senate State offices was once 
a significant obstacle to overcome from a security perspective but has 
now become a common service the Senate offices can obtain. A secure and 
cost-effective solution has been made available to the Senate offices 
and at the close of 2013, more than 50 State offices had this 
capability installed. The wireless access point bundle is available in 
the Technology Catalog and extends service beyond the simple 
convenience of WiFi service, as it provides a flexible solution for 
Senators and staff visiting a State office without the cost of 
additional LAN connections. Senate staff are able to seamlessly 
transition between their DC office and State offices by using the same 
login credentials to access the wireless network.
            Providing a Robust and Scalable Network Environment
    We deeply understand the importance of Internet service and the 
value it brings to our customers in their communication with 
constituents, and the ability to conduct online research and facilitate 
the legislative process, so in 2013 we upgraded the connections between 
the Senate network and the Internet at both the primary and alternate 
computing facilities. We doubled the amount of bandwidth at the primary 
facility, to 1.0Gbps, and increased the service at the alternate 
facility to 0.8Gbps. These upgrades provide higher performance speeds 
and ensure that each facility can independently support Internet 
traffic in the event that one of the two circuits fails.
            Support for COOP and COG
    In 2013, we enhanced the LAN capabilities for one of our critical 
District of Columbia contingency facilities. As part of an overall 
effort to increase our ability to respond to an emergency event that 
requires the activation of this location, we worked with the host staff 
to install dedicated LAN cabling in both of the buildings planned for 
our use. By now having dedicated cabling in these locations, no 
additional patching is required and we have significantly reduced the 
number of LAN switches that have to be installed inside rooms. This 
allows us to more quickly react to a contingency event and reduces the 
amount of time required to bring up LAN service at both buildings.
    Additionally, we have increased the involvement of networking staff 
to support other more outlying emergency operation locations. This 
allows us to ensure that all data networking requirements and services 
are appropriately addressed and that we offer the full capabilities to 
staff reporting to these areas without burdening them with new 
processes and procedures.
            Meeting New business Requirements
    We recognize that growth in requirements for support of personal 
computing devices is inevitable, due to the decreasing cost of these 
smart devices and their increasing availability. We are actively 
evaluating technology that will enable us to assess the security 
features of such devices. If a device does not pass the security check, 
we will be able to provide online remediation.
    A project started in late 2013 and expected to progress in 2014 is 
the use of broadband Internet service to support Senate State office 
locations. The 460-plus State office locations are currently connected 
to the Senate campus using a wide-area service that operates at 
relatively low speeds. Although we have made investments of additional 
circuits to increase the amount of bandwidth at select State office 
locations, the WAN service cannot compete with available bandwidth 
through business-class Internet services. We are currently in the pilot 
stage of this project; however, the results have been very encouraging. 
Using broadband Internet service will allow us to significantly 
increase the amount of bandwidth at each location and thus increase the 
performance at each site for both intranet and Internet services. The 
increased bandwidth also affords us the ability to support emerging 
technologies such as increased video-conferencing capabilities between 
DC and a State office, and the potential introduction of Watson voice 
services to the State offices. As part of the overall project, we are 
adding technical capabilities such as Power over Ethernet (PoE). Adding 
PoE allows us to more seamlessly support ancillary equipment, such as 
wireless access points and IP-based phones, without requiring separate 
power sources.
            Customer Service Culture
    The Network Operations Center (NOC) is tasked with monitoring the 
overall health of the Senate's Enterprise data network and is the main 
troubleshooting point of contact for problem resolution. In 2013, the 
NOC received and serviced 2,184 Service Center ``incident'' tickets, 
processed more than 2,000 change requests, and processed more than 550 
LAN drop requests.
    In 2013, Senate offices completed 605 customer satisfaction 
surveys, of which 94 percent of respondents indicated they were very 
satisfied with the level of service provided to them, with 85 percent 
indicating the service was excellent. In order to maintain this level 
of service and exceed these percentages in 2014, the NOC has instituted 
a process that requires a call back to any office that submits a survey 
indicating they were just ``satisfied'' or worse with the service 
provided to them.
            Ensuring Security of the Senate's Network Environment
    To continue to strengthen the security at our border with the 
Internet, we upgraded the firewalls between the Senate network and the 
Internet to new appliance-based units. This upgrade accomplished two 
things: it ensured we remained on the most current product; and it 
allowed us to separate the firewall from the network known as the 
``demilitarized zone'' that supports all publicly-available services. 
That last benefit provides an easier way to accommodate future upgrades 
and enhances our failover capabilities.
    We are looking into upgrading to ``smart'' power distribution 
strips in our server racks in the two data centers, which would allow 
us to control power per outlet and to continue our greening efforts. We 
will be modernizing the management of data centers with a centralized 
system which will include collecting and reporting detailed power usage 
and environmental statistics, capacity planning, workflow and 
dashboards resulting in improved efficiency and reduced risk of 
failures and outages.
    Our robust messaging infrastructure processed approximately 306 
million Internet e-mail messages during the past calendar year. In 
addition, we support effective communication through the use of 
videoconferencing.
    We continued to enhance our videoconferencing infrastructure that 
supports hundreds of calls per day, including calls to anyone in the 
world through a secure, publicly-available client. With this 
capability, communication with those outside the Senate enjoys the same 
quality, reliability, and security as calls within the Senate. We also 
extended these videoconferencing capabilities to include the iPad.
    We improved the multi-user/multi-site video call services to 
increase video quality, streamline the connection process, and more 
accurately reflect the way we have found our customers use the service. 
We also strengthened the resiliency of the core videoconferencing 
services by enhancing our high availability infrastructure to protect 
services such as our directories and the mobile client registration 
process resulting in less downtime and increased reliability.
    The Senate will be one of the first major Government institutions 
to offer full support of Microsoft's latest operating system, Windows 
8.1. Our support strategy began by introducing Windows 8.1 on a newly-
supported tablet, the Microsoft Surface Pro 2. Offices wishing to adopt 
Windows 8 on their desktops, either partially or widely, now have that 
option as well. Full support for Windows 7 remains an available desktop 
operating system option and will be for the foreseeable future.
    This past year, Watson Unified Conferencing replaced our legacy 
audio conferencing system and yielded additional savings in maintenance 
and support. It also increases our total audio conferencing capacity 
and better integrates with our e-mail system for simplified scheduling. 
More than 6,000 people in 130 offices take advantage of the service. We 
continue to pursue opportunities to deliver additional unified 
communications capabilities by further integrating the Microsoft Lync 
platform with our telecommunications and videoconferencing 
infrastructures.
    Committees extensively use streaming video to broadcast their 
hearings over the Internet. This past year we completed the transition 
of our own internally-supported infrastructures and decommissioned 
them. We also renegotiated our contract with our content delivery 
network provider, saving $35,000 per year and adding the capability to 
easily stream to Apple iPhones and iPads. As we reported last year, 
we've realized huge benefits since moving to this service, including 
the capability to serve virtually unlimited numbers of simultaneous 
viewers, DVR-like capabilities for live streaming events, protection 
against denial of service attacks, and the elimination of the impact 
that large numbers of viewers created on the Senate's Internet 
connections.
    The Large File Transfer System continues to perform, after 4 years, 
with virtually no downtime. Currently, 71 offices use it to efficiently 
transfer large files with other offices in the Senate as well as 
external entities including other Government agencies, the media, and 
constituents. The Senate Recording Studio also uses the system to send 
video files to Senators' offices, both on Capitol Hill and in their 
home States. Between January 2013 and January 2014, the system 
processed more than 2,000 files and nearly 2,000 gigabytes of data.
            Web-Based and Customer-Focused Business Applications
    We continue to add functionality to TranSAAct, which is our 
platform for moving business online. Based on the requirements of 
offices and the Committee on Rules and Administration, we continue to 
develop TranSAAct to eliminate paper-based manual processes and move 
them to the Web. Because it is built on an extensible modern database 
framework, TranSAAct allows indefinite expansion as new requirements 
are identified.
    Over the last year we expanded our asset management features to 
include the ability to relocate, reassign, return to stock, and request 
repairs for assets assigned to an office. Office staff can initiate 
full-service and self-service requests according to defined business 
rules. Some requests that follow specific business rules, such as 
reassigning an asset from one person to another, can be completed 
efficiently in real time with no SAA staff intervention through 
integration with the asset management system. For requests that require 
staff involvement, TranSAAct facilitates the workflow by integrating 
with the Service Manager system (to automatically generate a work 
order) or the Senate Technology Catalog, as appropriate. This approach 
provides faster customer service through increased efficiencies and the 
reduction of duplicative data entry. Offices can link to Service 
Manager tickets for up-to-date status information for service requests 
initiated in TranSAAct. We have also provided enhancement to enable our 
Equipment Services team to more effectively support TranSAAct initiated 
requests.
    This past fall, we completed our work with the Secretary of the 
Senate to add Stationery Room usage and billing information to 
TranSAAct. We have also added Economic Allocation Funds (EAF) reports, 
allowing offices to view their EAF transactions and balances through 
TranSAAct. We are currently planning a technology refresh, upgrading 
versions of infrastructure components. We have also begun planning to 
update some of the earliest service request pages, such as parking and 
ID request pages, to take advantage of our current development tools 
and techniques to improve the customer experience and update business 
rules as needed. We continue to work with offices to prioritize 
features including moving additional business processes to the Web, 
delivering increased functionality to administrative staff, and 
reducing the time, paper and errors associated with manual processes.
    We continue working in collaboration with the Secretary of the 
Senate to support and enhance the newly-implemented PeopleSoft Senate 
Payroll system. Phase I, replacement of the 20-year-old mainframe-based 
system, was successfully completed in September of last year. Phase II, 
implementation of employee self-service, will be coming in the next few 
months. This new system provides the Senate a state-of-the-art 
technological platform that should serve the Senate well over the 
coming years.
    After passage of the Stock Act, S. 4038, we began work with the 
Secretary of the Senate and the Senate Select Committee on Ethics to 
develop a new Electronic Financial Disclosure (eFD) application and 
database. This new system supports electronic filing of financial 
disclosure reports and public access to those reports. Member and 
candidate financial disclosure reports are now available for the public 
to search, view, and download. The second phase, which went live as 
planned on January 1, 2014, provided for online periodic and annual 
report filing, and public access to all financial disclosure reports in 
the Secretary of the Senate's Office of Public Records. The system also 
supports administrative processing and reporting for the Senate Ethics 
Committee, Government Accountability Office, and Office of Public 
Records. We will complete a third phase with additional features and 
tools in April 2014.
    We expanded the options available to offices for content management 
systems to support their www.senate.gov Web sites. This was in response 
to requests for open source, rather than proprietary, systems that are 
more prevalent in Web site development and have a much larger market 
share than our existing offerings. Senate offices and vendors now have 
more choices of development platforms. Both Drupal and WordPress are 
now in use as content management systems on some of our public-facing 
Web sites. We expect more offices to migrate to the Drupal platform in 
the future, and Drupal sites are being developed at a reduced cost over 
previous sites using the Cold Fusion-based products.
    We provide numerous Web-based systems to enhance the productivity 
of office staff, such as one for the Placement Office that allows 
external applicants to electronically submit job applications for 
positions in Senate offices. We also enhanced the Lobbyist Registration 
application to create a more robust reporting functionality for general 
public consumption.
            Showcasing and Promoting Modern Information Technology in 
                    the Senate
    We will continue to highlight new technologies in the Information 
Technology Demonstration Center through demo days, which have been 
well-attended in the past. After products are tested and validated in 
our technology assessment laboratory, they are then available for staff 
to try in the Demo Center. The demo days feature live demonstrations of 
new and emerging technologies.
    In order to perform technology assessments, feasibility analyses, 
and proof of concept studies to ensure we are considering technologies 
that will directly support the Senate's mission, we continue to improve 
the capabilities in our technology assessment laboratory. Technologies 
and solutions are vetted and tested here prior to being announced for 
pilot, prototype, or mass deployment to the Senate. To ensure we focus 
on the most relevant technologies and solutions, the highly successful 
Technology Advisory Group, consisting of CIO staff and our customers, 
performs high-level requirements analysis and prioritizes new 
technologies and solutions for consideration for deployment in the 
Senate.
    We continue to make progress in providing unified communications 
capability, tying together voice, video, and data communications into a 
single tool that presents the user the available communication options 
to make contact with those with whom they work. This is based on the 
ways the person with whom they are communicating wants to be 
communicated with and the capabilities of the device used. With the 
rollout of Watson Unified Conferencing, our instant messaging, audio 
and Web conferencing, desktop sharing, and presence information are now 
accessible from a single client that is integrated with our 
telecommunications and e-mail systems. Efforts to extend the 
capabilities of our videoconferencing infrastructure to the unified 
client are under way and will continue this year.
    We will continue or intensify these efforts in fiscal year 2015 to 
ensure that the Senate is always well equipped to perform its 
functions. To keep our customers informed of our efforts, we publish 
the results of our studies on the emerging technology page of the CIO's 
area on Webster.
Enhancing Security for the Senate
            Enhancing Security through System and Information 
                    Resiliency
    As I mentioned earlier, we build security, accessibility, 
flexibility, and reliability into every system and service. We continue 
to test our technology in scenarios in which our primary infrastructure 
and primary work locations have become inaccessible. This includes the 
simulated loss of our primary data and network facilities, as well as 
simulated loss of staff work spaces. All mission-essential Senate 
Enterprise information systems continue to be replicated at our 
Alternate Computing Facility, using our upgraded optical network and 
storage area network technology. We have created a high-availability 
videoconferencing infrastructure that operates simultaneously at the 
primary and alternate facilities, allowing for automated recovery from 
a loss of either the primary or alternate facility without loss of core 
videoconferencing network services.
    We conduct a variety of exercises to ensure we are prepared from an 
information technology standpoint to cope with events ranging from a 
burst water pipe, to a pandemic, to an evacuation of Capitol Hill. 
These exercises demonstrate our ability to support mission-essential 
systems under adverse conditions, and the ability to support 
substantial numbers of people working from home. We continue to 
exercise the ability to support our Senate customers in the event of an 
emergency situation which may limit our ability to get to work. This 
includes weekly and monthly exercises designed to ensure technical 
support is available from the Alternate Computing Facility and other 
remote locations. Our diligence to this initiative has proved 
worthwhile during various weather events. With the knowledge that the 
business of the Senate continued and that State office locations were 
not affected by the weather in Washington, DC, our staff continued to 
support the Senate community remotely throughout these events. This 
included answering the phones from home-based locations, highlighting 
the capabilities that our current migration to IP telephony will bring 
to the rest of the Senate.
            Securing our Information Infrastructure
    We are now deploying critical non-Apple software patches to about 
two-thirds of the Macintosh computers in the Senate environment, a 
number that continues to increase over time. We have deployed a 
configuration to ensure that the Macs download and install available 
Apple application patches, and we plan to expand to patching Apple 
operating system and Microsoft Office suite patches in the coming year.
    Active and aggressive adversaries continue to target the Senate's 
information and technology assets. Over the last year we have found 
that keeping the Senate information technology infrastructure secure 
against these threats is becoming increasingly more complex. We strive 
to satisfy our customers' demands for the latest in technological 
innovations, but find that the new technologies come with new, 
undocumented vulnerabilities. As a consequence of performing 
vulnerability assessments and through work with our technology vendors, 
we have found that even ``mature'' technologies are often vulnerable 
and require periodic security patches. To compound things further, 
there are a growing number of adversaries using tools with increasing 
sophistication in their attempts to destabilize the Internet in order 
to take advantage of the previously-mentioned vulnerabilities.
    These challenges create circumstances where the IT Security group 
must continue to:
  --intensify our cybersecurity intelligence coordination and 
        analytical processing ability;
  --improve our vulnerability identification and mitigation processes;
  --increase our end user awareness training; and
  --continuously evaluate new technologies and improve our existing 
        information technologies to compensate for the inherent 
        insecurity of those technologies and the increasingly 
        destabilized nature of the Internet.
    Over the past 3 years, our IT security staff has noted a marked 
decrease in the number of security incidents handled by the Security 
Operations Center. The number of security incidents decreased from 408 
incidents in 2011, to 310 incidents in 2012, to 249 incidents in 2013. 
This continued decrease in the number of incidents represents a 24 
percent reduction from 2011 to 2012 and a 20 percent decline from 2012 
to 2013, with an overall decrease of 39 percent from 2011 to 2013. The 
decrease in overall security incidents can likely be attributed to a 
combination of factors: our increased level of end user awareness 
through cyber threats briefings and end user information security 
awareness training, better cyber intelligence sharing with other 
agencies, and our continual hardening of Senate devices through 
patching and better integration of security controls.
    In the past year, we have analyzed over 2,000 incidents involving 
potential malware and have shared attack indicators with other Federal 
agencies, thus raising the level of awareness and protecting the U.S. 
Government as a whole. Our analysis of malware identified a number of 
instances where previously unknown zero-day attacks have been attempted 
against newly identified vulnerabilities that did not yet have security 
fixes. These attacks would have otherwise gone undetected and could 
have eventually compromised our entire network. By working with other 
organizations, not only have we protected the Senate's IT environment, 
we have raised awareness with our colleagues in the rest of the Federal 
Government.
    Calls to the Help Desk for assistance with remediating virus 
infections have decreased over the past year. In calendar year 2011, 
the Help Desk received 121 requests for help with virus-related issues, 
while in calendar year 2012, the number of requests increased to 165. 
In 2013, the number of virus-related calls decreased to 105.
    We still observe ``spear phishing'' to be a significant avenue for 
potential exploitation. While the number of targeted attacks against 
Senate assets decreased in 2013 from 2012, the adversaries conducting 
these attacks use techniques we assess to be among the most 
resourceful, persistent, and technologically advanced. We have also 
seen targeted attacks by known adversaries against personal accounts of 
Senate personnel, including through social media, apparently attempting 
to leverage access beyond the reach of our countermeasures.
    Using open source intelligence, we have seen attempts to target 
users by compromising Web sites that are commonly used by members of 
the Senate community or by the general public in what are called 
``watering hole attacks.'' The recent wtop.com Web site infection and 
several other popular site infections suggest that adversaries are 
adjusting their tactics by targeting ``watering holes'' that are 
outside the Senate security perimeter in attempts to infect Senate 
devices that visit the infected Web pages.
    To protect against these ``watering hole'' attacks, we have 
deployed a Secure Web Gateway service to provide the Senate with 
increased protection against compromised Web sites that house malware 
staged by cybercriminals or other malicious actors. The solution scans 
browser traffic for malicious activity and blocks connection attempts 
to known malicious Web sites. It also analyzes the data stream to 
recognize and block malware that might be carried by compromised sites.
    Our Vulnerability Assessment program and Systems Management Service 
directly contribute to our strategic goal to provide a secure Senate 
information infrastructure. The Vulnerability Assessment program 
routinely scans every computer on the Senate network to examine the 
configuration and identify vulnerabilities. The Systems Management 
Service (SMS) provides automated critical security patches to non-
Microsoft software on both Windows and Apple Mac computers. We have 
seen lower levels in the average security vulnerability of systems 
since SMS was implemented.
    We continue to sharpen and update our defenses in order to be able 
to successfully defend against advanced persistent threats and to 
compensate for the destabilizing Internet. Our ability to detect and 
neutralize these attacks is only possible with our continued close 
cooperation with our user community and the wider Federal Government. 
We must continue to coordinate and share information regarding all 
attack vectors with other Federal agencies so that we can all be better 
able to defend against these threats.
    Using information gained through close coordination with Federal 
agencies, we continue to conduct threat briefings for system 
administrators, office leadership, and other staff. Our vigilant 
monitoring and analysis of the evolving threat environment enable us to 
better develop effective countermeasures. Since even the best 
countermeasures can eventually be defeated, we augment our technical 
countermeasures with educating end users on the current threats, the 
techniques that are often used, and how to counter them. Over the last 
year, such training and awareness briefings have paid off in the form 
of increased situational awareness. Many of our tips come from Senate 
staff who have been targeted by adversaries. These tips have proven to 
be a wealth of information for our external partners, who are better 
able to protect their networks by deploying technical countermeasures.
Enhancing Stewardship
            Enhancing Stewardship through Fiscal and Environmental 
                    Responsibility
    Stewardship of our resources is intertwined with everything we do, 
as well as being a driving force for some of our activities. We are 
always looking for ways to improve our processes or technologies so 
that we save time, money, electricity, paper, or other resources. Our 
CIO organization is a good steward of the fiscal resources of the 
Senate, consistently and continuously improving on the services offered 
to our customers while seeking only modest increases in funding. Many 
initiatives save offices hundreds or thousands of dollars in costs that 
would otherwise be borne out of their official accounts. As most of 
these initiatives save money due to a reduction in the purchase of some 
commodity, they also fit in with our efforts toward environmental 
stewardship. Following are some examples of our efforts to enhance 
fiscal and environmental stewardship:
  --The consolidation of our e-mail, mobility and network 
        authentication systems has yielded significant savings in 
        ongoing support and innovation costs. Contractor support costs 
        have already been reduced by over $700,000 annually. Through 
        the use of fewer, scaled servers that each support larger 
        numbers of users, we are realizing additional hardware and 
        software cost savings as these systems are replaced at the 
        conclusion of their normal lifecycle. We have already removed 
        more than 30 physical servers as part of the effort.
  --Our Systems Management Service for automated deployment of 
        applications and updates to workstations and servers reduce the 
        maintenance burden on users and aid in maintaining a secure 
        systems baseline.
  --We have continued our virtualization efforts, where we now reduce 
        energy, maintenance, and support costs by running more than 887 
        of our servers in a virtual environment. We will continue an 
        aggressive campaign to virtualize servers until every server 
        that can be virtualized has been virtualized.
  --Offices have taken great advantage of our virtual machine 
        infrastructure that allows us to centrally host their file and 
        application servers on shared hardware at our primary and 
        alternate facilities. This approach greatly increases server 
        hardware efficiency, and, through system duplication and data 
        replication, offers enterprise-class data redundancy and 
        recovery in the event of a critical local failure or crisis. 
        The virtual solution also relieves offices of considerable 
        noise and excess heat, and increases usable working areas for 
        staff. It removes the single point of failure from existing 
        office servers and meets continuity of operations and data 
        replication requirements for approximately half the cost of 
        existing solutions. To date we are hosting 101 member and 
        committee office file servers with a total of 124 virtual 
        servers. Virtual servers running in the data center consume 
        only 25 percent of the energy of a comparable number of 
        physical servers. This means a reduction in power consumption 
        and air conditioning requirements, saving Senate funds, while 
        enhancing our ability to provide reliable and redundant 
        services. Fewer servers used by the Senate also means fewer 
        servers that need to be manufactured and, therefore, have to be 
        disposed of at their end of life, which is ``greening'' on a 
        national scale.
  --We renegotiated the contracts with both of our Content Distribution 
        Network providers for streaming the Senate floor and committee 
        hearings and realized a combined $150,000 per year savings.
  --We continue to use our technology catalog to highlight the energy-
        efficient aspects of our supported information technology and 
        general office equipment, and we participated in the Senate 
        Environmental and Energy Showcase.
  --We continue our efforts to dispose of surplus electronic equipment 
        by identifying non-supported equipment and preparing it for 
        disposal by the General Services Administration. We also send 
        more sensitive equipment like magnetic media and mobile 
        communications equipment to the National Security Agency. Last 
        year we sent over 8,500 pieces of IT equipment to GSA for 
        redistribution or resale and over 2,500 pieces of equipment to 
        National Security Agency (NSA) for destruction.
  --We also ensure that the devices we recommend to the Senate meet the 
        applicable EnergyStar guidelines and, where feasible, the 
        guidelines for the responsible manufacture of information 
        technology equipment.
                               operations
Central Operations
            Smart Card Programs--ID Office
    The Senate ID Office continues to work with other Government 
agencies on infrastructure for Smart Cards based on HSPD-12 (Homeland 
Security Presidential Directive--the policy for a common identification 
standard for Federal employees and contractors). SAA staff from the ID 
Office and Technology Development Services are collaborating with 
executive branch counterparts to implement smart access cards. 
Currently, in conjunction with the Secretary of the Senate, the SAA is 
issuing Senate Smart Cards, to provide digital signatures on paperless 
transactions for the Disbursing Office.
            Parking Operations
    Improving communication to enhance customer service continues to be 
a primary focus of the Parking Operations team. The recently 
implemented parking system now allows direct communication to 
individual permit holders when a situation unique to their permitted 
area arises. Social media will be explored to provide additional 
methods of communication in the upcoming fiscal year.
    We anticipate that preparing for long-term parking displacements 
will require the attention of Parking Operations during fiscal year 
2015. The Architect of the Capitol is planning renovations of the 
Russell Legislative Garage and the Thurgood Marshall Judiciary Office 
Building Garage. The Russell Legislative Garage renovation will 
displace the parking permit issuance booth and over 100 spaces, which 
are under the control of the Committee on Rules and Administration. 
Parking Operations will work closely with the committee's staff and AOC 
personnel to ensure customer service can be maintained and displaced 
garage permit holders are accommodated in other Senate areas. The 
renovation of the Thurgood Marshall Judiciary Office Building Garage 
will create another set of challenges, as it is anticipated that the 
number of spaces after the renovation will be reduced. Parking 
Operations will ensure all stakeholders are aware of the plans for both 
renovations.
            Transportation and Fleet Operations
    Transportation and Fleet Operations procures, manages, and 
maintains SAA vehicles; provides transportation information to offices; 
and manages, maintains, and operates the Fleet Parking Shuttle service. 
The SAA fleet includes trucks, vans, buses, SUVs, electric vehicles, 
Segways, and a handicapped-accessible van to support the Senate 
community. Transportation and Fleet Operations is responsible for 
vehicle service maintenance and repair, completing work orders, 
equipment installations, tag/registration renewals, and inspections for 
all fleet vehicles. Fleet staff transported more than 20,000 Senate 
staffers through the Parking Shuttle service during fiscal year 2013.
    Transportation and Fleet Operations is a leader in ``go green'' 
initiatives with flex-fuel/E-85 vehicles, gas-electric hybrids, all-
electric vehicles, Segway Personal Transports, diesel exhaust fluid 
(DEF)-certified trucks, and a MAXXFORCE-equipped diesel engine truck 
with Exhaust Gas Recirculation (EGR) to meet latest Environmental 
Protection Agency (EPA) standards.
            Photography Studio
    The Photography Studio provides photography and imaging services 
for Senate offices, capturing more than 82,263 photo images and 
producing more than 78,172 photo prints during fiscal year 2013. The 
studio's popular image archiving service was used to digitize 3,845 
images from film and prints, and transferred 26,321 images to digital 
media (CD, DVD or PHD), during fiscal year 2013.
    During fiscal year 2013, the Photo Studio coordinated with the 
House and the Architect of the Capitol photo divisions to expand and 
enhance the coverage of the 57th Presidential Inauguration ceremony. 
The photo browser application continues to provide a secure location to 
store and organize, download, and upload photos, as well as place 
orders for photo prints through a Web interface. Testing on green 
screen technology for portraits is close to completion, allowing 
Senators to have their portrait images photographed on a green screen 
and digitally combined with different unique backgrounds and locations 
that are difficult to access, or seasonal images that Senators may 
otherwise find inconvenient or inaccessible when the Senate is in 
session.
Printing, Graphics and Direct Mail
    The Printing, Graphics and Direct Mail (PGDM) branch provides high-
level, direct customer support to the Senate community through 
photocopying, graphic design, printing, mailing, document preservation, 
logistics, and security, producing over 61.8 million items during 
fiscal year 2013. Over the past year, PGDM has dramatically increased 
its output for our Senate customers, while at the same time holding the 
line on personnel and other costs. We are making the most of technology 
and other innovations to expand our service offerings and enhance 
efficiency and security.
    To continuously improve and maintain a flexible and responsive 
organization, PGDM introduced our new and improved Web-based Online 
Ordering service. PGDM received and confirmed 379 work orders 
requesting over 4 million printed documents that were electronically 
submitted using this easy and convenient option.
    As a good steward of fiscal resources, PGDM garnered notable 
savings for the Senate. More than $1 million was saved in postage costs 
by pre-sorting and discounting 5.8 million pieces of outgoing Senate 
franked mail. Another $54,000 in postage was saved by using new 
software to identify 123,778 undeliverable addresses before they were 
introduced into the United States Postal Service (USPS) mail stream. 
Additionally, we saved approximately $823,000 by producing 9,260 charts 
in-house for Senate floor proceedings, committee hearings, and special 
events.
    PGDM offers a variety of finishing options for books: plastic coil 
bind, thermal, and perfect bind. During fiscal year 2013, PGDM 
completed 773,040 books using these binding options.
    The branch continued to improve operations and responded to 60,533 
individual Senate job requests during fiscal year 2013. PGDM met Senate 
office demands for document preservation by scanning and digitizing 
over 5.1 million pages of Senate documents, generating more than 13.5 
million searchable PDFs during fiscal year 2013, compared to 4.6 
million during fiscal year 2012. PGDM also scanned 994,484 pieces of 
unprocessed constituent mail during fiscal year 2013, compared to 
747,659 pieces during fiscal year 2012, an increase of 33 percent. This 
service allows offices to electronically route mail to staff and import 
into their Constituent Services Systems.
    PGDM has implemented a system called Multimedia Digitization to 
convert analog media (VHS and Beta tapes, cassette tapes, and 35mm 
slides) to Movie Picture Experts (MP3 and MPG) and Waveform Audio File 
(WAV) formats for preservation. To date, PGDM has used this new service 
to convert 2,839 tapes or slides from obsolete media to digital.
    The document management system, OnBase, continues to be a useful 
and popular tool among Senate offices. PGDM creates customized, Web-
accessible, secure, searchable document databases for Senate offices 
that are populated with documents sent to PGDM for scanning and by 
Senate offices entering their own digital documents. During fiscal year 
2013, PGDM loaded 39,799 full documents, ranging in page count from 1 
to 1,000 pages each, into Members' OnBase accounts.
    PGDM produced 3,423 rolls of microfilm, converting over 3.9 million 
microfilm frames to searchable PDF pages, for Senate offices during 
fiscal year 2013, compared to just 950 during fiscal year 2012. PGDM 
offers secure disposal for obsolete documents and, during fiscal year 
2013, shredded and disposed of 9,253 boxes of obsolete documents, 
compared to 3,387 during fiscal year 2012.
    The branch also introduced Secure Scanning, a service that 
digitizes sensitive documents such as personnel files and case work 
using secure transport, a secure room for production, and a separate 
stand-alone scanning system. This program safeguarded over 123,868 
confidential documents for the United State Capitol Police during 
fiscal year 2013.
    PGDM picks up boxes that are prepared for the offsite storage 
facility and scans the contents to DVDs, or to the office's OnBase 
account. Once scanning is complete, PGDM will repack and deliver the 
boxes to the facility for storage. This helps Senate offices prepare 
for future donation to a repository and allows the office to have 
immediate digital access to documents for research or auditing 
purposes. Using this new service, PGDM assisted Senate offices in 
transporting and scanning over 500 boxes of Senate documents before 
shipment to the storage facility.
    Customer focus is a priority with PGDM; we are committed to be 
flexible and explore new opportunities to improve the quality of 
services to the Senate community. PGDM maintains a high level of 
service in our satellite copy centers for Senate offices by providing 
reliable, user-friendly copiers. In fiscal year 2013, the satellite 
copy centers produced more than 3.9 million pages utilizing the nine 
robust self-serve copiers, an 11 percent increase over fiscal year 
2012.
    More than 28 million pages were printed during fiscal year 2013. Of 
these, there were 2 million color copies produced; 16 million produced 
utilizing conventional full-color offset printing; and 3.8 million 
personalized constituent letters printed using variable print 
technology. In an effort to assist Senate offices to efficiently direct 
constituent mailings, PGDM can individually address and seal mail 
pieces simultaneously. During fiscal year 2013, PGDM individually 
addressed over 1.9 million mail pieces to target specific constituents. 
Foil stamping/embossing/die cutting continues to gain in popularity; 
PGDM produced 449,438 pieces during fiscal year 2013, compared to 
248,542 during fiscal year 2012, an increase of 81 percent.
    PGDM's commitment to teamwork and excellent customer service 
extends to its legislative branch partners as well. We worked 
collaboratively with the Architect of the Capitol to fulfill 86,118 
flag requests during fiscal year 2013. We assisted the AOC by storing 
and delivering 3,359,000 tickets, brochures, and pamphlets to support 
the Capitol Visitor Center and the Capitol building; an increase of 129 
percent from fiscal year 2012. By working in tandem with the Government 
Printing Office, PGDM delivered more than 3.4 million documents (Pocket 
Constitutions, Our Flag, Our American Government, etc.) to requestors; 
and increase of 55 percent from 2.2 million documents in fiscal year 
2012.
    Through effective communication and teamwork, PGDM's Senate Support 
Facility upheld the SAA mission for operational security during fiscal 
year 2013 by receiving 575,088 items from the USCP off-site inspection 
facility and transferring them to the Senate Support Facility (SSF), 
our warehouse facility. This process eliminated 421 commercial truck 
deliveries to Capitol Hill, reducing traffic and allowing the USCP to 
focus on other aspects of safety.
    The branch continues its commitment to assist the USCP with 
innovative methods of managing crowds and access for special events 
taking place on Capitol Hill. PGDM provides large format printing of 
signs and banners for major events, plus security enhancements for 
tickets, badges, and placards. To make it extremely difficult to 
reproduce counterfeit items, PGDM uses clear toner technology along 
with a custom USCP hologram that is foil stamped on credentials.
Senate Post Office
    The Senate Post Office delivers mail and packages to over 180 mail 
stops within the Capitol complex and multiple other locations within 
the Washington metropolitan area. Same-day pickup and desk-to-desk 
delivery of ``Inside Mail'' documents, commercial carrier packages, and 
United States Postal Service mail is provided. All incoming mail and 
packages addressed to the Senate's DC offices are thoroughly tested 
prior to delivery.
    In an effort to promote greater efficiency and to meet the demands 
of a reduced budget, the Senate Post Office underwent a thorough 
operational review over the past year. Through attrition and the SAA 
Voluntary Separation Incentive Payment (VSIP), the Senate Post Office 
reduced staff from 75 to 66 FTEs. Furthermore, a thorough review of the 
two retail unit locations determined the Russell Post Office (located 
in Room SR-B34B) lacked sufficient revenue and customers to support 
staffing, and was permanently closed.
    The Senate Post Office introduced handheld scanners for the purpose 
of online mail tracking and reducing the use of paper receipts. The 
handheld devices use the latest barcode tracking software, mobile 
computing hardware, and package shipping software to monitor and 
control the flow of inbound, outbound, and inter-office mail. The 
handheld data collection devices provide signature capture, desktop 
syncing, and in-depth reporting, and they allow a mail carrier to track 
any mail piece and monitor its distribution. The Senate Post Office 
continues to explore emerging technology to promote better efficiency.
    The Senate Post Office continuously strives to be a good steward of 
taxpayers' dollars while elevating performance. Credit and debit card 
transactions accounted for 22 percent of overall retail sales totaling 
slightly under $1.7 million during fiscal year 2013. The Contract 
Access Retail System (CARS) implemented in February 2013 has been 
successful at providing automatic updates and allowing customers' real 
time tracking capabilities through the USPS Web site.
    While competing against digital broadcast and social media, mail 
remains an active medium for constituent communication with Senators 
and their staff. During fiscal year 2013, the Senate Post Office 
received, tested, and delivered 17,149,915 safe items to Senate 
offices, including 13,553,040 pieces of USPS mail; 3,166,560 pieces of 
internal mail routed within the Senate and to/from other Government 
agencies; 195,547 packages; and 234,768 courier items. Even as overall 
mail volume nationwide has declined sharply in recent years, USPS mail 
received by the Senate has continued to trend upward over the past 5 
years.
    All mail and packages addressed to the Senate's DC offices are 
tested and delivered by Senate Post Office employees. During fiscal 
year 2013, highly trained Senate Post Office off-site mail staff 
intercepted 27 articles containing potentially harmful and suspicious 
substances. The United States Capitol Police Hazardous Material 
Response Team examined those and 48 other items, and Senate Post Office 
management screened 8,313 items requiring further scrutiny. These 
mailings were addressed to Senators with the intent to disrupt Senate 
business.
    All suspicious items were reported to the Capitol Police and 
investigated. On Tuesday, April 16, 2013, the Senate Mail Facility that 
services Senators' DC offices received mail that tested positive for 
the toxin ricin. Mail delivery resumed on Monday, April 22, 2013, as we 
activated our continuity of operations plan by processing Senate mail 
at the House screening facility while additional testing and cleanup of 
the Senate facility was accomplished. The Senate Mail Facility returned 
to normal operations on May 1, 2013. As a safety precaution, all of the 
U.S. Senate mail processed during the ricin event was scanned and then 
printed. This digitization process ensured that all mail affected by 
the incident was safely and securely transmitted to the intended 
Senator or committee without risk of potential contamination. You can 
be confident that our mail processing system worked precisely the way 
it was designed.
    Senate Post Office management worked with the Committee on 
Appropriations and the Committee on Rules and Administration to build 
and operate one of the best facilities within the Government to process 
time-sensitive documents delivered to the Senate. The Congressional 
Acceptance Site ensures all same-day documents are x-rayed, opened, and 
tested, and are safe for delivery to Senate offices. During fiscal year 
2013, more than 234,000 items were successfully tested and delivered.
    The Senate Post Office, in conjunction with the Senate State Office 
Readiness Program, educates offices on the importance of the continued 
use of the Postal Sentry. The Postal Sentry, if used properly, provides 
the best level of protection should State offices receive mail 
containing a potentially harmful substance. The Senate Postmaster has 
requested that all Senate State office staff utilize the Postal Sentry 
mail processing system whenever mail is opened. The Senate Post Office 
participates in monthly Webinars educating State offices on the proper 
use of the Postal Sentry. Currently, 348 State offices have the Postal 
Sentry.
Capitol Facilities
    Capitol Facilities serves the Senate community by providing a clean 
and professional work environment in the Capitol. Through its 
Environmental Services division, it cleans Capitol spaces, moves 
Capitol furniture, and provides special event setups in the Capitol--
including ten event spaces in the Capitol Visitor Center Senate 
expansion space. Capitol Facilities Furnishings division provides 
furniture, carpeting, and window treatments to Capitol offices. 
Staffing in the department was reduced by over 15 percent in fiscal 
year 2013, resulting in cost savings of over $520,000. To meet cyclical 
customer demands during peak event setups and furniture moves, Capitol 
Facilities ensures labor cost efficiency by supplementing the full-time 
workforce with contracted labor in place of additional FTEs.
    As with many other SAA departments, Capitol Facilities truly is 
``doing more with less.'' During fiscal year 2013, Capitol Facilities 
completed 3,263 special event setups in the Capitol and CVC Senate 
expansion space, an increase of 33 percent from fiscal year 2012. 
Service requests from Capitol offices for moving furniture, delivering 
supplies, and providing picture frames to Senate offices totaled 5,320, 
an increase of nearly 87 percent from fiscal year 2012.
    The Furnishings division provides furnishings for Capitol offices 
on the Senate side by maintaining an inventory of stock items as well 
as designing and producing custom pieces. The Cabinet Shop designed, 
built, and installed 57 pieces of furniture including new public 
corridor sign holders and a custom upholstered bench for the Finance 
Committee. In addition, the Cabinet Shop responded to 348 service calls 
during fiscal year 2013. During fiscal year 2013, there were 2,121 
requests for construction of frames and specialty framing.
    The division provided the chairs and tables that are used by the 
President and the Vice-President during the Inauguration. In addition, 
the division also provides carpeting and draperies to Capitol offices 
and is responsible for facilitating moves of the private Capitol 
offices. In fiscal year 2013, 53 offices were moved and 15 new offices 
were selected.
    To increase customer service to the Senate community, Capitol 
Facilities continues to look for efficiencies in its operations and is 
utilizing the latest technologies available, including the Computer 
Numerical Control (CNC) machine, which is essentially a computer-
controlled router/shaper. This machine will dramatically reduce the 
time needed to fabricate cabinetry and furniture. Additional 
enhancements of the online ordering system, CapFOR, are planned, 
further improving the level of service to the Capitol offices. 
Comprised of seven modules, CapFOR allows customers to submit requests 
online for furniture, special events, supplies, and framing; the system 
is also accessible for the first time to outside constituents to 
facilitate placing their special event setup requirements online. The 
system increases efficiency and reduces errors in the customer request 
process.
Office Support Services
    Through timely communication and consistent high quality standards, 
the Office Support Services team continues to ensure all SAA services 
to Senate offices are provided efficiently.
    Office Support Services staff serve as the liaison between 
Senators' State offices and the commercial or Federal landlords. The 
State Office Liaison oversees 450 State offices. They work with Senate 
offices to negotiate the most comprehensive State office lease 
agreements that are both cost effective and competitive to the 
commercial market rates within the location where the office is 
located. The State Office Liaison negotiated 68 new commercial space 
leases for State offices, 17 Federal space assignments, one new mobile 
office lease, 26 lease renewals, and 46 lease amendments.
    Customer Support continues to consult members, leadership, and 
committees regarding the most efficient use of office automation, and 
analyzes functional operations and workflow in Senate offices to 
determine how new office technology might improve efficiency and 
productivity. During fiscal year 2013, this team coordinated 34 office 
moves in DC, numerous State office moves and, post-election, 
coordinated the opening and closing of nine additional Senators' 
offices.
                           capitol operations
    Providing exceptional service to our customers--internal and 
external--remains the focus of our Capitol Operations team. Over the 
past year, team members once again provided a range of services to 
Senators and their staffs, visitors to the Capitol, members of the news 
media who cover Congress, and the broader public. A major focus was 
providing our customers with timely, accurate and useful information 
that promotes safety and enhances the experience of those who work in 
and visit the Senate.
Senate Appointment Desks
    Every day, thousands of people visit the Senate office buildings, 
the Capitol, and the Capitol Visitor Center. For some of these 
visitors, their first stop is one of our five Senate Appointment Desks, 
where they are greeted with professionalism and a smile. Collectively, 
our five appointment desks processed 190,348 visitors during 2013, an 
increase of almost 7 percent from the previous year. Our computer-based 
logging and badging system allows visitors to be processed in an 
efficient, safe and customer-friendly manner, while also helping the 
United States Capitol Police better identify and protect visitors, as 
well as staff and members.
    Our network of appointments desks--in the Capitol near the North 
Door, in the Capitol Visitor Center, and in the Russell and Hart Senate 
office buildings--provides for more efficient processing of visitors, 
allowing them to get their destinations quickly and safely. For 
example, the Capitol Appointment Desk processed about 19 percent of our 
visitors during 2013, a total of 36,128 guests. The fact that the other 
81 percent of the visitors were able to enter through the other desks 
contributed to shorter wait times for official business visitors 
entering through the North Door and reduced congestion within the 
Capitol proper.
    As noted, our other appointment desks were busy last year. More 
than 48,000 visitors entered the Capitol through the Capitol Visitor 
Center to attend meetings and functions in the CVC meeting rooms. 
Assisting guests with getting to the Capitol and the CVC from the 
Senate office buildings is an important role of the Senate Appointment 
Desks. In 2013, more than 94,000 guests, a record total, entered the 
Capitol via the Russell Appointment Desk, including 73,680 who were 
destined for the CVC. Another 11,717 visitors received badges from our 
Hart Appointment Desk. The SAA worked collaboratively with the Senate 
Committee on Rules and Administration, the USCP, and the Architect of 
the Capitol to design a secure and welcoming process for staff who 
escort Senate guests to the Capitol from the Hart building.
    In an effort to improve understanding of how the Senate Appointment 
Desks work and how they promote safety at the Capitol, Appointment Desk 
personnel began providing regular ``roll call'' training to USCP 
officers in 2012, explaining the process of logging visitors, 
distributing badges, and the different types of access each badge 
allows. During 2013, appointment desk staff made approximately 24 
presentations, reaching hundreds of officers at various USCP roll 
calls. In addition, Appointment Desk staff now makes similar 
presentations at the Capitol tour training sessions put on by the 
Capitol Visitor Center for Senate staff and interns. During 2013, more 
than 4,000 staff and interns attended 63 separate trainings at which 
the Appointment Desk presented information about their operations. 
Through these information sharing and coordination efforts, everyone 
involved in the issuing, receiving, and enforcing of visitor badges has 
a better understanding of the procedures in place and how they 
contribute to safety and security of the Senate.
Senate Doorkeepers
    Our Doorkeepers play a critical role in supporting the legislative 
process of the Senate. They provide access to those with Senate floor 
privileges and enforce the rules of the Senate, while also facilitating 
the needs of Senators, Senate floor staff, and Pages. Each year, 
Doorkeepers also provide exceptional support for a number of special 
events attended by Senators, their families, and special guests. Over 
the past year, these events included various Joint Meetings of 
Congress, including the movement and seating of Senators for the State 
of the Union address, as well as congressional tributes, statue 
dedications, and Congressional Gold Medal ceremonies. These and other 
events require the expertise of the Doorkeepers who assist with 
professionalism and poise on these historic occasions.
    In addition to their work directly supporting Senators, the 
Doorkeepers have the responsibility--and the privilege--of assisting 
tens of thousands of people who visit the Senate Gallery each year. For 
many who visit the Capitol, the opportunity to sit in the Senate 
Gallery is a highlight of their trip. Doorkeepers ensure their 
experiences are educational, memorable, and safe. Last year, 
Doorkeepers assisted 210,164 visitors in viewing the Senate Chamber, 
both when the Senate was in session and during recess. That was nearly 
a 13 percent increase from the 2012 visitor total.
    Over the past year, we have worked to enhance the visitors' 
experience through greater collaboration with our partners such as the 
CVC, ongoing training of Doorkeeper staff, and refinement of the 
materials that are distributed to visitors. As a result, our 
Doorkeepers have become increasingly skilled at welcoming visitors to 
the Capitol and educating them on the history and operation of the 
Senate. The feedback has been consistently positive from visitors, 
Senate offices, and our partners. In particular, Senate Gallery 
visitors comment on our Doorkeepers' ability to process larger groups 
in an efficient, friendly, and helpful manner.
    Over the past decade and more, Senate Doorkeepers have taken on an 
expanded role in security and safety. Using lessons from September 11, 
2001, the Doorkeepers--working with the United States Capitol Police 
and the SAA Office of Protective Services and Continuity--developed a 
comprehensive Continuity of Operations Plan. During 2013, the 
Doorkeeper team conducted regular drills and exercises with the USCP 
and others on various scenarios such as shelter-in-place, evacuations, 
and setting up alternate locations. Currently, all of our Doorkeepers 
are trained in first aid, CPR, and AED.
    Our Doorkeepers take their security support responsibilities very 
seriously, and they are a trained and reliable group of professionals 
who can be counted on to act decisively in any number of situations. 
This was demonstrated during two potentially serious situations over 
the past year. On September 16, 2013, a mass shooting occurred at the 
Washington Navy Yard. Then on October 3, there were gunshots fired on 
Capitol Hill, and the Senate Chamber and Galleries were ordered to 
shelter-in-place. Our Doorkeepers were able to draw on their training 
to offer a reassuring presence to staff and guests during both of these 
incidents.
    Senate Doorkeepers are responsible for numerous emergency 
preparedness responses, from setting up and managing a Briefing Center 
to supporting on- and off-site Alternate Chamber locations. These 
varied and pivotal duties require ongoing cross-training among 
Doorkeeper staff, the USCP, Secretaries for the Majority and Minority, 
Secretary of the Senate, and other SAA departments. Doorkeepers are 
among the first responders during any Chamber protective incident. At 
the onset of an event, Doorkeepers must assess member, staff, and 
visitor needs; take action to assist USCP in creating a safe 
environment within the Chamber and areas of the CVC; and, if the 
situation requires, provide safe egress from the Capitol for all 
individuals who may not have the ability or knowledge to safely get 
themselves out of harm's way.
Senate Recording Studio
    In a time of instant communication and rapidly changing technology, 
the Senate Recording Studio strives to stay abreast of the latest 
solutions that allow the Senate to remain accessible to the public and 
enable Senators to communicate with their constituents across the 
country. The Recording Studio was busy and productive in 2013. Last 
year, the studio provided 794 hours of gavel-to-gavel coverage of 
Senate floor proceedings and provided broadcast coverage of 730 Senate 
committee hearings, an increase of 33 percent over the previous year. 
In addition, Recording Studio staff produced a total of 922 television 
productions for Senators, an 11 percent increase over 2012.
    In addition to the coverage of Senate floor, committee proceedings, 
and in-house radio and television production, the Recording Studio 
plays an important role in providing broadcast support of major 
congressional events. This past year, for example, the Recording Studio 
provided full coverage of three Gold Medal Ceremonies, the unveiling 
ceremonies for the Rosa Parks statue and Winston Churchill bust, and 
the dedication ceremony for the Frederick Douglass statue.
    Since 2011, the Recording Studio has provided support for the live 
streaming of the Senate floor on the Senate's Web site, www.senate.gov. 
Studio staff played a vital role in upfront planning, technical 
specifications, and installing, testing and maintaining equipment in 
the Recording Studio. They worked closely with the SAA Chief 
Information Officer, Senate Committee on Rules and Administration, and 
the contractor to make sure this new and important service went online 
smoothly and on time in January 2012. Now, anyone with access to a 
computer can witness the Senate at work with the click of a mouse. The 
studio continues to be an active partner in the live streaming and 
archiving of Senate Webcasts on www.senate.gov.
Media Galleries
    For members of the news media, the U.S. Congress--the people's 
house--remains one of the most open and accessible institutions of our 
Government. On any given day, hundreds of reporters, producers, 
photographers, videographers, and technical support personnel can be 
found in our hearing rooms and hallways covering Senate events and news 
conferences, and bringing the news of the Senate back to people across 
the country and around the world.
    Much of the responsibility for ensuring that the news media can 
conduct their business efficiently, safely, and in a manner that 
comports with Senate rules and traditions falls on our four Senate 
Media Galleries: the Daily Press Gallery, Periodical Press Gallery, 
Press Photographers' Gallery, and Senate Radio and Television Gallery. 
The unique structure of the Media Galleries, dating back to the early 
days of the Senate, requires them to work closely with their respective 
Standing and Executive Correspondents' Committees, the United States 
Capitol Police, and the Senate Committee on Rules and Administration in 
order to facilitate media arrangements and credentials for the more 
than 7,000 members of the media who cover the Senate.
    With the explosion of online and social media in recent years, the 
demand for news has become constant. As a result, Congress is being 
covered in more detail by more different types of media than ever 
before. Given this dynamic, the staff of the Media Galleries has worked 
diligently to accommodate the ever changing technology environment and 
how the world gets its news. For example, the four Media Galleries 
worked with the SAA's Office of the Chief Information Officer to 
upgrade the technical infrastructure, including incorporating Wi-Fi in 
all four Media Galleries and across the Senate campus. The Senate press 
wireless system, accessible through a secure log-in script, supports 
immediate transmission of media reports, including coverage of 
committee hearings.
            Senate Daily Press Gallery
    Daily Press Gallery staff supports those reporters who work for 
daily newspapers and online publications. The Gallery's first 
responsibility--ever since the Senate and House assigned press 
accreditation to the Standing Committee of Correspondents more than 140 
years ago--has always been the maintenance of high standards of 
journalistic independence through the press credentialing process.
    The annual reaccreditation may seem automatic to Gallery members, 
but it takes hundreds of hours of staff work each year to sustain the 
daily congressional press pass as the gold standard of media 
credentials in Washington. In 2013, the Senate Daily Press Gallery 
credentialed approximately 1,800 correspondents. At a time when online 
communications and social media are continually changing the media 
landscape, the Standing Committee also relies on the Press Gallery to 
supply the research and the institutional judgment needed for tough and 
sometimes precedent-setting decisions about who does, and who does not, 
qualify for media credentials.
    Gallery staff supports its correspondents, as well as Senate Press 
Secretaries and communications staff, in a variety of ways. A basic 
duty is to ensure that reporters have the access they need to cover the 
Senate, while at the same time honoring Senate traditions of decorum 
and recognizing the safety and security requirements of the Capitol 
Police.
    As custodians of the largest press complex on Capitol Hill, Gallery 
staff effectively acts as ``doorkeepers'' at the entrance to the press 
gallery inside the Senate Chamber. Simultaneously, the staff serves the 
100 or more reporters who work in the Daily Press Gallery on a typical 
day in a variety of ways. For example, staff provides reporters with 
copies of bills and amendments, as well as transcripts of floor debate; 
generates hand-tallies of roll call votes; tracks Senate floor 
activities and schedule changes; prepares for major events and 
ceremonies; and troubleshoots problems with the physical plant. On any 
given day, Daily Gallery staff are monitoring and assisting with access 
on the Capitol's second floor and other busy locations where news is 
breaking; facilitating coverage of committee hearings; and answering a 
steady stream of media and Senate staff inquiries about legislation, 
floor action, and parliamentary procedure.
    To improve its ``coverage'' of floor action and enhance 
communication with Gallery members and others, the Daily Press Gallery 
launched a newly redesigned Web site in 2013 (http://
www.dailypress.senate.gov/). The site has more information that is 
easier to access than ever before. In 2014, the Gallery will begin to 
use online tools to streamline its accreditation process and 
communications efforts.
            Senate Periodical Press Gallery
    The Periodical Press staff focuses much of its effort on 
credentialing over 1,200 members of the news media who work for non-
daily periodicals and their online publications, and supporting Senate 
staff with media arrangements and logistics for Senate activities. For 
2014, the Gallery remains focused on improving communications with 
Gallery members and Senate staff, reviewing new applications for 
accreditation to the Gallery, and day-to-day credentialing of 
periodical reporters on Capitol Hill.
    Among the ongoing duties of Gallery staff is to monitor news 
conferences, ``stakeouts,'' Rotunda events, and various other media 
events in the Capitol and Senate office buildings throughout the year. 
Staff continues to help facilitate media logistics at Senate hearings, 
including confirmation hearings for Cabinet-level positions and other 
high-profile hearings. In addition, most press secretaries and 
communications directors for Senators and Senate committees utilize the 
Gallery to help distribute information to members of the periodical 
press community that they might otherwise miss.
    During 2013, Periodical Press Gallery staff completely overhauled 
and updated their Gallery Web site (http://
www.periodicalpress.senate.gov/). The new site was launched in 
September 2013 and has received positive feedback from Senate staff and 
members of the media. On the site, Gallery staff maintains a daily 
Senate floor log and tracks legislative activity, votes, and schedule 
updates. These regular updates assist reporters covering the Senate and 
staff monitoring floor activity.
    The Periodical Press Gallery's Twitter account, @SenatePPG, 
continues to grow. The number of followers has more than doubled over 
the past year to more than 2,600. Twitter is proving to be an efficient 
and effective platform for keeping reporters and Senate staff up to 
date on floor schedules, votes, hearings, and Gallery activity. It is 
also a useful way to drive visitors to the Gallery's Web site, where 
information is presented in a consolidated, comprehensive manner. The 
Periodical Press Gallery was the first of the Senate Media Galleries to 
adopt Twitter; in 2013, Gallery staff received an SAA Outstanding Team 
Award for their work and contributions to social media.
            Press Photographers' Gallery
    The primary role of the Press Photographers' Gallery is to 
credential photographers and to assist at news events throughout 
Capitol Hill. Unlike the other three Media Galleries, which have 
counterparts on the House side, Press Photographers' Gallery staff has 
the unique responsibility of credentialing media representatives who 
cover both the Senate and the House of Representatives, and assisting 
at large news events and hearings in both Houses of Congress, including 
Gold Medal ceremonies, State of the Union addresses, VIP visits, and 
other special ceremonies.
    In recent years, the demand for news images, and the need to get 
them out almost instantaneously, have increased dramatically, as Web-
based news content has expanded and social media has become an integral 
part of modern-day news coverage. The Press Photographers' Gallery has 
responded to this demand in a number of ways. To keep news 
photographers informed and to facilitate coverage of Congressional 
events, Gallery staff recently updated its Web site (http://
www.pressphotographers.senate.gov/) to provide one reliable, easy-to-
use source of information. This year, the Gallery plans to implement a 
Twitter feed and possibly other social media platforms to communicate 
even more effectively with Gallery members and Senate staff.
            Radio and Television Gallery
    Members of the broadcast media have unique needs and equipment. The 
task of ensuring that the broadcast media's needs are met while the 
Senate's rules are followed falls largely to the staff of the Radio and 
Television Gallery. Gallery staff works closely with Senate staff and 
more than 3,900 credentialed members of the electronic media to 
facilitate coverage of Senate news events that occur in various 
locations throughout the Capitol and Senate office buildings. Gallery 
staff also assists in organizing equipment access as well as managing 
the broadcast technical infrastructure throughout the Senate campus.
    In order to modernize its communication efforts, Gallery staff 
recently updated its Web site (http://www.radiotv.senate.gov/) to 
better organize information and incorporate social media tools such as 
Twitter and Facebook. As a result, the staff has been able to 
streamline communications and manage press demands more efficiently.
    The Gallery also worked with the SAA Office of the Chief 
Information Officer to improve the press wireless system. Committee 
press secretaries appreciated this modern technical convenience, which 
aided in the press coverage of their hearings. Senate IT technicians 
placed additional wireless relays throughout the Gallery and improved 
connectivity speeds.
    Updating the broadcast infrastructure of Senate committee hearing 
rooms and other news event locations throughout the Senate campus 
remained a priority for Gallery staff during the past year. Working 
with other partners, Gallery staff has nearly completed the upgrade of 
the broadcast infrastructure of the Senate hearing rooms. While most 
hearing rooms have been outfitted with new broadcast technology such as 
LED lights and fiber optic cables, other news event locations in the 
Capitol Building still need to be renovated. In addition to hearing 
room improvements, technical upgrades to the Senate ``swamp'' site in 
the North Legislative Egg supported news coverage of many events, 
including the Government shutdown in October 2013 and the Supreme 
Court's historic decision regarding the Defense of Marriage Act.
    Radio and Television Gallery staff also assisted Senators in their 
regular use of the Gallery's studio that is located across from the 
Senate Chamber on the third floor of the Capitol. In 2013, the studio 
hosted several important news conferences, including such topics as the 
Government shutdown, raising the debt ceiling, proposed changes to 
healthcare legislation, and the bipartisan budget agreement. The 
studio's lighting system was recently renovated to LED lighting to 
accommodate digital broadcasting and to reduce energy costs; the cost 
of this upgrade was paid for entirely by the credentialed members of 
the Gallery through their annual dues. Discussions continued with 
respect to upgrading the studio's audio system and adding backdrops for 
conducting one-on-one interviews.
Internal Communications
    The Office of Internal Communications (OIC) was created 2 years ago 
to streamline communication within the SAA organization and to the rest 
of the Senate community. OIC provides SAA employees and other members 
of the Senate community with timely, accurate, and useful information 
that highlights SAA services and furthers efficiency and effectiveness.
    The office supports consolidated communications; better promotion 
and utilization of SAA services; and more clear, consistent and 
accurate organizational messages. OIC coordinates communication efforts 
through multiple channels--print, online and social media. The office 
created and continuously updates two important intranet sites: an SAA 
homepage on Webster accessible to the Senate community and the SAA 
community page accessible to SAA employees. These sites provide 
important information about campus safety and SAA services, as well as 
regular features that enhance community understanding and boost 
employee morale.
    OIC also reviews and edits publications that are distributed from 
SAA offices to the Senate community and sends electronic Dear Colleague 
messages. The office has sent nearly 150 electronic Dear Colleague 
messages since the program began. OIC also manages and maintains the 
Notice system, and edits and distributes Notices to the Senate 
community. During 2013, the office sent nearly 500 Notices and reviewed 
hundreds of publications for content and grammar. OIC also publishes 
the SAA Source newsletter every other week for SAA employees.
    Finally, like most other organizations, the SAA is using social 
media--Facebook and Twitter--to communicate with the Senate, our 
employees, and the public, and to receive feedback from them. Social 
media has become an important element of our everyday communications 
efforts and has been used successfully to disseminate information about 
traffic issues around the campus and Senate session information, as 
well as to highlight SAA services and employees and other useful 
information. Our Twitter account (@SenateSAA) has more than 5,500 
followers and Facebook has garnered more than 1,600 ``likes.''
    The value of these social media platforms during emergencies was 
demonstrated on October 3, 2013, when gunshots were fired on the 
Capitol campus and the Senate sheltered in place. The SAA immediately 
pushed out a series of ``Twitter Alerts''--special emergency messages 
that are highlighted in followers' Twitter feeds and can also be sent 
as text messages to their mobile devices--alerting followers to the 
gunfire reports, providing direction on sheltering in place, updating 
the status, and eventually providing an ``all clear.'' The SAA was part 
of the initial roll-out of Twitter Alerts in September 2013, and our 
use of this function during the October gunfire incident has been 
recognized nationally as a best practice.
    Additionally, the SAA social media team meets approximately every 
other month with communications staff from all of our partners on the 
Hill, including representatives from the Architect of the Capitol, 
Secretary of Senate, House of Representatives, Library of Congress, and 
many others. This inter-agency working group is supporting the 
dissemination and sharing of information and best practices in social 
media.
    Lastly, OIC currently is crafting a survey to gather information on 
which of their communication efforts are working and what can be 
improved. This survey will be distributed first to SAA employees and 
eventually to the larger Senate community.
                senate office of education and training
    The Senate Office of Education and Training provides training and 
development opportunities for Senate staff in Washington, DC, and the 
State offices. We continue to develop job-specific training and 
resources for Senate staff. Currently we are identifying the job skills 
required for each member and committee office job and creating a set of 
recommended classes to improve or learn those job skills. We are using 
a holistic view to make these recommendations. There are two branches 
within the office: Education and Training, and Health Promotion.
    The Education and Training branch provides training for all Senate 
staff in areas such as management and leadership development; human 
resources management; legislative and staff information; new staff and 
intern orientation; and training support for approved software and 
equipment used in Washington, DC, and State offices. This branch also 
coordinates and provides major training events for state and DC staff.
    Training and education are provided through instructor-led classes; 
one-on-one coaching sessions; specialized vendor-provided training; 
computer-based training; Webinars; video teleconferencing; informal 
training and support services; documentation, job aids and ``quick 
cards.''
    The Health Promotion branch provides seminars, classes, and 
screenings on health and wellness. This branch also coordinates an 
annual Health Fair for all Senate employees and plans blood drives 
throughout the year.
    We successfully trained many offices in the Senate on the use of 
the new Watson Unified Conferencing and Jabber Telepresence. We used a 
variety of learning methods, including online, documentation, 
classroom, and individual coaching.
    Our Learning Management System has over 3,000 staff accounts. This 
system provides Senate staff with a user-friendly method for finding 
and registering for training. It is part of our Education and Training 
resource suite, which provides a variety of means for staff to obtain 
the training and documentation they need.
    We will continue to expand our online training options for Hill and 
State staff. We are rolling out an Online Leadership curriculum for 
Senate managers and continue to work with our training partners to 
provide just-in-time training.
            Capitol Hill Training
    The Office of Education and Training offered over 1,000 instructor-
led and online classes and events in 2013, in which over 5,800 staff 
enrolled. This office's registration desk handled approximately 10,000 
e-mail and phone requests for training and documentation.
    We provided customized training to 121 offices for over 800 staff 
members. These sessions include conflict resolution, organizational 
development, strategic planning, Senate office systems training, and 
meeting facilitation. We also provided individual in-depth training to 
the Senate office system administrators and management coaching.
    We coordinate the Aides for the Senators-Elect training and new 
office Admin Directors training after every election. This consists of 
eight sessions of 20-30 staff at each session. Once the Senators are 
sworn in, we coordinate another 10 session orientation series for the 
office managers, attended by 15-20 staff.
    This office also coordinates the Senate's Intern Program. We 
provide training for intern coordinators as well as 10 orientation and 
training sessions for approximately 1,500 interns throughout the year. 
We work year round with the Intern Coordinators to provide training and 
support.
            State Office Training
    The Office of Education and Training provided learning 
opportunities to State offices for which over 300 State staff 
registered. Our office continues to offer conference-style networking 
and training opportunities. In 2013, 32 State staff attended the 
Virtual State Training Fair. We also presented the State Directors 
Forum and the Outreach Conference virtually. The 70 staff who attended 
these conferences selected to take part in 20 different virtual 
sessions. The Constituent Services Conference, held in DC, was attended 
by 42 State staff. Additionally, our office offers weekly video 
teleconferencing or Webinar classes just for State staff. Each of these 
offerings is attended by between 10-50 staff.
    We provide 5,000 online self-paced-based training courses covering 
technical, performance, and language skills and an online research 
library of 19,900 publications. This allows staff in both DC and the 
States to take training at their convenience. This past year, 398 DC 
and State office staff registered and accessed 921 unique courses. 
During 2013, over 8,400 book pages had been accessed.
            Health Promotion
    In the Health Promotion area, 450 staff participated in health 
promotion activities, including lung function and kidney screenings, 
blood drives, and seminars on health-related topics. We also coordinate 
Weight Watchers, Yoga, and Pilates sessions using the revolving fund 
for health promotion.
            Cost Saving Impacts
    The Office of Education and Training has worked diligently to save 
money while continuing to offer a varied and robust training program. 
For example, we eliminated all printed announcements and calendars. We 
have expanded our offerings of VTC and Webinars to include State and 
DC. We continue to add self-paced training modules to our catalog to 
allow State and DC staff to learn at their own time and place. Our 
Learning Center, created by SAA staff, reduces the support costs of our 
commercially-purchased system and provides a superior product.
                      employee assistance program
    Our Employee Assistance Program (EAP) continues to offer a variety 
of services to staff and their family members, Pages, and interns. In 
2013, nearly 1 in 20 Senate employees utilized the services of an EAP 
counselor; 174 employees took a mental health online screening; 1,631 
employees attended an EAP training activity; and 2,008 employees 
accessed resources for personalized information and referrals 
addressing childcare, parenting, adult care, aging, education, legal 
concerns, or financial issues.
    Early problem recognition and referral is a critical component of 
the EAP. To that end, EAP counselors work closely with Senate managers 
and supervisors. Through presentations, handouts, and individual 
consultations, the EAP supports managers and supervisors who are 
addressing challenging employee or staff issues. In 2013, EAP consulted 
with 191 managers or supervisors.
    An invaluable characteristic and goal of EAP services is to utilize 
outreach to effectively serve our client base. Working toward this goal 
in 2013, EAP initiated the electronic distribution of the quarterly EAP 
Focus newsletter through e-mail. In addition, the EAP continued to 
update and maintain materials on a wide array of mental health topics 
while offering a variety of time-sensitive and community-focused 
training programs, including video teleconference programs for State 
offices. Last year, EAP also continued to hone, expand, and utilize the 
skills of the 32-member Senate Peer Support Team through a series of 
presentations, trainings, and informational lectures.
    With regard to specific incidents in 2013, the EAP responded to a 
multitude of events, including the emotional needs and concerns that 
arose from those impacted by winter storms in the Northeast; 
devastating fires in Colorado; Boston Marathon bombings; Washington 
Navy Yard shooting tragedy; threatening mail incidents; the deaths of 
employees and the family members of employees; and employees and 
offices who requested support after other critical incidents.
              Appendix A--Fiscal Year 2015 Budget Request
                              Attachment I
                  financial plan for fiscal year 2015

                              OFFICE OF THE SERGEANT AT ARMS--UNITED STATES SENATE
                                                Executive Summary
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                   Fiscal Year 2015 vs. Fiscal
                                                       Fiscal Year  Fiscal Year             Year 2014
                                                       2014 Budget      2015    --------------------------------
                                                                      Request        $ Amount       % Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance
    Salaries.........................................      $68,000      $71,000          $3,000             4.4%
    Expenses.........................................      $76,735      $76,142           ($593)           -0.8%
                                                      ----------------------------------------------------------
      Total General Operations & Maintenance.........     $144,735     $147,142          $2,407             1.7%
 
Mandated Allowances & Allotments.....................      $45,306      $45,641            $335             0.7%
Capital Investment...................................         $653       $1,082            $429            65.7%
Nondiscretionary Items...............................       $5,516       $5,935            $419             7.6%
                                                      ----------------------------------------------------------
      Total..........................................     $196,210     $199,800          $3,590             1.8%
                                                      ==========================================================
 
Staffing.............................................          892          892               0             0.0%
----------------------------------------------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services, and equipment, we submit a fiscal year 2015 
budget request of $199,800,000, an increase of $3,590,000 or 1.8 
percent compared to fiscal year 2014. The salary budget request is 
$71,000,000, an increase of $3,000,000 or 4.4 percent, and the expense 
budget request is $128,800,000, an increase of $590,000 or 0.5 percent. 
The staffing request remains at 892.
    We present our budget in four categories: General Operations and 
Maintenance (Salaries and Expenses), Mandated Allowances and 
Allotments, Capital Investment, and Nondiscretionary Items.
  --The general operations and maintenance salaries budget request is 
        $71,000,000, an increase of $3,000,000 or 4.4 percent compared 
        to fiscal year 2014.
  --The general operations and maintenance expenses budget request for 
        existing services is $76,142,000, a decrease of $593,000 or 0.8 
        percent compared to fiscal year 2014.
  --The mandated allowances and allotments budget request is 
        $45,641,000, an increase of $335,000 or 0.7 percent compared to 
        fiscal year 2014. This budget supports State office rents, 
        $21,552,000; purchase of computer and office equipment, 
        $10,118,000; voice and data communications for Washington, DC, 
        and State offices, $7,263,000; procurement and maintenance of 
        member office constituent services systems, $3,686,000; 
        wireless services and equipment, $1,177,000; and State office 
        security enhancements, $1,472,000.
  --The capital investments budget request is $1,082,000, an increase 
        of $429,000 or 65.7 percent. This budget is for data networking 
        initiatives and expansions.
  --The nondiscretionary items budget request is $5,935,000, an 
        increase of $419,000 or 7.6 percent compared to fiscal year 
        2014. The request funds projects that support the Secretary of 
        the Senate: contract maintenance for the Financial Management 
        Information System, $2,777,000; support for the payroll system, 
        $2,628,000; and maintenance and necessary enhancements to the 
        Legislative Information System, $530,000.

    Senator Shaheen. Thank you.

                              U.S. SENATE

                        Office of the Secretary

STATEMENT OF HON. NANCY ERICKSON, SECRETARY OF THE 
            SENATE, WASHINGTON, DC
    Senator Shaheen. Ms. Erickson.
    Ms. Erickson. Chairman Shaheen, Senator Hoeven, this past 
year has presented many challenges for the offices within the 
purview of the Secretary of the Senate.
    From the Disbursing Office that developed a new payroll 
system, implemented a new healthcare law under a very tight 
schedule, and ensured timely paychecks when the Government 
reopened after the shutdown, to our legislative clerks and the 
legislative support staff, who worked around the clock for 48-
plus hours to support the Senate floor, all of the Secretary's 
staff are a credit to this institution. And I continue to 
admire their grace and resiliency in meeting new challenges.
    Since you've asked us to limit our statements, I ask that 
my written statement and Department reports be submitted for 
the record.
    With the exception of a potential cost-of-living increase 
for our employees, my budget request of $31,169,000 for fiscal 
year 2015 would hold outlays to current fiscal year 2014 
levels. To put my operating budget request in perspective, it 
is lower than our appropriation when I became Secretary in 
2007.
    In short, I'd like to highlight several of our departments:
    Meeting a January 2014 statutory deadline, the Office of 
Public Records, partnering with the Sergeant at Arms and the 
Ethics Committee, launched an electronic filing system for 
members and staff to file financial disclosure reports as well 
as periodic transaction reports. Our office takes seriously its 
many education responsibilities, and, in a cost-effective 
manner, substantially increased training to staff located in 
State offices by our Senate Library and Senate Chief Counsel 
for Employment.
    Senate history also became more social with the debut of a 
Twitter account, expanding the audience for Senate history. The 
daily tweets help raise awareness of the considerable resources 
available on Senate.gov to students, teachers, researchers, 
reporters, and the public.
    One hundred fifty-five years ago, the Senate moved into its 
current chamber. The Office of the Senate Curator has launched 
a program to improve the preservation of the Senate chamber 
desks, which include 48 of the mahogany desks made by Thomas 
Constantine after the old Senate chamber was destroyed by fire 
in 1814.
    January 22nd of this year marked the 10th anniversary of 
the introduction of the first Senate bill composed using LEXA. 
LEXA is the system used by the Senate's Legislative Counsel and 
committees like Appropriations to author, print, display, and 
share legislative documents with Senate and House clerks, the 
Government Printing Office, and the Library of Congress. LEXA 
has proven to be an example of a highly successful government 
IT program, and the Senate is fortunate to rely on our small 
and very smart Legislative Information System Office to provide 
the technical expertise that built and supports this system.
    I'm proud of another small legislative office, its staff 
members rarely seen on the Senate floor. For 20 years, our 
Office of Captioning Services has provided realtime captioning 
of legislative proceedings for the deaf and hard of hearing. 
The office has achieved an impressive accuracy level of 99 
percent.
    Finally, given the reality that an updated Riddick's 
publication could be years away, our Parliamentarian staff, 
with the help of our Web Technology staff, are developing an 
online precedents database. While it will be a continuous work 
in progress, tackling thousands of precedents, I'm confident it 
will be a valuable supplement to Riddick's for members and 
staff.

                           PREPARED STATEMENT

    Our office said farewell to several colleagues who retired 
after long careers with the Office of the Secretary. We're 
grateful for their hard work, high standards of excellence, and 
mentoring of staff. We are a better organization because of 
their contributions, and we look forward to another year of 
serving this great institution.
    Thank you.
    [The statement follows:]
               Prepared Statement of Hon. Nancy Erickson
    Chairman Shaheen, Senator Hoeven, members of the subcommittee, this 
past fiscal year has presented many challenges for the offices within 
the purview of the Secretary of the Senate. From the Disbursing Office 
that developed a new payroll system, implemented a new healthcare law 
under a very tight schedule, and ensured timely paychecks when the 
Government reopened, to our legislative clerks and the legislative 
support staff who worked around the clock for 48 plus hours to support 
the Senate Floor, all of the Secretary's staff are a credit to this 
institution, and I continue to admire their grace and resiliency.
    It is with pride in the work of our staff and our historic role in 
providing legislative, financial and administrative support to the 
Senate since 1789 that I present testimony on behalf of the Office of 
the Secretary of the Senate.
    I am requesting a fiscal year 2015 budget of $31,169,000. The 
request includes $24,919,000 for salaries, which reflects a potential 
$395,000 increase for a cost-of-living adjustment for our employees. 
The remainder of the budget request, $1,900,000 for operating expenses 
for our legislative, financial and administrative departments and 
$4,350,000 to fund the research and news services provided to the 
Senate community through the Senate Information Services (SIS) program, 
would hold outlays to current fiscal year 2014 levels.
    My testimony is a snapshot of the work carried out by the 
professional staff within the 26 departments in the Office of the 
Secretary, and I ask that my written statement and our department 
reports be submitted to the record.
    During sequestration, our Senate Librarian worked with vendors to 
continue providing online research services to Senate offices at 
reduced rates. Funding limitations reduced access to one research 
service, a change that generated numerous complaints from our Senate 
clients. We were pleased that the fiscal year 2014 appropriation 
allowed us to restore full access. Notably, the fiscal year 2014 
appropriation was the first increase for the SIS program since our 
office assumed responsibility for the program in 2011. SIS funding 
should be protected by a fiscal firewall to ensure transparency.
    With the launch of the new payroll system, our Disbursing Office 
staff members are turning their attention to the eventual replacement 
of the Financial Management Information System (FMIS), the core 
accounting system that supports all Senate offices. Staff has started 
gathering requirements for a new system, as well as drafting a business 
plan that will be shared with the committee for possible phased 
implementation over the next several years.
    Meeting the January 2014 statutory deadline, the Office of Public 
Records (OPR), partnering with the Sergeant at Arms (SAA) and the 
Senate Ethics Committee, launched an electronic filing system for 
members and staff to file financial disclosure reports due in May, as 
well as periodic transaction reports. OPR also received over 113,500 
electronically filed lobbying registrations and reports and copied, 
scanned, indexed and transmitted 4,882 campaign reports, containing 
over 490,000 pages, up 110,000 from the previous year, to the Federal 
Election Commission (FEC) within the 48 hours required by law.
    Our Office takes seriously its many education responsibilities, and 
in a cost-effective manner, substantively increased training webinars 
provided to Senate offices' State-based staff by our Senate Library and 
our Senate Chief Counsel for Employment. Library training class 
attendance was up 4 percent this year, despite the fact that many 
classes were cancelled during the Government shutdown. Senate history 
also became more social with the debut of a Twitter account, expanding 
the audience for marking Senate events and milestones. The daily tweets 
help raise awareness of the considerable resources available on 
Senate.gov to students, teachers, researchers, reporters and the 
public. There are roughly 36,500 daily visits to Senate.gov, which is 
managed by our Office of Web Technology.
    One hundred and fifty-five years ago, the Senate moved into its 
current chamber. The office of Senate Curator has launched a program to 
improve the preservation of the Senate Chamber desks, which include 48 
of the mahogany desks made by Thomas Constantine after the Old Senate 
Chamber was destroyed by fire in 1814, as well as other historic 
furnishings in the Senate's public and ceremonial spaces.
    Speaking of history, the Stationery Room has identified a way to 
achieve possible cost savings by amending an 1815 law that requires the 
procurement of stationery products through sealed bids from one or more 
newspaper advertisements. Advertising on FedBizOpps.gov and using the 
GSA Schedule could increase competition and lower some stationery 
product costs for our customers. The Stationery Room also increased 
efficiency and reduced costs by posting monthly account statements on 
TranSAAct, the online business services portal used by Senate offices.
    January 22 of this year marked the 10th anniversary of the 
introduction of the first Senate bill composed using LEXA. LEXA is a 
system used by the Senate's Legislative Counsel and committees, like 
Appropriations, to author, print, display and share legislative 
documents with Senate and House legislative clerks, the Government 
Printing Office and the Library of Congress. LEXA has proven to be an 
example of a highly successful Government IT program, and the Senate is 
fortunate to rely on our small and very smart Legislative Information 
System (LIS) office to provide the technical expertise that built and 
supports the system.
    I'm proud of another small legislative office, its staff members 
rarely seen on the Senate Floor. For 20 years, our Office of Captioning 
Services has provided real-time captioning of legislative proceedings 
for the deaf and hard-of-hearing. The office has achieved an impressive 
accuracy level of 99 percent. This year, they will launch new digital 
captioning software that will be more user-friendly for staff that 
relies on the real-time closed-caption log.
    Finally, given the reality that an updated Riddick's publication 
could be years away, our Parliamentarian staff, with the help of our 
Web Technology staff, are developing an online precedents database. 
While it will be a continuous work in progress, tackling thousands of 
precedents, I'm confident it will be a valuable supplement to Riddick's 
for members and staff.
    Our Office has said farewell to several colleagues who retired 
after long careers with the Office of the Secretary. We are grateful 
for their hard work, high standards of excellence and mentoring of 
staff. We are a better organization because of their contributions, and 
we look forward to another year of serving this great institution.
                                 ______
                                 
        office of the secretary of the senate department reports
             Presenting the Fiscal Year 2015 Budget Request
    I am requesting a total fiscal year 2015 budget of $31,169,000. The 
request includes $24,919,000 in salary costs and $6,250,000 for the 
operating budget of the Office of the Secretary. The salary budget 
represents an increase of $395,000 over the fiscal year 2014 budget as 
a result of the costs associated with the annual cost of living 
adjustment. In addition, the operating budget for the administration of 
Senate Information Services Program (SIS) that was assumed by this 
office in 2011 has not changed and remains at $4,350,000.

                                                       21
                                 OFFICE OF THE SECRETARY APPORTIONMENT SCHEDULE
----------------------------------------------------------------------------------------------------------------
                                                                      Amount          Budget
                                                                     available       estimates
                              Items                                 fiscal year     fiscal year     Difference
                                                                       2014            2015
----------------------------------------------------------------------------------------------------------------
Departmental operating budget:
    Executive office............................................        $500,000        $500,000  ..............
    Administrative services.....................................       5,601,600       5,601,600  ..............
    Legislative services........................................         148,400         148,400  ..............
                                                                 -----------------------------------------------
      Total operating budget....................................       6,250,000       6,250,000  ..............
----------------------------------------------------------------------------------------------------------------

                     implementing mandated systems
    Two systems critical to our operation are mandated by law, the 
Financial Management Information System (FMIS) and the Legislative 
Information System (LIS), and I would like to spend a few moments on 
each to highlight recent progress and to thank the committee for your 
ongoing support of both.
Financial Management Information System
    The Financial Management Information System is used by 
approximately 140 Senate offices. Consistent with our strategic plan, 
the Disbursing Office continues to modernize processes and applications 
to meet the continued demand by Senate offices for efficiency, 
accountability, and ease of use. Our goals are to move to an 
integrated, paperless voucher system, improve the Web FMIS system, and 
make payroll and accounting system improvements or replacements.
    During fiscal year 2013, specific progress made on the FMIS project 
included several releases and upgrades of Web FMIS:
  --FMIS 2013.2 (March 2013): corrected over 100 user-reported defects 
        primarily associated with procurement functions, incorporated 
        pilot user feedback for new expense summary report (ESR), and 
        consolidated Web FMIS and Web PICS applications; and
  --FMIS 2013.2.1 through FMIS 2013.2.7 (May-November 2013): 
        implemented performance enhancements, platform upgrades, and 
        defect corrections related to imaging functionality to 
        facilitate continued Senate-wide rollout of paperless workflow.
    In addition, work continued related to document imaging and 
electronic signatures in FMIS, as required by the imaging task order as 
follows:
  --Phase 1: imaging-only pilot (completed in 2011);
  --Phase 2: office imaging and signatures pilot (completed in 2012); 
        full rollout beginning with new offices (seven offices 
        implemented in 2012 and an additional 35 offices implemented 
        and full rollout to Disbursing's accounts payable and 
        accounting staff completed in 2013); and
  --Phase 3: planning and development to support imaging and signatures 
        for Sergeant at Arms (SAA) and staffer users (in progress).
    During 2013, the Disbursing Office worked with the SAA to extend 
the life of existing FMIS applications to ensure ongoing support of 
Senate business processes given limited fiscal resources. IT worked 
collaboratively with these organizations to:
  --Achieve cost savings to continuously improve the Senate's ability 
        to make application changes without the need for software 
        releases, saving significant application development dollars;
  --Prepare for a continuity of operations situation and perform a 
        failover and failback of financial data as part of the year's 
        financial systems disaster recovery exercise;
  --Improve customer service to the Senate community by supporting over 
        4,000 active FMIS users and continue to improve FMIS 
        applications; and
  --Be more environmentally responsible by advancing towards a 
        paperless financial system through the system-wide rollout of 
        imaging and digital signatures.
    Since March 2012, the Disbursing Office, the SAA, and the new 
systems integrator have worked together to implement the new Senate 
payroll system (SPS). The initial phase was to implement functions for 
processing payroll and managing Senate office budgets and payroll 
projections. The second phase will implement a pilot test for self-
service applications which will allow Senate employees to enter and 
change certain personal data and benefits selections. The third phase 
will replace the current Senate Office Personnel System (SOPS).
    After several months of parallel testing, the first phase and the 
transition to the new system was completed in September 2013 and went 
as smoothly as possible. Post-go-live testing continued and minor fixes 
to data, programming, and processes were worked on by all groups 
involved. Phase II is in the planning stages and will start soon after 
all major issues identified during the original implementation have 
been resolved.
    During the remainder of fiscal year 2014 and beyond, the following 
FMIS activities are anticipated:
  --Imaging and digital signatures: Continue with Senate-wide rollout 
        of imaging and digital signatures for the remaining offices and 
        committees, implementation of imaging and digital signatures 
        for SAA, and development of imaging to support staffers 
        creating online ESRs;
  --FMIS streamlining and modernization: Implement multiple 
        infrastructure upgrades to extend the life of FMIS applications 
        and enhance system performance;
  --FMIS releases: Implement two FMIS releases in April and November;
  --Disaster recovery: Conduct multi-day test of FMIS failover and 
        failback;
  --Strategic planning: Document requirements for future FMIS needs;
  --Payroll system: Continue to document incidents and test system 
        fixes, software updates, and new functionality; and
  --Treasury reporting requirements: Implement required changes 
        necessary to support Treasury's Payment Information Repository 
        (PIR) initiative.
    As part of our strategic planning, we continue to prioritize 
requirements to extend the life of existing FMIS applications and their 
platforms to allow time to develop a phased approach and to budget for 
the replacement of the various components of the financial system to 
reduce the Senate's total cost of ownership over time. This strategy is 
designed to enable the high efficiency in financial management 
operations while reducing cost, increasing business agility, and 
providing the Senate with an integrated, auditable, and paperless 
financial system that enables the various Senate user groups to achieve 
their business objectives in a timely, effective, and secure manner.
Legislative Information System
    The LIS Project Office continued to provide support to the SLC; the 
Committee on Appropriations; the Committee on Commerce, Science, and 
Transportation; and the Senate Enrolling Clerk in their use of LEXA for 
drafting, engrossing, and enrolling. With the addition of the Commerce 
Committee drafters, all measures in the first session of the 113th 
Congress were produced in XML. Enhancements to LEXA in the past year 
included additional table templates, improvements specific to 
Appropriations Committee drafters, and additional printing formats for 
the enrolling clerks to produce printed-as-passed bills.
    The LIS Project Office has been working with staff from the GPO and 
the Legislative Computer Systems (LCS) in the Office of the House Clerk 
to create and print committee reports in XML. Two other group projects 
with the GPO and LCS include participants from the Law Revision Counsel 
and the Senate and House Legislative Counsels. The first project with 
the Law Revision Counsel will result in applications to convert and 
maintain the U.S. Code in an XML format. The second project with the 
Legislative Counsels continues work toward the editing and printing of 
the compilations of existing law in their XML format.
                          Legislative Offices
    The Legislative Department provides support essential to Senators 
in carrying out their daily chamber activities as well as the 
constitutional responsibilities of the Senate. The Legislative Clerk 
sits at the Secretary's desk in the Senate Chamber and reads aloud 
bills, amendments, the Senate Journal, Presidential messages, and other 
such materials when so directed by the presiding officer of the Senate. 
The Legislative Clerk calls the roll of members to establish the 
presence of a quorum and to record and tally all yea and nay votes. The 
office staff prepares the Senate Calendar of Business, published each 
day that the Senate is in session, and prepares additional publications 
relating to Senate class membership and committee and subcommittee 
assignments. The Legislative Clerk maintains the official copy of all 
measures pending before the Senate and must incorporate into those 
measures any amendments that are agreed to. This office retains custody 
of official messages received from the House of Representatives and 
conference reports awaiting action by the Senate. The office staff is 
responsible for verifying the accuracy of information entered into the 
Legislative Information System (LIS) by the various offices of the 
Secretary.
    Additionally, the Legislative Clerk acts as supervisor for the 
Legislative Department, responsible for overall coordination, 
supervision, scheduling, and cross-training. The department consists of 
eight offices: Bill Clerk, Captioning Services, Daily Digest, Enrolling 
Clerk, Executive Clerk, Journal Clerk, Legislative Clerk, and Official 
Reporters of Debates.
Summary of Activity
    The Senate completed its legislative business and adjourned on 
January 3, 2014. During the first session of the 113th Congress, the 
Senate was in session 156 days and conducted 291 roll call votes. There 
were 221 measures reported from committees with 117 measures having a 
written report and 14 special reports submitted to the Senate. There 
were 356 total measures passed or agreed to, of which 73 were enacted 
into law. In addition, there were 2,602 amendments submitted to the 
desk.
Cross-Training and Continuity of Operations (COOP) Planning
    Recognizing the importance of planning for the continuity of Senate 
business, under both normal and possibly extenuating circumstances, 
cross-training continues to be strongly emphasized among the 
Secretary's legislative staff. To ensure additional staff are trained 
to perform the basic floor responsibilities of the Legislative Clerk, 
as well as the various other floor-related responsibilities of the 
Secretary, approximately half of the legislative staff are currently 
involved or have recently been involved in cross-training.
    Each office and staff within the Legislative Department 
participated in numerous ongoing COOP discussions and exercises 
throughout the past year. These discussions and exercises are a joint 
effort involving the Office of the Secretary, the party secretaries, 
the U.S. Capitol Police, the Government Printing Office, and the Office 
of the Sergeant at Arms.
Succession Planning
    The average length of Senate service among the Secretary's 
Legislative Department supervisors is 23 years. It is critical that the 
Secretary's Legislative Department attract and keep talented employees, 
especially the second tier of employees just behind the current 
supervisors, because of the unique nature of the Senate as a 
legislative institution. Institutional experience and knowledge are 
extremely valuable.
                               bill clerk
    The Office of the Bill Clerk collects and records data on the 
legislative activity of the Senate, which becomes the historical record 
of official Senate business. The Bill Clerk's Office keeps this 
information in its handwritten files and ledgers and also enters it 
into the Senate's automated retrieval system so that it is available to 
all House and Senate offices via the Legislative Information System 
(LIS). The Bill Clerk records actions of the Senate with regard to 
bills, resolutions, reports, amendments, cosponsors, public law 
numbers, and recorded votes. The Bill Clerk is responsible for 
preparing for print all measures introduced, received, submitted, and 
reported in the Senate. The Bill Clerk also assigns numbers to all 
Senate bills and resolutions. All the information received in this 
office comes directly from the Senate floor in written form within 
moments of the action involved, so the Bill Clerk's Office is generally 
regarded as the most timely and most accurate source of legislative 
information.
Legislative Activity
    For comparative purposes, below is a summary of the first sessions 
of the 112th and 113th Congresses:

                         SUMMARY OF THE FIRST SESSIONS OF THE 112TH AND 113TH CONGRESSES
----------------------------------------------------------------------------------------------------------------
                                                                 112th Congress--1st       113th Congress--1st
                                                                       Session                   Session
----------------------------------------------------------------------------------------------------------------
Senate Bills................................................                     1,685                     1,894
Senate Joint Resolutions....................................                        18                        29
Senate Concurrent Resolutions...............................                        32                        30
Senate Resolutions..........................................                       279                       327
Amendments Submitted........................................                     1,983                     2,602
House Bills.................................................                       299                       204
House Joint Resolutions.....................................                         4                        16
House Concurrent Resolutions................................                        18                        16
Measures Reported...........................................                       224                       221
Written Reports.............................................                       136                       131
                                                             ---------------------------------------------------
      Total Legislation.....................................                     4,678                     5,470
 
Roll Call Votes.............................................                       235                       291
House Messages..............................................                       205                       198
Cosponsor Requests..........................................                     6,621                     6,193
----------------------------------------------------------------------------------------------------------------

Assistance from the Government Printing Office (GPO)
    The Bill Clerk's Office maintains an exceptionally good working 
relationship with the Government Printing Office (GPO) and seeks to 
provide the best service possible to meet the needs of the Senate. GPO 
continues to respond in a timely manner to the Secretary's request, 
through the Bill Clerk's Office, for the printing of bills and reports, 
including the expedited printing of priority matters for the Senate 
Chamber.
                          captioning services
    The Office of Captioning Services provides realtime captioning of 
Senate floor proceedings for the deaf and hard-of-hearing and 
unofficial electronic transcripts of Senate floor proceedings to Senate 
offices on Webster.
General Overview
    Captioning Services strives to provide the highest quality closed 
captions and is comprised of some of the most seasoned and respected 
captioners in the industry. The overall accuracy average rate for the 
Office is a stellar 99.6 percent. This marks the 20th year in a row the 
Office has achieved an accuracy level above 99 percent. Overall caption 
quality is monitored through daily translation data reports, monitoring 
of captions in real-time, and review of caption files on Webster. In an 
effort to decrease paper consumption and printing costs, accuracy 
reviews and reports were mostly completed and archived in electronic 
form. Also, newspaper and magazine subscriptions used for preparation 
and research were cancelled to achieve added cost savings and replaced 
with already available electronic copies.
    The realtime searchable closed caption log, available to Senate 
offices on Webster, continues to be an invaluable tool for the entire 
Senate community. Staff from the floor, cloakrooms, Senate Recording 
Studio (SRS), and member offices continue to depend upon its 
availability, reliability, and contents to help them in the performance 
of their duties. In conjunction with the SRS, a complete overhaul of 
the caption log was designed in 2012-2013. Roll-out of this new digital 
version of the software is anticipated in 2014.
Continuity of Operations (COOP) Planning
    In support of the Office of the Secretary's commitment to COOP, 
emergency planning and preparation continue to be a top priority for 
the Office of Captioning Services to ensure the office is prepared and 
confident about the ability to relocate and successfully function from 
multiple locations in the event of an emergency. Real-world 
implementation of the plan successfully occurred twice in 2012. As is 
usually the case during emergencies, the plan's strengths and flaws 
were identified and changes have been made and implemented. In 2013, 
the office began testing one of its COOP relocation sites on a weekly 
basis. This has proved an invaluable tool for the entire staff to gain 
confidence in their individual ability to get up and running quickly 
and accurately in an emergency.
    Continual updates and review of the COOP plan, as well as group 
discussion throughout the year, prepare individuals to have confidence 
when called upon to execute multiple aspects of the plan. In addition, 
the office participates with the SRS in two off-site COOP exercises 
annually by conducting emergency notification tests and testing laptop 
remote access procedures.
                              daily digest
    The Office of the Senate Daily Digest is pleased to transmit its 
annual report on Senate activities during the first session of the 
113th Congress.
Chamber Activity
    The Senate was in session a total of 156 days, for a total of 1,095 
hours and 12 minutes, with 291 recorded votes (see the chart on the 
next page).

                                                                                                                20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                           1994      1995       1996      1997       1998      1999       2000      2001       2002      2003       2004      2005       2006      2007       2008      2009       2010      2011       2012      2013    2014
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------ ------------
Senate Convened.......................................       1/25       1/4        1/3       1/3       1/27       1/6       1/24       1/3       1/23       1/7       1/20       1/4        1/3       1/4        1/3       1/6        1/5       1/3        1/3       1/3
Senate Adjourned......................................       12/1    1/3/96       10/4     11/13      10/21     11/19      12/15     12/20      11/20      12/9       12/8     12/22       12/9     12/31     1/2/09     12/24      12/22    1/3/12     1/3/13    1/3/14
Days in Session.......................................        138       211        132       153        143       162        141       173        149       167        133       159        138       189        184       191        158       170        153       156
Hours in Session......................................   1,243'33  1,839'10   1,036'45  1,093'07   1,095'05  1,183'57   1,017'51  1,236'15   1,043'23  1,454'05   1,031'31  1,222'26   1,027'48  1,375'54     988'31  1,420'39   1,074'40  1,101'44     930'12  1,095'12
Average Hours per Day.................................        9.0       8.7        7.8       7.1        7.7       7.3        7.2       7.1        7.0       8.7        7.7       7.7        7.4       7.2       5.37      7.44        6.8       6.5        6.1       7.0
Total Measures Passed.................................        465       346        476       386        506       549        696       425        523       590        663       624        635       621        589       478        569       402        479       356
Roll Call Votes.......................................        329       613        306       298        314       374        298       380        253       459        216       366        279       442        215       397        299       235        251       291
Quorum Calls..........................................          6         3          2         6          4         7          6         3          2         3          1         3          1         6          3         3          8         5          0        13
Public Laws...........................................        255        88        245       153        241       170        410       136        241       198        300       169        313       180        280       125        258        90        193        73
Treaties Ratified.....................................          8        10         28        15         53        13         39         3         17        11         15         6         14         8         30         1          6         2          0         0
Nominations Confirmed.................................     37,446    40,535     33,176    25,576     20,302    22,468     22,512    25,091     23,633    21,580     24,420    25,942     29,603    22,892     21,785    23,051     23,327    19,815     24,296    17,328
Average Voting Attendance.............................      97.02     98.07      98.22     98.68      97.47     98.02      96.99     98.29      96.36     96.07      95.54     97.41      97.13     94.99      94.36     96.99      95.88     97.08      96.65     97.31
Sessions Convened Before 12 Noon......................        120       184        113       115        109       118        107       140        119       133        104       121        110       156        147       148        116       127        106       107
Sessions Convened at 12 Noon..........................          9         2         15        12         31        17         25        10         12         4          9         1          4         4          4         2          6         4          6         6
Sessions Convened after 12 Noon.......................         17        12          7         7          2        19         24        21         23        23         21        36         24        32         33        41         36        39         40        39
Sessions Continued after 6 p.m........................        100       158         88        96         93       113         94       108        103       134        129       120        129       144        110       152        116       120        101       111
Sessions Continued after 12 Midnight..................          3         1          0         0          0         0          2         3          8         2          3         3          4         4          2         2          1         1          3         7
Saturday Sessions.....................................          3         5          1         1          1         3          1         3          0         1          2         2          2         1          3         5          2         2          0         2
Sunday Sessions.......................................          0         3          0         1          0         0          1         0          0         1          1         2          0         1          1         4          1         1          1         2
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Prepared by the Senate Daily Digest_Office of the Secretary_01/27/14

Committee Activity
    Senate committees held a total of 831 meetings during the first 
session of the 113th Congress, as contrasted with 649 meetings during 
the second session of the 112th Congress.
    All hearings and business meetings (including joint meetings and 
conferences) are scheduled through the Office of the Senate Daily 
Digest and are published in the Congressional Record, on the Digest's 
website on Senate.gov, and in Legislative Information System (LIS. 
Meeting outcomes are also published by the Daily Digest in the 
Congressional Record each day and continuously updated on the website.
Computer Activities
    This past year, the Digest staff worked closely with Senate 
computer staff to refine to the Daily Digest Scheduler application 
(LIS/DDS), which will improve the data entry process and help to make 
the Daily Digest Scheduler public reports (css.senate.gov) more user 
friendly. The Digest office continues to electronically transmit the 
complete publication at the end of each day to the Government Printing 
Office.
                            enrolling clerk
    The enrolling clerks prepare, proofread, correct, input amendments, 
and print all legislation passed by the Senate prior to its transmittal 
to the House of Representatives, the National Archives, the Secretary 
of State, the United States Claims Court, and the White House.
    During the first session of the 113th Congress, the office prepared 
the enrollment of 16 Senate bills (transmitted to the President), 13 
Senate concurrent resolutions (transmitted to the National Archives), 
and 118 Senate appointments (transmitted to the House of 
Representatives). In addition, 49 House of Representatives bills, 14 
House concurrent resolutions, and 2 House joint resolutions were 
enrolled; prior to passage, some were amended or acted on in the Senate 
requiring the Enrolling Clerk's Office to work the amendments in a 
tightly managed schedule before messaging the legislation to the House 
of Representatives for further action. In all, there were 73 messages 
delivered to the House Clerk's office and 37 to the House Chamber by 
the Enrolling Clerk's Office relative to Senate action and passage of 
legislation. The office also handled the delivery to the House Clerk's 
Office of 39 House enrolled bills and 2 House enrolled joint 
resolutions after they had been signed by the President pro tempore, as 
customary.
    A total of 356 pieces of legislation were passed or agreed to by 
the Senate during the first session of the 113th Congress, including 57 
House bills, 2 House joint resolutions, and 14 House concurrent 
resolutions. Four Senate bills were placed on the calendar, all of 
which were processed in the Enrolling Clerk's office, including the 
Senate engrossment of 57 Senate bills, 16 concurrent resolutions, and 
210 simple resolutions, 6 of which were sent to the House of 
Representatives. The Enrolling Clerk's Office keeps the original 
official copies of bills, resolutions, and appointments from the Senate 
floor through the end of each Congress.
    The Senate Enrolling Clerk's Office is also responsible for 
transmitting the original files of all Senate bills and resolutions 
engrossed and enrolled in the Senate to the Government Printing Office 
(GPO).
Continuity of Operations (COOP) Planning
    Enrolling Clerk staff participated in two COOP exercises, testing 
the office's ability to prepare legislation for engrossment and 
enrollment, as well as connectivity with GPO. In addition, a GPO 
detailee trained with the Enrolling Clerk's office to provide backup 
should a COOP event occur.
                            executive clerk
    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties), which is published as the Journal of the Executive 
Proceedings of the Senate at the end of each session of Congress. The 
Executive Clerk also prepares the daily Executive Calendar, as well as 
all nomination and treaty resolutions for transmittal to the President. 
Additionally, the Executive Clerk's Office processes all executive 
communications, Presidential messages, and petitions and memorials.
Nominations
    During the first session of the 113th Congress, there were 1,048 
nomination messages sent to the Senate by the President, transmitting 
19,074 nominations to positions requiring Senate confirmation and 11 
messages withdrawing nominations. Of the total nominations transmitted, 
489 were for civilian positions other than lists in the Foreign 
Service, Coast Guard, National Oceanic and Atmospheric Administration, 
and Public Health Service. In addition, there were 1,737 nominees in 
the ``civilian list'' categories named above. Military nominations 
received this session totaled 16,848 (5,479--Air Force; 6,726--Army; 
3,881--Navy; and 762--Marine Corps). The Senate confirmed 17,328 
nominations this session. Pursuant to the provisions of paragraph six 
of Senate Rule XXXI, 153 nominations were returned to the President 
during the first session of the 113th Congress.
Treaties
    There were three treaties transmitted to the Senate by the 
President during the first session of the 113th Congress for its advice 
and consent to ratification, which were ordered printed as treaty 
documents for the use of the Senate (Treaty Doc. 113-1 through 113-3).
    The Senate did not give its advice and consent to any treaty during 
the first session.
Executive Reports and Roll Call Votes
    There were no executive reports relating to a treaty ordered 
printed for the use of the Senate during the first session of the 113th 
Congress. The Senate conducted 108 roll call votes in executive 
session, all on or in relation to nominations and treaties.
Executive Communications
    For the first session of the 113th Congress, 4,147 executive 
communications, 165 petitions and memorials, and 25 Presidential 
messages were received and processed.
Continuity of Operations (COOP) Planning
    COOP planning continues to be a priority in the Executive Clerk's 
Office. The office participates in annual COOP exercises, cross-trains 
with other offices in the Secretary's legislative staff, and maintains 
and accesses electronic files and emails on secure network servers 
backed up remotely.
                             journal clerk
    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Journal of the Proceedings of the 
Senate, or Senate Journal, as required by Article I, section V of the 
Constitution. The content of the Senate Journal is governed by Senate 
Rule IV and is approved by the Senate on a daily basis. The Senate 
Journal is published each calendar year.
    The Journal staff members take 90-minute turns at the rostrum in 
the Senate Chamber, noting the following by hand for inclusion in the 
Minute Book: (i) all orders (entered into by the Senate through 
unanimous consent agreements), (ii) legislative messages received from 
the President of the United States, (iii) messages from the House of 
Representatives, (iv) legislative actions as taken by the Senate 
(including motions made by senators, points of order raised, and roll 
call votes taken), (v) amendments submitted and proposed for 
consideration, (vi) bills and joint resolutions introduced, and (vii) 
concurrent and Senate resolutions as submitted. These notes of the 
proceedings are then compiled in electronic form for eventual 
publication of the Senate Journal at the end of each calendar year. 
Compilation is efficiently accomplished through utilization of the LIS 
Senate Journal Authoring System. The Senate Journal is published each 
calendar year, and in 2013, the Journal Clerk completed the production 
of the 845-page 2012 volume. It is anticipated that work on the 2013 
volume will conclude by October 2014.
Continuity of Operations (COOP) Planning
    In 2013, in support of the Office of the Secretary's commitment to 
COOP programs, the Office of the Journal Clerk team participated in 
annual emergency preparedness exercises. Additionally, monthly tests of 
emergency notification and laptop remote access procedures are 
conducted, permitting office function during possible emergencies. The 
Journal Clerk continued the established practice of scanning the daily 
Minute Book pages into a secure directory. The files are also copied 
onto a flash drive storage device weekly and transported off-site each 
night. Although the actual Minute Books for each session of a Congress 
are sent to the National Archives a year following the end of a 
Congress, having easily accessible files, both on a remote server and 
on a portable storage device, will ensure timely reconstitution of the 
Minute Book data in the event of damage to, or destruction of, the 
physical Minute Book.
Cost Savings
    In 2013, the Office of the Journal Clerk continued efforts to 
reduce its already conservative consumption of paper used in a 
traditionally paper-driven office. Reduced consumption of paper 
resulted from reduction in printing of draft copies of work product as 
updated. Additionally, the office increased reuse of previously 
printed-on paper by printing draft documents on both sides.
                     official reporters of debates
    The Office of the Official Reporters of Debates is responsible for 
the stenographic reporting, transcribing, and editing of the Senate 
floor proceedings for publication in the Congressional Record. The 
Chief Reporter acts as the editor-in-chief and the Coordinator 
functions as the technical production manager of the Senate portion of 
the Record. The office interacts with Senate personnel on additional 
materials to be included in the Record.
    When the Senate is in session, electronic and paper transcript 
delivery to the Government Printing Office (GPO) begins in the early 
evening, and the last delivery occurs approximately 2 hours after the 
Senate adjourns or recesses. The year 2013 was the sixth year of the 
online Record correction process available only to the offices of the 
Secretary. This procedure has allowed for the up-to-date correction of 
miscellaneous errors caused by personnel of the Secretary or GPO. The 
number of errors corrected online has continued to be intermittent and 
minor in almost every instance. Errors in need of immediate attention 
are fixed in coordination with GPO on an expedited basis.
Cost Savings
    To save on printing costs and duplication, the printing of 
unamended Senate resolutions and concurrent resolutions is now only 
shown in one portion of the Record.
                            parliamentarian
    The Office of the Parliamentarian continues to perform its 
essential institutional responsibilities to act as a neutral arbiter 
among all parties with an interest in the legislative process. These 
responsibilities include advising the chair and Senators and their 
staff, as well as committee staff, House members and their staffs, 
administration officials, the media, and members of the general public, 
on all matters requiring an interpretation of the Standing Rules of the 
Senate, the precedents of the Senate, and unanimous consent agreements, 
as well as provisions of public law affecting the proceedings of the 
Senate.
    The parliamentarians work in close cooperation with the Senate 
leadership and their floor staffs in coordinating all of the business 
on the Senate floor. The Parliamentarian or one of her assistants is 
always present on the Senate floor when the Senate is in session, ready 
to assist the presiding officer in his or her official duties, as well 
as to assist any other Senator on procedural matters. The 
Parliamentarians work closely with the staff of the Vice President of 
the United States and the Vice President himself whenever he performs 
his duties as President of the Senate.
    The Parliamentarians monitor all proceedings on the floor of the 
Senate, advise the presiding officer on the competing rights of the 
senators on the floor, and advise all Senators as to what is 
appropriate in debate. The Parliamentarians keep track of time on the 
floor of the Senate when time is limited or controlled under the 
provisions of time agreements, statutes, or standing orders. The 
Parliamentarians keep track of the amendments offered to the 
legislation pending on the Senate floor and monitor them for points of 
order. In this respect, the Parliamentarians reviewed nearly 3,000 
amendments during 2013, nearly half of those in the days during which 
the Senate considered a concurrent resolution on the budget, to 
determine if they met various procedural requirements such as 
germaneness.
    The Office of the Parliamentarian is responsible for the referral 
to the appropriate committees of all legislation introduced in the 
Senate and all legislation received from the House, as well as all 
communications received from the executive branch, State and local 
governments, and private citizens. In order to perform this 
responsibility, the Parliamentarians do extensive legal and legislative 
research. During 2013, the Parliamentarian and her assistants referred 
2,168 measures and 4,338 communications to the appropriate Senate 
committees. The office worked extensively with Senators and their 
staffs to advise them of the jurisdictional consequences of countless 
drafts of legislation, and evaluated the jurisdictional effect of 
proposed modifications in drafting. In 2013 as in the past, the 
Parliamentarians conducted several briefings on Senate procedure to 
various groups of Senate staff and visiting international parliamentary 
staff on a nonpartisan basis.
    Following the Presidential and Senate elections in 2012, the 
Parliamentarian's Office was heavily involved in the processing of 
certificates of election and appointment for Senators in the class of 
2013 and with the processing of certificates of vote and ascertainments 
for the election of the President and Vice President of the United 
States. The Parliamentarian's Office reviewed the certificates of 
election and appointment for 34 Senators who were sworn in on January 
3, 2013, in some cases having to request resubmission of materials that 
did not appear to be in compliance with the Senate rules and this 
process was repeated as other new Senators joined the body during the 
year. The Parliamentarians worked closely with the Office of the Vice 
President, the National Archives and Records Administration, the House 
Parliamentarian, the House Clerk, and other staff of the Secretary of 
the Senate to prepare for the joint session to count the electoral 
ballots on January 4, 2013. Both of these electoral processes require a 
tremendous amount of groundwork and attention to detail and involve a 
great deal of paperwork from the States which must be reviewed and 
cataloged before being acted upon and archived. The Parliamentarian and 
her staff also participated in an orientation session for new Senators 
and have met one-on-one with several new Senators to prepare them for 
the duty of presiding over the Senate.
    During 2013, as has been the case in the past, the staff of the 
Parliamentarian's Office was frequently called on to analyze and advise 
Senators on a great number of issues arising under the Congressional 
Budget Act of 1974, the Budget Control Act, the Congressional Review 
Act, and many other provisions of law that authorize special procedural 
consideration of measures. Additionally, in 2013 the Senate considered 
a concurrent resolution on the budget. As noted earlier, there were 
over 1,000 amendments drafted to this measure (many of which were not 
proposed) that the office reviewed and numerous, complicated questions 
related to the complexity of the Congressional Budget Act and its use 
in the Senate.
    Throughout 2013, the Parliamentarians held many meetings with the 
proponents and opponents of changes in the Senate's rules and 
procedures, and counseled all interested parties in the historical 
context of previous changes to the rules, as well as the intricacies of 
both the content of these proposals and the disputed processes for 
bringing about these changes. The Parliamentarian and her staff spent 
long hours with Senators and staff crafting two resolutions with 
respect to Senate Rules and practices which were adopted at the 
beginning of the Congress as part of the Senate's quest to streamline 
the consideration of legislative and executive business. In subsequent 
months, the Parliamentarian and her staff spent a great deal of time 
researching and fielding questions on further developments with respect 
to the processing of nominations, some unusual and high profile 
procedures with respect to the handling of a House message, amendments 
between the Houses, and appeals of the ruling of the chair.
Continuity of Operations (COOP) Planning
    The Parliamentarians serve as the agents of the Senate in 
coordinating the flow of legislation with the House of Representatives 
and with the President, and they ensure that enrolled bills are signed 
in a timely manner by duly authorized officers of the Senate for 
presentation to the President. The Parliamentarians have taken the lead 
in the Senate in analyzing the need for emergency procedural 
authorities. Each Parliamentarian has been trained to remotely access 
the office's computers and hard drives, facilitating communications, 
research, and other work after hours, and enabling them to have the 
office function during emergencies. The Parliamentarian's Office 
continues to participate extensively in emergency preparedness training 
for the Senate Chamber. The Parliamentarian has been involved for years 
with Sergeant at Arms Office of Continuity and Emergency Preparedness 
Operations (CEPO) in the planning phases of the Senate's evacuation and 
shelter-in-place procedures, and regularly attends such meetings on 
behalf of the Secretary of the Senate and the legislative staff, 
affording their concerns and ideas a voice.
                          Financial Operations
                           disbursing office
    The mission of the Senate Disbursing Office is to provide efficient 
and effective central financial and human resource data management, 
information, and advice to the offices, members, and employees of the 
United States Senate. The Senate Disbursing Office manages the 
collection of information from the distributed accounting locations 
within the Senate to formulate and consolidate the agency level budget, 
disburse the payroll, pay the Senate's bills, and provide appropriate 
counseling and advice. The Senate Disbursing Office collects 
information from members and employees that is necessary to maintain 
and administer the retirement, health insurance, life insurance, and 
other central human resource programs, and provides responsive, 
personal attention to members and employees on an unbiased and 
confidential basis. The Senate Disbursing Office also manages the 
distribution of central financial and human resource information to the 
individual member offices, committees, administrative offices, and 
leadership offices in the Senate while maintaining the confidentiality 
of information for members and Senate employees.
    The organization is structured to enhance its ability to provide 
quality work; maintain a high level of customer service; promote good 
internal controls, efficiency, and teamwork; and provide for the 
appropriate levels of supervision and management. The long-term 
financial needs of the Senate are best served by an organization 
staffed with highly trained professionals who possess a high degree of 
institutional knowledge, sound judgment, and interpersonal skills that 
reflect the unique nature of the United States Senate.
    This past year the Disbursing Office took on several projects that 
required a significant level of staff resources and presented many 
interesting challenges. Among these projects were the final 
implementation of the web-based Senate payroll system (SPS), rollout of 
the Affordable Care Act (ACA), and application of changes to Federal 
retirement plans.
Executive Office
    The primary responsibilities of the Executive Office are to:
  --oversee the day to day operations of the Disbursing Office 
        (Disbursing);
  --respond to any inquiries or questions;
  --maintain a fully and properly trained staff;
  --ensure that the office is prepared to respond quickly and 
        efficiently to any unique situation that may arise;
  --provide excellent customer service;
  --assist the Secretary of the Senate in the implementation of new 
        legislation affecting any of her departments;
  --handle all information requests from the Committee on 
        Appropriations and the Committee on Rules and Administration; 
        and
  --provide budget information and financial assistance to all 
        accounting locations within the Senate.
    During the year, the Financial Clerk and senior Disbursing staff 
attended weekly status meetings on the SPS held by the payroll 
implementers, received additional training on the new payroll system, 
and completed its implementation in September 2013. The additional 
workload created by the implementation of the SPS was exacerbated by 
the quickly approaching deadline of the ACA. To lessen the workload on 
the benefits section, the Executive Office assisted with the 
preparation of bar examiner, mortgage, and unemployment verification 
forms. In addition, the executive office provided assistance with the 
distribution of health plan confirmation letters and several other 
notices disseminated to senators and staff.
Financial Management
    Headed by the deputy for financial management, the mission of the 
financial management division is to coordinate all central financial 
policies, procedures, and activities; to process and pay expense 
vouchers within reasonable timeframes; and to provide professional 
customer service, training, and confidential financial guidance to all 
Senate accounting locations. In addition, the financial management 
group is responsible for the compilation of the annual operating budget 
of the United States Senate for presentation to the Committee on 
Appropriations and for the formulation, presentation, and execution of 
the budget for the Senate. On a semiannual basis, this group is also 
responsible for the compilation, validation, and completion of the 
Report of the Secretary of the Senate.
    Financial management is segmented into three functional 
departments: accounting, accounts payable, and budget. The accounts 
payable (A/P) department is further subdivided into three sections: 
disbursements, vendor administration, and audit. The deputy coordinates 
the activities of the three functional departments, establishes central 
financial policies and procedures, and carries out the directives of 
the Financial Clerk and the Secretary of the Senate. In this role, the 
deputy was able to work with the payroll section to pay member and 
staff salaries without delay despite the October Government shutdown. 
This was no small feat after going live with the Senate payroll system 
(SPS) and just before implementing the new Affordable Care Act (ACA) 
provisions. Their efforts are to be commended.
            Accounting Department
    During 2013, the accounting department approved over 44,000 expense 
reimbursement vouchers and vendor uploads including deposits for items 
ranging from receipts received by the Senate operations, such as the 
Senate's revolving funds, to cancelled subscription refunds from member 
offices. General ledger maintenance also prompted the entry of 
thousands of adjustment entries that include the entry of all 
appropriation and allowance funding limitation transactions, all 
accounting cycle closing entries, and all non-voucher reimbursement 
transactions such as payroll adjustments, budget uploads, stop payment 
requests, travel advances and repayments, and limited payability 
reimbursements. The department continues to scan all documentation for 
journal vouchers, deposits, accounting memos, and letters of 
certification to facilitate both storage concerns and continuity of 
operations (COOP) planning. The section also began testing the 2013 
year-end process to close and reset revenue, expense, and budgetary 
general ledger accounts to zero.
    The Disbursing Office also continued working with member offices 
and the Senate Stationery Room to establish and design an online flag 
ordering system using the Department of the Treasury's Pay.gov system. 
Three more offices began using Pay.gov, for a total of 13 offices, and 
six more offices had the initial conference call with Pay.gov by the 
end 2013. The pilot is expected to expand to include additional offices 
and new member offices during 2014.
    The Department of the Treasury's monthly financial reporting 
requirements includes a ``Statement of Accountability'' that details 
all increases and decreases to the accountability of the Secretary of 
the Senate, such as checks issued during the month and deposits 
received, as well as a detailed listing of cash on hand. Also, 
Disbursing provides the ``Statement of Transactions According to 
Appropriations, Fund and Receipt Accounts,'' to the Department of the 
Treasury on a monthly basis. The statement is the summary of activity 
of all monies disbursed by the Secretary of the Senate through the 
Financial Clerk of the Senate. All activity by appropriation account is 
reconciled with the Department of the Treasury on a monthly and annual 
basis. The annual reconciliation of the Treasury Combined Statement is 
also used in the reporting to the Office of Management and Budget (OMB) 
as part of the submission of the annual operating budget of the Senate. 
The FAMIS system report, tested and implemented in 2010, was used again 
in 2013 to calculate the Treasury Combined Statement, which is used for 
the OMB budget submissions.
    Accounting continues to use the Treasury's Central Accounting 
Reporting System (CARS) to report the ``Statement of Accountability'' 
and the ``Statement of Transactions According to Appropriations, Fund 
and Receipt Accounts'' when Treasury decommissioned the old system. In 
2013, the accounting department continued using the Treasury's OTCNet 
system to enter electronic deposit tickets for all check and cash 
deposits. The system is also used to scan and electronically deposit 
all checks, which enables a faster collection time.
    The accounting department continues to transmit Federal tax 
payments for Federal, Social Security, and Medicare taxes withheld from 
payroll expenditures, as well as the Senate's matching contribution for 
Social Security and Medicare to the Federal Reserve Bank through the 
IRS Electronic Federal Payment System. Payments for employee 
withholdings for State income taxes were reported and paid on a 
quarterly basis to each State with applicable State income taxes 
withheld. The system modifications installed in 2008 allow automated 
clearing house (ACH) payment of quarterly State taxes, which has 
resulted in a 100 percent participation rate by taxing jurisdictions. 
Monthly reconciliations were performed with the National Finance Center 
regarding the employee withholdings and agency matching contributions 
for the Thrift Savings Plan (TSP).
    The accounting department also works to meet internal reporting 
requirements, such as monthly ledger statements. These ledger 
statements detail all of the financial activity for the appropriate 
accounting period with regard to official expenditures in detail and 
summary form. It is the responsibility of the accounting department to 
review and verify the accuracy of the statements before Senate-wide 
distribution.
    Accounting also has a budget division whose primary responsibility 
is compiling the annual operating budget of the United States Senate 
for presentation to the Committee on Appropriations. The budget 
division is responsible for the preparation, issuance, and distribution 
of the budget justification worksheets. The budget justification 
worksheets for fiscal year 2015 were mailed to the Senate accounting 
locations and processed in December 2013. The budget baseline estimates 
for fiscal year 2015 will be reported to OMB by mid-February 2014. The 
budget analyst is also responsible for the preparation of 1099s and the 
prompt submission of forms to the IRS before the end of the January.
            Accounts Payable: Disbursements Department
    The disbursements department is the entry and exit point for 
voucher payments. The department physically and electronically receives 
all vouchers submitted for payment. It also pays all of these vouchers, 
as well as the items submitted by upload and the various certifications 
and adjustments that are submitted periodically. The department 
received approximately 93,000 vouchers. All of these items were paid by 
the department via Treasury check or ACH. Multiple payments to the same 
payee are often combined. As a result, 15,012 checks were issued, while 
58,046 ACH payments were required.
    After paper vouchers are paid, they are sorted and filed by 
document number. Vouchers are grouped in 6-month ``clusters'' to 
accommodate their retrieval for the semiannual Report of the Secretary 
of the Senate. Files are maintained in-house for the current period and 
one prior period, as space is limited. One result is that more 
documents are stored in the Senate Support Facility (SSF). The 
inventoried items are sorted and recorded in a database for easy 
document retrieval. Document retrieval missions increased, but were 
successfully conducted, and the department continues to work closely 
with warehouse personnel. The renovated area has led to more efficient 
use of space here and at the SSF. Paper volume has decreased 
significantly as 44 offices are submitting vouchers via an imaging 
process through Web FMIS. Paper volume and related filing times are 
expected to decrease further as more offices convert to imaging of 
expense vouchers.
    A major function of the department is to prepare adjustment 
documents. Adjustments are varied and include reissuance of items held 
as accounts receivable collections, reissuance of payments for which 
nonreceipt is claimed, and various supplemental adjustments received 
from the payroll department. Such adjustments are usually disbursed by 
check, but an increasing number are now handled through ACH. The 
department maintains a spreadsheet that tracks cases of nonreceipt of 
salary checks, including stop payment requests and reissuance. The 
section prepared 823 adjustment documents in 2013.
    The department also prepares the stop payment forms as required by 
the Department of the Treasury. Stop payments are requested by 
employees who have not received salary or expense reimbursements and by 
vendors claiming nonreceipt of expense checks. The Treasury Check 
Information System (TCIS) allows the department to electronically 
submit stop payment requests and provides online access to digital 
images of negotiated checks for viewing and printing. During 2013, only 
69 digital images of negotiated checks were provided, and an additional 
95 requests were received for stop payments. The stop payment requests 
resulted in reissuance of 85 checks. These levels are lower than 2012, 
reflecting greater efficiency in the overall payment process. TCIS is a 
web-based system that saves the Disbursing Office time, charges a $7.50 
processing fee for each request, and is accessible from multiple 
workstations in Disbursing. As more vendors begin receiving payments 
via ACH, these levels can be expected to further decrease.
            Accounts Payable: Vendor Administration
    The vendor administration section maintains the accuracy and 
integrity of the Senate's central vendor (payee) file for the prompt 
completion of new vendor file requests and service requests related to 
the Disbursing Office's web-based payment tracking system. This section 
also assists the information technology (IT) department by performing 
periodic testing and monitoring the performance of the vendor system. 
Currently, more than 20,500 vendor records are stored in the vendor 
file, in addition to approximately 11,000 employee records. Daily 
requests for new vendor addresses or updates to existing vendor 
information are processed within 24 hours of receipt. Besides updating 
mailing addresses, the section facilitates the use of ACH by switching 
the mode of vendor payment from paper check to direct deposit. Whenever 
a new remittance address is added to the vendor file, the default 
method of payment is paper check. A standard letter is mailed to the 
vendor requesting tax and banking information, as well as contact and 
email information. If a vendor responds indicating they would like to 
receive ACH payments in the future, the method of payment is changed.
    All Web FMIS users are using a staffer functionality tool which 
allows Senate employees to electronically create, save, and file 
expense reimbursement forms; track their progress; and get detailed 
information on payments. The most common service requests are for 
system user identification and passwords and for the reactivation of 
accounts. Employees may also request an alternative expense payment 
method. Employees can choose to have their payroll set up for direct 
deposit or paper check but can have their expenses reimbursed by a 
method that differs from their salary payment method.
    The vendor section works closely with the accounts payable 
disbursements group to resolve returned ACH payments. ACH payments are 
returned periodically for a variety of reasons, including incorrect 
account numbers, routing numbers, and, in rare instances, a 
nonparticipating financial institution.
    The vendor section electronically scans and stores all supporting 
documentation of existing vendor records and new vendor file requests. 
When this section receives replies asking for ACH participation, the 
vendors are asked if they wish to be notified by email when payments 
are sent. Currently, over 95 percent of ACH participants also receive 
email notification of payment.
    During 2013, the vendor section processed 1,725 vendor file 
additions, completed 2,335 service requests, mailed 820 vendor 
information letters, and converted 340 vendors from check payment to 
direct deposit.
    During calendar year 2013, the vendor group section assisted the 
accounting department in converting the remainder of State taxing 
authorities to ACH payment of tax withholdings. In addition to those 
entities converted to ACH payment in 2012, payments to the Federal 
Reserve Bank of Philadelphia are now electronic for 2013 and beyond.
            Accounts Payable: Audit Department
    The audit section is responsible for auditing vouchers and 
answering questions regarding voucher preparation and the 
permissibility of expenses and advances. This section provides advice 
and recommendations on the discretionary use of funds to the various 
accounting locations; identifies duplicate payments submitted by 
offices; monitors payments related to contracts; trains new 
administrative managers and chief clerks about Senate financial 
practices and the Senate's Financial Management Information System; and 
assists in the production of the Report of the Secretary of the Senate. 
The Report continues to be issued electronically, concurrent with the 
printed version. The printed version is available as always, and the 
online version is available through the Senate and Government Printing 
Office (GPO) Web sites.
    The section is organized at three different levels. The first level 
is the supervisor. In addition to performing managerial tasks, the 
supervisor audits and sanctions vouchers as needed and coordinates 
testing related to system implementation and upgrades. Eleven auditors 
process all incoming vouchers and uploads, and four of them have the 
authority to sanction, on behalf of the Committee on Rules and 
Administration, vouchers not exceeding $100. They also sanction all 
travel and petty cash advances as well as noncontingent fund items 
generated by Legal Counsel, Legislative Counsel, and the Office of 
Congressional Accessibility Services.
    A major function of the section is monitoring the fund advances for 
travel and petty cash. Travel advances must be repaid within 30 days of 
trip completion, and petty cash advances must be repaid whenever new 
funding authority is established. The system accommodates the issuance, 
tracking, and repayment of advances. It also facilitates the entry and 
editing of election dates and vouchers for Senators-elect. In addition 
to other functionality, an advance type of petty cash was created and 
is in use. Regular petty cash audits are performed by the section, and 
all petty cash accounts were successfully audited in 2013.
    The audit section processed over 93,000 expense vouchers and an 
additional volume of 23,500 uploaded items in 2013. Audit sanctioned 
approximately 47,000 vouchers under authority delegated by the 
Committee on Rules and Administration. This translates to roughly 
10,500 vouchers processed per auditor, and almost 12,000 vouchers 
posted per certifier. The voucher processing consisted of providing 
interpretation of Senate rules, regulations, and statutes and applying 
the same to expense claims, monitoring of contracts, and direct 
involvement with the Senate's central vendor file. On average, vouchers 
greater than $100 that do not have any issues or questions are 
received, audited, sanctioned electronically by the Committee on Rules 
and Administration using Web FMIS, and are expected to be paid within 8 
to 10 business days. The actual average payment time for these vouchers 
was 5.46 days. These vouchers comprised approximately 50 percent of all 
vouchers, and, as in the previous year, Disbursing passed two post-
payment audits performed by the Committee on Rules and Administration 
for items of $100 or less. In 2013, the average payment time for 
Disbursing-sanctioned items was 2.96 days, roughly the same as the 
previous year.
    Uploaded items are of two varieties: certified expenses and vendor 
payments. In use since the 1980s, certified expenses include items such 
as stationery, telecommunications, postage, and equipment. Currently, 
the certifications include mass mail, franked mail, excess copy 
charges, Senate Photo Studio charges, and Senate Recording Studio 
charges. Expenses incurred by the various Senate offices are certified 
by the Sergeant at Arms (SAA) to the Disbursing Office on a monthly 
basis. The expenses are detailed on a spreadsheet which is also 
electronically uploaded. The physical voucher is audited and 
appropriate revisions are made. Except for telecommunications charges, 
a concentrated effort is put forth to ensure certified items appear as 
paid in the same month they are incurred. Telecommunications charges 
usually run 1 month behind as the SAA must wait for the bills from 
external vendors.
    Vendor uploads are used to pay vendors for the Senate Stationery 
Room, Senate Gift Shop, and State office rentals, and to refund 
security deposits for the Senate Page School. The methodology is 
roughly the same as that for certifications, but the payments rendered 
are for the individual vendors. Although these items are generally 
processed and paid quickly, the State office rents are generally paid a 
few days before the month of the rental, which is consistent with the 
general policy of paying rent in advance.
    The audit section provided training sessions in the use of new 
systems, the process for generation of expense claims, and the 
permissibility of expenses. They also participated in seminars 
sponsored by the Secretary of the Senate, the SAA, and the Library of 
Congress. The section trained seven new administrative managers and 
chief clerks and conducted three informational sessions for Senate 
staff through seminars sponsored by the Congressional Research Service. 
The audits section also routinely assists the IT department and other 
groups as necessary in the testing and implementation of new hardware, 
software, and system applications. The use of imaging has steadily 
grown and now includes 44 offices with several more slated to adopt the 
functionality in 2014.
    The audit section continued offering feedback to the IT department 
on system-related problems, system restraints, and areas that need 
improvement. The section has devoted significant amount of time in 
detailing system problems and reporting them to the IT department.
    Once operations resumed after the Government shutdown, there was a 
large volume of vouchers waiting to be processed and paid. The crunch 
was felt throughout the financial management division, but the backlog 
was met head on. During the latter part of October 2013, 5,168 vouchers 
were posted for payment in A/P and accounting versus 3,939 for the last 
half of October 2012. This represents an increase in volume of 31.2 
percent.
    Voucher audit alone processed 5,795 vouchers compared to 4,284 
during the same timeframe a year earlier. This represents an increase 
of 35.3 percent.
Benefits and Financial Services
    The principal responsibility of the deputy for benefits and 
financial services is to provide expertise and oversight on Federal 
retirement, benefits, payroll, and financial services processes. The 
deputy also coordinates the interaction between the front office, 
payroll, and employee benefits sections, and is responsible for the 
planning and project management of new computer systems and programs. 
The deputy ensures that job processes are efficient and up to date, 
modifies computer support systems as necessary, implements regulatory 
and legislated changes, and designs and produces up to date forms and 
information for use in all three sections.
                General Activities
    Early in 2013, the Disbursing Office assisted outgoing staff with 
retirements, continuation of pay, unemployment, and transitions to 
other positions. Disbursing also provided training and guidance to new 
members and their staffs on their benefits eligibility.
    FERS-Revised Annuity Employee, the new retirement program, was 
implemented at the first of the year and follow-up testing and process 
modification was performed on the human resources management system 
(HRMS). In addition, the new program was designed, tested, and adapted 
to the Senate payroll system (SPS), which was still in development. The 
Disbursing Office also designed, tested, and implemented new processes 
to assist the SAA with their Separation Incentive Payment program.
    The primary project for the deputy and the Disbursing Office during 
2013 was the final phases of development, testing, and the 
implementation of the SPS. The scope of the project was extensive and 
required the coordination and cooperation of the deputy, the payroll 
section, the employee benefits section (EBS), the Financial Clerk, and 
assistant financial clerk with the SAA Technical Support group, the 
project management officer, and the project implementation team. Heavy 
and in-depth parallel testing and analysis was conducted throughout the 
first three quarters of the year. EBS created new documents and 
procedures to accommodate the new payroll system. In addition, the 
student loan program (SLP) administrator participated extensively in 
the development and testing of the new payroll system, including design 
assessment, test scenario development, reports, and testing all aspects 
of the system and providing feedback. The payroll section worked 
tirelessly to prepare for this and then follow up.
    The transition to the new system occurred in September and went as 
smoothly as could be hoped for. Post-go-live testing continued and, as 
expected during the following months, inconsistencies were identified 
and minor fixes were implemented by all groups involved. Overall, the 
system implementation was a success. At the end of the year, the system 
did not perform in several instances as the contracted implementation 
group had confirmed that it would. A large-scale effort was undertaken 
to correct issues with Federal Flexible Spending Account, Thrift 
Savings Program (TSP) catch-up, and TSP withholdings. This posed a 
unique challenge to Disbursing staff and the SAA technical support 
group to coordinate with contracted implementation staff to make fixes, 
notify staff, and upgrade and test required programming changes. 
Throughout this project, the Disbursing staff, in tandem with the SAA 
technical support staff, exceeded expectations with their tireless 
efforts, contributions and demonstration of their expertise.
    During 2013, the deputy and the Disbursing Office staff were 
required to implement the portions of the Affordable Care Act (ACA) 
that impacted health insurance eligibility for Senate members and 
staff. Late in the year, the Office of Personnel Management (OPM), in 
conjunction with other stakeholders, drafted and issued regulations to 
facilitate the implementation of the ACA provisions. During this time, 
the deputy worked extensively with OPM and the DC Small Business Health 
Options Program (SHOP) to ensure manageable administration within the 
guidelines of the legislation. The process for ``designation of 
official staff'' was drafted and implemented. Designations were made by 
members, and staff was notified of their health insurance eligibility. 
Benefits, front office staff, and the deputy were trained on the DC 
Health Link (DCHL) system and were so inundated with staff questions 
and enrollment issues that DCHL enrollment became their primary 
function, limiting time available for other priorities. The Disbursing 
Office and eligible Senate staff worked diligently with the DC SHOP to 
educate themselves and complete their enrollments. There were 
significant challenges to employee education and technical challenges 
working within the DC SHOP system. The Disbursing Office, in 
conjunction with DC SHOP, provided numerous educational opportunities 
and help sessions. The benefits and front office staff should be 
commended for their dedication to this complex effort. The deputy 
worked with the SAA technical support group and payroll system 
contractors to make significant modifications to the new system to 
accommodate the new health insurance provisions. These modifications 
continue in 2014.
            Front Office--Administrative and Financial Services
    The front office is the main service area for all general Senate 
business and financial activity. The front office staff maintains the 
Senate's internal accountability of funds used in the group's daily 
operations. The reconciliation of such funds is executed on a daily 
basis. The front office staff also provides training to newly 
authorized payroll contacts along with continuing guidance to all 
contacts in the execution of business operations. It is the receiving 
point for most incoming expense vouchers, payroll actions, and employee 
benefits--related forms, and it is the initial verification point to 
ensure that paperwork received in the Disbursing Office conforms to all 
applicable Senate rules, regulations, and statutes. The front office is 
the first line of service provided to Senators, officers, and 
employees. All new Senate employees (permanent and temporary) who will 
work in a Capitol Hill Senate office are administered the required oath 
of office and personnel affidavit in the front office. Staff is also 
provided verbal and written detailed information regarding pay and 
benefits.
    Advances are issued to Senate staff authorized for official Senate 
travel through the front office. Travel advances (cash and/or check) 
are entered and reconciled in Web FMIS. After the processing of 
certified travel expenses is complete, cash travel advances are repaid.
    Numerous inquiries are handled daily on topics such as benefits, 
taxes, voucher processing, reporting laws, and Senate regulations. 
Inquiries must always be answered accurately and fully to provide the 
highest degree of customer service. Cash and checks received from 
Senate entities as part of their daily business are handled through the 
front office and become part of the Senate's accountability of 
federally appropriated funds and are then processed through the 
Senate's general ledger system. The front office maintains the official 
office information authorization forms that authorize individuals to 
conduct various types of business with the Disbursing Office. The front 
office also provides notary services for members and staff. Staff can 
visit the Disbursing Office front office for notary services while 
front office staff will provide members notary services in their Senate 
offices.
                General Activities
  --Processed approximately 500 cash advances during the year and 
        initiated over 1,200 check/direct deposit advances.
  --Received and processed over 15,000 checks and reconciled the Senate 
        cash advance system.
  --Administered oath of office and personnel affidavits to more than 
        1,000 new Senate staff and advised them of their benefits 
        eligibility. Such staff includes full-time employees, interns, 
        and Senate pages.
  --A major initiative this year was rolling out the ACA as it applied 
        to Senators and Senate staff. The front office assisted with 
        the receipt of and explanation of official office designations. 
        They also issued confirmation letters providing staff and 
        members proof they successfully enrolled in DCHL, as well as 
        assisted in compiling lists of members and staff who were 
        unable to enroll due to technical difficulties. This new 
        program was unlike previous coverage and the enrollment process 
        was unfamiliar. The front office underwent training on DCHL and 
        assisted staff, to the degree possible, in understanding the 
        enrollment process.
  --Assisted employees with electronic resources for researching and 
        comparing benefit plans and programs to further reduce the 
        reliance on paper documents.
  --Provided training sessions to new and existing administrative 
        managers and assisted them in getting their offices up and 
        running. Offered guidance in closing outgoing offices.
  --The front office oversaw the distribution of paychecks to staff 
        displaced as a result of the 2012 elections and 2013 special 
        elections.
  --In 2013, the front office staff attended training on the new SPS. 
        Upon implementation of the SPS in September 2013, front office 
        staff members have been successfully using the system on a 
        daily basis and learning new skills.
  --The front office advises eligible staff of their TSP catch-up 
        provisions and advises enrollees of changes in their plans.
            Payroll Section
    The payroll section maintains the HRMS and is responsible for 
processing, verifying, and warehousing all payroll information 
submitted to the Disbursing Office by Senators, committees, and other 
appointing officials for their staff, including appointments of 
employees, salary changes, title changes, transfers, and terminations. 
The section is also responsible for the input of all enrollments and 
elections submitted by members and employees that affect their pay 
(e.g., retirement and benefits elections, tax withholding, TSP 
participation, allotments from pay, address changes, direct deposit 
elections, levies and garnishments) and for the issuance of accurate 
salary payments to members and employees. The payroll section is 
responsible for the administration of the Senate Student Loan Repayment 
Program (SLP) and for the audit and reconciliation of the Flexible 
Spending Accounts (FSAs) and Federal Employees Dental and Vision 
Insurance Program (FEDVIP) bill files received each pay period. The 
payroll section jointly maintains the ACH FedLine facilities with the 
accounts payable section for the normal transmittal of payroll deposits 
to the Federal Reserve. Payroll expenditure, projection, and allowance 
reports are distributed electronically to all Senate offices 
semimonthly. The payroll section issues the proper withholding and 
agency contribution reports to the accounting section and transmits the 
proper TSP information to the National Finance Center. In addition, the 
payroll section maintains earnings records, which are distributed to 
the Social Security Administration and employees' taxable earnings 
records, which are used for W-2 statements. This section is responsible 
for the payroll expenditure data portion of the Report of the Secretary 
of the Senate. The section calculates, reconciles, and bills the Senate 
Employees Child Care Center for their staff employee contributions and 
forwards payment of those contributions to the accounting section. The 
payroll section provides guidance and counseling to staff and 
administrative managers on issues of pay, salaries, allowances, and 
projections.
                General Activities
    In January 2013, the payroll section conducted all year-end 
processing and reconciliation of pay records and produced W-2 forms for 
employees and Federal and State tax agencies. They also facilitated the 
imaging of those documents to the document imaging system. The payroll 
section maintained the normal schedule of processing TSP election 
forms.
    The payroll section continued preparing for the new payroll system. 
This included developing and testing payroll queries. The testing and 
training process continued throughout the year. There were countless 
meetings involving issues such as security, payroll reports, data 
conversion, business processes, etc.
    Parallel tests of the new payroll system continued in April, June, 
and July. This included entering duplicate data into both the current 
and new systems. The staff dealt with system performance issues, bugs, 
and needed coding changes. This data was checked daily for accuracy and 
system function and required changes were logged and implemented. This 
presented a steep learning curve and system modifications were 
recommended as identified. Data comparisons were performed and 
scrutinized after the close-out of both systems. Variances and 
discrepancies were analyzed and feedback was provided to the contracted 
implementation team.
    The payroll section participated in the testing and implementation 
of Voluntary Separation Incentive Payment (VSIP) for the SAA. Other 
minor changes were made to the HRMS as a result of regulated and policy 
changes.
    As a result of the 2012 elections, the resignations of two 
Senators, and the death of another, the payroll section spent January 
2013 assisting the staff of 15 offices with their outgoing/incoming 
office inquiries and prepared for staff transitions.
    In August, the payroll section participated in W-2, COLA, and 
payroll report demonstrations and testing for the new payroll system.
    While launching the new payroll system, the payroll section also 
prepared for the pending Government shutdown and tested potential 
shutdown and post-shutdown scenarios. As a result, once the shutdown 
ended the payroll section was able to meet the October 18th payday on 
time and without disruption.
    The payroll section administers the student loan program (SLP), 
which includes initiation, tracking, and transmission of the payments, 
determination of eligibility, and coordination and reconciliation with 
office administrators and program participants. Because of regulatory 
changes within the Department of Education, extensive vendor processing 
changes were necessitated which results in many payments to vendors not 
being routed correctly once received at the designated address. This 
leads to a higher-than-usual need for payment tracking, reconciliation, 
and check reissues. The SLP administrator continues to improve 
processes for administration of the program and documenting procedures. 
The administrator also continues to train a member of the payroll staff 
so they are able to administer the SLP in the administrator's absence.
            Employee Benefits Section
    The primary responsibilities of the employee benefits section (EBS) 
are administration of health insurance, life insurance, TSP, and all 
retirement programs for members and employees of the Senate. This 
includes counseling, processing of paperwork, research, dissemination 
of information, and interpretation of retirement and benefits laws and 
regulations. EBS staff is also expected to have a working knowledge of 
the Federal Flexible Spending Account (FSA) program, the Federal Long 
Term Care (LTC) Insurance program, Federal Employees Dental and Vision 
Insurance program (FEDVIP), and the DC Health Link (DCHL). In addition, 
the sectional work includes research and verification of all prior 
Federal service and prior Senate service for new and returning 
appointees. EBS provides this information for payroll input. It also 
verifies the accuracy of the information provided and reconciles, as 
necessary, when official personnel folders and transcripts of service 
from other Federal agencies are received. Senate transcripts of 
service, including all official retirement and benefits documentation, 
are provided to other Federal agencies when Senators and staff are 
hired elsewhere in the Government. EBS is responsible for the 
administration and tracking of employees placed on leave without pay to 
perform military service. The responsibilities include counseling with 
regard to continued benefits, TSP make-up contributions, and reservist 
differential payments. EBS participates fully in the Centralized 
Enrollment Clearinghouse System sponsored by OPM to reconcile all 
Federal Employee Health Benefits (FEHB) enrollments with carriers 
through the National Finance Center. EBS is responsible for its own 
forms inventory ordering and maintenance, as well as all benefits, TSP, 
and retirement brochures, for the Disbursing Office. EBS processes 
employment verifications for loans, bar exams, the Federal Bureau of 
Investigation, OPM, and the Department of Defense, among others. 
Unemployment claim forms are completed and employees are counseled on 
their eligibility. Department of Labor billings for unemployment 
compensation paid to Senate employees are reviewed in EBS and submitted 
by voucher to the accounting section for payment, as are the employee 
fees associated with FSAs. Beneficiary designations for Federal 
Employees Group Life Insurance (FEGLI), retirement, and unpaid 
compensation are filed and checked by EBS.
                General Activities
    The year began with EBS finalizing retirement estimates and 
processing many retirement cases associated with 12 outgoing senators 
(including one resignation) and their staffs, as well as those staff on 
committees who were affected by the changes. All outgoing offices were 
given an ``outgoing office presentation'' by a member of EBS. Many 
regular retirement, death, and disability cases were also processed 
throughout the year.
    EBS met with all new Senators to review benefit options available 
to them. New members appointed numerous employees from the House of 
Representatives and the executive branch, and many other employees left 
with their outgoing members, many of whom were appointed to positions 
in the executive branch. This caused a dramatic increase in 
appointments to be researched and processed, retirement records to be 
closed out, termination packages of benefits information to be compiled 
and mailed out, and health insurance enrollments to be processed. 
Transcripts of service for employees going to other Federal agencies, 
and other tasks associated with employees changing jobs were at a high 
level this year. These required prior employment research and 
verification; new FEHB, FEGLI, FSA, FEDVIP, CSRS, FERS, and TSP 
enrollments; and the associated requests for backup verification. EBS 
also counseled many employees who were affected by these SAA employment 
changes. The Sergeant at Arms offered the first ever Voluntary 
Separation Incentive Program (VSIP) in the Senate. EBS received a 
number of requests for retirement estimates and counseling.
    Beginning January 1, 2014, one provision of the ACA changed the 
FEHB eligibility for some Senate staff and all Senators. EBS was 
involved in meetings with the deputy financial clerk, OPM, and 
representatives from DCHL. EBS had to create various documents, assist 
countless employees enrolling in DCHL plans, and keep abreast of the 
numerous changes. EBS hosted a panel discussion including 
representatives from OPM, DCHL, health insurance carriers, and the 
Disbursing Office. This presentation was attended by staff and 
televised and Webcast live. The televised program was repeated during 
the entire open season and the Webcast was available online for all 
Senate employees to view. EBS provided support to DCHL during the 
enrollment process, assisting with special sessions conducted 
throughout open season. Numerous hours were spent providing guidance to 
Senators and staff. EBS worked closely with the deputy financial clerk, 
DCHL, and carriers in implementing the new healthcare regulations.
    EBS expanded participation in the annual benefits open season. In 
addition to the representatives of all of the FEHB health insurance 
carriers, EBS included all carriers and representatives from DCHL. The 
Disbursing Office also hosted an open season benefits fair, which was 
informational and well attended. The benefits fair included 
representatives from local and national FEHB plans, DCHL 
representatives, and representatives from LTC, FSA, and FEDVIP. EBS 
worked with the Secretary's webmaster to ensure that links and 
information on Webster were current regarding the DCHL and other 
benefits choices during the open season.
    EBS conducted agency-wide FERS seminars for Washington, DC area 
employees, as well as a live video seminar for offices located in the 
States. EBS attended interagency benefits officers and TSP meetings. 
This was especially important this year due to the numerous ongoing 
changes to many of the benefits programs, including the upcoming 
offering of a Roth investment option in the TSP program.
Information Technology--Financial Management Information System
    The information technology (IT) department provides both functional 
and technical assistance for Senate financial management activities and 
the financial management information system (FMIS) applications used by 
staff in all Senate accounting locations (i.e., Senate personal 
offices, committees, leadership and support offices, the Office of the 
Secretary of the Senate, the Sergeant at Arms (SAA), the Committee on 
Rules and Administration audit section, and Disbursing). 
Responsibilities of the department include:
  --Supporting current financial systems, users, and operational 
        processes;
  --Providing oversight for the FMIS program;
  --Coordinating and testing FMIS infrastructure changes;
  --Administering Disbursing's local area network; and
  --Managing Disbursing's continuity of operations planning.
    Disbursing is the FMIS business owner and is responsible for making 
functional decisions related to FMIS. SAA technology services is 
responsible for providing the technical infrastructure, including 
hardware (e.g., mainframe and servers), operating system software, 
database software, and telecommunications; technical assistance for 
these components, including migration management and database 
administration; and regular batch processing. Disbursing also utilizes 
contractor support for application development and to augment 
operational support as needed. During 2013, IT worked collaboratively 
with these organizations to:
  --Achieve cost savings: continued to improve the Senate's ability to 
        make application changes without the need for software 
        releases, saving significant application development dollars, 
        by:
    --consolidating applications and platforms to reduce support and 
            licensing costs;
    --designing a framework for quickly customizing and modifying 
            system inquiries without developer support; and
    --continuing to expand the use of an application rules engine to 
            facilitate implementation of changes to business rules more 
            quickly and economically.
  --Prepare for a continuity of operations (COOP) situation: performed 
        a failover and failback of financial data as part of the year's 
        financial systems disaster recovery exercise;
  --Improve customer service to the Senate community: supported over 
        4,000 active FMIS users and continued to improve FMIS 
        applications by:
    --implementing multiple software releases to provide additional 
            user-requested functionality and address user-reported 
            issues;
    --completing the Senate-wide rollout of the new online expense 
            summary report (ESR) which is easier to use and provides 
            itinerary formatting consistent with requirements for the 
            semiannual Report of the Secretary of the Senate; and
    --working to enhance system performance and the end-user experience 
            both through software corrections and additional 
            infrastructure upgrades.
  --Be more environmentally responsible: continued to advance towards a 
        paperless financial system through the systemwide rollout of 
        imaging and digital signatures.
            Supporting Current Financial Systems, Users, and 
                    Operational Processes
    IT supports over 4,000 active FMIS users in all accounting 
locations, the departments in Disbursing (i.e., accounts payable, 
accounting, disbursements, vendor administration, and front office 
sections), and the Committee on Rules and Administration audit staff. 
Activities performed include:
  --User support: provided functional and technical support to all 
        Senate FMIS users; staffed the FMIS help desk; answered 
        hundreds of questions; and met with chiefs of staff, 
        administrative managers, chief clerks, and directors of various 
        Senate offices;
  --System user communication: gathered feedback from its FMIS user 
        communities to ensure their needs are met by:
    --regularly meet with representatives from accounting, accounts 
            payable, and the SAA; and
    --periodically meet with targeted user groups to document and 
            review requirements for new functionality.
  --Technical problem resolution and system performance monitoring: 
        ensured technical problems were quickly resolved; checked 
        system availability, error logs, and statistics to identify 
        system problems; and coordinated performance tuning activities;
  --Security and system administration: maintained user rights for all 
        FAMIS, Web FMIS, and Web PICS users, and designed, tested, and 
        made entries to core system tables;
  --Accounting support activities: performed functional testing and 
        production validation of cyclic accounting system activities, 
        including the rollover process for preparing for a new fiscal 
        year, and the archive/purge process for removing lapsed fiscal 
        year data from the current year transactional tables while 
        maintaining this information for reporting purposes;
  --Post-payment voucher audit process support: facilitated process for 
        the Committee on Rules and Administration audit staff for 
        selecting and reviewing a statistically valid sample of 
        vouchers for $100 or less, sanctioned under authority delegated 
        to the Financial Clerk; and
  --Training: developed and published user materials and help content 
        and provided functional training to FMIS users.
            Providing Oversight for the FMIS Program
    The responsibility for managing the FMIS program and related 
projects includes:
  --Strategic planning: continued to prioritize requirements to extend 
        the life of existing FMIS applications and their platforms to 
        allow time to develop a phased approach and budget for 
        replacement of the various components of the financial system 
        that will reduce the Senate's total cost of ownership of the 
        financial system over time. This strategy is designed to enable 
        the high efficiency in financial management operations while 
        reducing cost, increasing business agility, and providing the 
        Senate with an integrated, auditable, and paperless financial 
        system that enables the various Senate user groups to achieve 
        their business objectives in a timely, effective, and secure 
        manner.
  --Schedule coordination: planned and coordinated a rolling 18-month 
        FMIS program schedule and facilitated meetings between 
        Disbursing, the SAA, and support contractor staff to coordinate 
        schedules and activities, including:
    --project-specific working meetings: as-needed meetings related to 
            individual projects and topics such as archive/purge 
            meetings and FMIS release design meetings; and
    --project management meetings: monthly meetings to discuss the 
            integrated project schedule and the status of active FMIS 
            projects, and to address any existing project issues and 
            risks;
  --Development of new system features: supervised development, 
        performed extensive integration system testing, and implemented 
        changes to FMIS subsystems. Implementation and production 
        verification activities were typically completed over weekends 
        to minimize system downtime to users. Since 2006, multiple 
        subsystem upgrades have been consolidated into two or three 
        releases each year. During calendar year 2013, Disbursing:
    --Implemented the following releases:
      -- FMIS 2013.2, March 2013: corrected over 100 user-reported 
            defects primarily associated with procurement functions, 
            incorporated pilot user feedback for new ESR and 
            consolidated Web FMIS and Web PICS applications; and
      -- FMIS 2013.2.1 through FMIS 2013.2.7, May--November 2013: 
            implemented performance enhancements, platform upgrades, 
            and defect corrections related to imaging functionality to 
            facilitate continued Senate-wide rollout of paperless 
            workflow.
    --Continued work related to document imaging and electronic 
            signatures in FMIS:
      -- Phase 1: imaging-only pilot (completed in 2011);
      -- Phase 2: office imaging and signatures pilot (completed in 
            2012); full rollout beginning with new offices (seven 
            offices implemented in 2012 and an additional 35 offices 
            implemented in 2013; full rollout to Disbursing's accounts 
            payable and accounting staff completed in 2013); and
      -- Phase 3: planning and development to support imaging and 
            signatures for SAA and staffer users (in progress).
            Coordinating and Testing Infrastructure Changes
    The SAA provides the infrastructure on which FMIS operates, 
including the mainframe, the database, security hardware and software, 
and the telecommunications network. Activities for changes to the 
infrastructure include facilitating scheduling of changes and upgrades 
to this infrastructure, testing functionality prior to implementation, 
and validating critical functionality post implementation. During 2013, 
the Disbursing Office continued to work with the SAA to extend the life 
of existing FMIS applications to ensure ongoing support of Senate 
business processes given limited fiscal resources. This included 
upgrades to the Linux operating system and WebSphere application server 
to support Web FMIS and digital signing applications; upgrades to 
Microsoft SharePoint and the underlying SQL Server database, which 
supports the imaging and help functions of the system; as well as an 
upgrade of the DB2 database, which supports the FAMIS general ledger 
system, Web FMIS, and reporting functions. Additionally, Disbursing 
worked with the SAA to transition away from the use of DB2 Connect 
Server for FMIS-related applications and support, which eliminated its 
associated licensing and platform costs.
            Administering the Disbursing Office's Local Area Network
    Disbursing continued to administer its own local area network 
(LAN), which is separate from the network used by the rest of the 
Secretary's Office. It is used by over 50 staff. Upkeep of the LAN 
infrastructure, including performing routine daily tasks and replacing 
equipment regularly, is critical to providing financial services for 
the Senate. In addition, there are a number of specialized 
administrative applications that are housed on Disbursing's LAN. During 
2013, LAN administration activities included:
  --Performing maintenance on the LAN;
  --Installing specialized software;
  --Maintaining projects for the payroll and benefits section, 
        including:
    --imaging system, developed by SAA and critical for the payroll and 
            employee benefits sections, for electronically capturing 
            and indexing payroll documents submitted at the front 
            counter;
    --CLER application, a health insurance benefits validation service; 
            and
    --retirement benefit software, which enables benefits counselors to 
            easily estimate retirement benefits based on different 
            scenarios;
  --Replacing VPN hardware at the Alternate Computing Facility;
  --Upgrading existing workstations with appropriate upgrades 
        including:
    --imaging of critical PCs for easy recovery from hard disk crash or 
            other PC failure;
    --deploying Virtual Machines to support critical systems that were 
            not compatible with Windows 7; and
    --deploying Virtual Machines to test new patches and updates to 
            support Web FMIS.
            Managing the Disbursing Office's Continuity of Operations 
                    (COOP) Planning
    Disaster recovery activities are an important part of Disbursing's 
COOP plan, and the Disbursing Office's IT section works closely with 
the SAA to coordinate planned exercises. During 2013, basic tests were 
performed to ensure recovery capabilities for financial systems 
including historically performed failover activities in addition to a 
failback of FMIS-related data.
                         Administrative Offices
                      chief counsel for employment
    The Office of the Senate Chief Counsel for Employment (SCCE) is a 
nonpartisan office established at the direction of the Joint Leadership 
in 1993 after enactment of the Government Employee Rights Act (GERA), 
which allowed Senate employees to file claims of employment 
discrimination against Senate offices. With the enactment of the 
Congressional Accountability Act of 1995 (CAA), as amended, Senate 
offices became subject to the requirements, responsibilities, and 
obligations of 12 employment laws. The CAA also established the Office 
of Compliance (OOC). Among other things, the OOC accepts and processes 
legislative employees' complaints that their employer has violated the 
CAA.
    The SCCE is charged with the legal defense of Senate offices in all 
employment law cases at both the administrative and court levels. The 
SCCE attorneys also provide legal advice to Senate offices about their 
obligations under employment laws. Accordingly, each of the employing 
offices of the Senate is an individual client of the SCCE, and each 
office maintains an attorney-client relationship with the SCCE.
    The areas of responsibilities of the SCCE can be divided into the 
following categories:
  --Litigation (defending Senate offices in courts and at 
        administrative hearings);
  --Mediations to resolve lawsuits;
  --Court-ordered alternative dispute resolutions;
  --Occupational Safety and Health Act (OSHA) compliance;
  --Union drives, negotiations, and unfair labor practice charges ;
  --Americans with Disabilities Act (ADA) compliance;
  --Layoffs and office closings in compliance with the law;
  --Management training regarding legal responsibilities; and
  --Preventive legal advice.
Litigation, Mediation, and Alternative Dispute Resolutions
    The SCCE provides legal advice to and defends Senate employing 
offices in court actions, hearings, proceedings, investigations and 
negotiations relating to labor and employment laws. The SCCE handles 
cases filed in the District of Columbia and cases filed in any of the 
50 States.
Compliance with the OSHA and the ADA
    The CAA mandates that at least once each Congress the OOC shall 
inspect each Senate office to determine whether each office complies 
with the OSHA and the public accommodation portion of the ADA. The CAA 
authorizes the OOC to issue a public citation to any office that is not 
in compliance.
    The SCCE provides legal assistance and advice to each Senate office 
to ensure that it is complying with the OSHA and the ADA. The SCCE also 
represents each Senate office during the OOC inspections and advises 
and represents each Senate office when a complaint of an OSHA or ADA 
violation is filed against the office or when a citation is issued.
    In 2013, the SCCE pre-inspected various Senate work areas to ensure 
that Senate offices are complying with the OSHA and the ADA.
    At the conclusion of the OOC's inspection process, Senate offices 
had no significant ADA problems and no citations were issued in 2013.
Management Training Regarding Legal Responsibilities
    The SCCE regularly conducts legal seminars for the managers of 
Senate offices to assist them in complying with employment laws, 
thereby reducing their liability.
    In 2013, the SCCE gave 67 live legal seminars to Senate offices. 
These seminars included, among others:
  --The Congressional Accountability Act of 1995: Management's Rights 
        and Obligations;
  --The Staffer Said WHAT? The ABC's of Conducting an Effective 
        Harassment Investigation;
  --The Americans with Disabilities Act: What Managers Must Know about 
        Complying with the Law;
  --The Fair Labor Standards Act: Understanding Overtime Pay and Equal 
        Pay;
  --The Family and Medical Leave Act: When Are Employees Entitled to 
        Leave, and How Much do They Get?;
  --Hiring the Best Employees, Part I: Identifying Red Flags in Resumes 
        and Conducting Effective Interviews;
  --Hiring the Best Employees, Part II: Conducting Background Checks, 
        Searching Social Media, and Checking References; and
  --Interns 360: Managing an Intern Program in Compliance with the Law.
    The purpose of the seminars was to educate all Senate management 
staff about their responsibility to ensure that their respective 
offices comply with the CAA. The series was open to all chiefs of 
staff, staff directors, administrative directors, chief clerks, and 
office managers. Individuals who complete the series receive a 
certificate of completion signed by the Secretary of the Senate.
    In recent years, the SCCE began offering electronic access to 
seminars, allowing State office managers to participate in Webinars, 
reducing the need for and expense of travel. The SCCE, working with the 
Senate Recording Studio and using video teleconferencing (VTC) 
equipment, enabled all State managers to participate in the seminars 
and enabled the managers of the Washington, DC offices to view the 
seminars from their offices. The SCCE also uses the VTC equipment to 
conduct harassment seminars for State offices. In addition, the SCCE 
rebroadcasts its monthly seminars upon request on the SCCE website to 
accommodate managers who were unable to attend the initial seminars. 
Further, the SCCE online registration technology was used extensively 
by Senate management staff in 2013 to register online for attending the 
seminars in the series.
    In addition to the above seminars, the SCCE presented Webinars that 
Senate management views at their convenience, and harassment Webinars 
that Senate management requires all new hires to view.
    The SCCE also held eight 1-hour lunchtime meetings, referred to as 
``Brownie Brown Bags,'' open to all office managers, administrative 
directors, and chief clerks. The Brownie Brown Bags provide attendees 
with an informal forum to discuss legal issues and legal developments. 
These meetings have been very well received and very well attended.
Legal Advice
    The SCCE meets daily with members, chiefs of staff, administrative 
directors, office managers, staff directors, chief clerks, and counsel 
at their request to provide legal advice. For example, on a daily 
basis, the SCCE advises Senate offices on matters such as disciplining 
and terminating employees in compliance with the law; handling and 
investigating harassment complaints; accommodating individuals with 
disabilities; determining wage law requirements; meeting the 
requirements of the Family and Medical Leave Act; management's rights 
and obligations under union laws and the OSHA; management's obligation 
to give leave to employees for military service; veterans' rights; and 
interviewing, hiring, and counseling employees. In 2013, the SCCE had 
over 2,740 client legal advice meetings.
    Also, the SCCE provides legal assistance to Senate offices to 
ensure that their office policies, supervisors' policies, intern 
policies, job descriptions, interviewing guidelines, and performance 
evaluation forms comply with the law. In 2013, the SCCE significantly 
revised or prepared 225 policy manuals for member offices and 
committees.
    Finally, to keep clients abreast of legal developments, the SCCE 
prepares and distributes timely client alerts to all Senate offices and 
committees explaining the impact of newly enacted employment-related 
laws.
E-Discovery
    The SCCE attorneys have developed a particular expertise in 
identifying, preserving, and culling electronic documents. Although the 
SCCE developed and uses this expertise for litigation purposes, several 
Senate offices have used the SCCE's expertise in this area to identify, 
preserve, and cull electronic documents they need for purposes other 
than litigation. By relying on the SCCE, these Senate offices have been 
able to identify and preserve electronic documents they were not 
otherwise able to find and use for investigation purposes unless they 
retained a consultant.
                     conservation and preservation
    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials for which the Secretary of 
the Senate has statutory and other authority. Initiatives include 
deacidification of paper and prints, phased conservation for books and 
documents, replacement of Congressional Serial Set maps (the Serial Set 
contains all House and Senate documents and reports), collection 
surveys, exhibits, and matting and framing for the Senate leadership.
Senate Library
    The Senate Library sent 564 books to the library binding section of 
Government Printing Office (GPO) for binding. GPO has been returning 
books to the Senate Library on schedule. The Office of Conservation and 
Preservation assists the Senate Library with technical issues involving 
books being sent and returned from GPO to ensure the quality of 
services provided.
    Conservation and Preservation will continue training eight Senate 
Library staff members to repair Senate Library materials. The Senate 
Library staff repaired 331 Congressional Records and Serial Set 
volumes.
    The office has repaired, scanned, and replaced 54 large maps from 
seven volumes of the Serial Set. The originals are too fragile to be 
used and will be stored.
Preservation
    The Office of Conservation and Preservation completed 49 volumes of 
House and Senate hearings and Congressional Records for the Senate 
Library. These books were re-bound with new end sheets and new covers, 
using the old spines when possible. The office also fabricated a 
slipcase for a collection of Serial Set maps.
Committees
    Conservation and Preservation assisted the Committee on the Budget, 
Select Committee on Ethics, Veterans' Affairs Committee, Historical 
Office, Legislative Counsel, Joint Committee on Taxation, and Joint 
Economic Committee with books sent to the GPO for binding. The office 
matted and gold embossed 430 official photographs from the 57th 
Presidential Inauguration. In addition, 29 photos of chairmen and 
committee members were matted and embossed to reflect changes in 
committee leadership for the 113th Congress.
Cost Savings
    The office continues to incorporate the use of lower-cost molding 
that will result in savings of $3,000 to $3,700 per year. Training of 
Senate Library staff to repair bound copies of the Congressional Record 
reduces the need for contract support for book binding and repair. 
Conservation and Preservation worked with the Senate curators to 
replace portrait signage in the Capitol using in-house sources, 
resulting in a significant savings by eliminating the need to use 
outside contractors. The office is currently working with other offices 
to utilize in-house resources to meet their needs.
                                curator
    The Office of Senate Curator, on behalf of the Senate Commission on 
Art, develops and implements the museum and preservation programs for 
the United States Senate. The Curator collects, preserves, and 
interprets the Senate's fine and decorative arts, historic objects, and 
specific architectural features; and the Curator exercises supervisory 
responsibility for the historic chambers in the Capitol under the 
jurisdiction of the Commission. Through exhibitions, publications, and 
other programs, the Curator educates the public about the Senate and 
its collections.
Collections: Commissions, Acquisitions, and Management
    Four hundred forty-one objects were accessioned into the Senate 
Collection this year. A large number of the items catalogued included 
tickets, invitations, programs, and other ephemera related to recent 
events in which the Senate participated, most notably from the 2013 
Presidential Inauguration. The Curator's Office actively collects 
contemporary artifacts in an effort to preserve and document the 
present for future generations. Other items added to the collection 
included 300 containers (inkwells, sanders, and liners) associated with 
the historic Senate Chamber desks; seven gallery passes; five armchairs 
and four sofas made for the Senate Chamber in 1900; two stereographs; 
and an early 19th-century cylinder-fall desk and a glass-front bookcase 
associated with the Supreme Court when it met in the U.S. Capitol.
    The office catalogued 39 objects into the Architectural Fragment 
Collection, which comprises original, significant, or unique objects or 
building fabric from Senate spaces. Recent additions to the collection 
extend the collecting scope beyond the Capitol and include decorative 
elements from the Russell and Dirksen office buildings. The collection 
was established to better understand the architecture, ornamentation, 
and decoration of Senate spaces within the Capitol complex; to serve as 
a resource for historic reconstructions; and to enhance knowledge of 
the Senate.
    Twenty-four new foreign gifts were reported to the Select Committee 
on Ethics and deposited with the Curator's Office, in accordance with 
the Foreign Gifts and Decorations Act. Disposition of 36 foreign gifts 
was completed following established protocol.
    In keeping with scheduled procedures, all Senate Collection objects 
on display were inventoried this year, noting any changes in location. 
In addition, as directed by S. Res. 178 (108th Congress, 1st session), 
the office submitted inventories of the art and historic furnishings in 
the Senate to the Senate Committee on Rules and Administration (Rules 
Committee). The inventories, which are submitted every 6 months, are 
compiled by the Curator's Office with assistance from the Senate 
Sergeant at Arms (SAA) and the Architect of the Capitol's 
Superintendent of Senate Office Buildings (AOC Superintendent). 
Additionally, the Commission and Rules Committee approved guidelines 
for Senate historic furnishings. The Senate Curator's internally used 
Collections Management Policy is consistent with these guidelines. Over 
one thousand historic engravings and prints were rehoused and relocated 
to the Curator's climate-controlled paper storage room, located in the 
Capitol Visitor Center (CVC), which maintains a cooler temperature for 
paper-based collections. The move improves the care of the images by 
providing sturdier protection, inspection of both the front and back of 
the objects, and easier access to the collection. More than 1,600 
ephemera artifacts also were transferred into the climate-controlled 
CVC storage room. Additionally, 56 foreign gifts were moved to another 
Curator's storage space that provides increased security and an 
improved environment for long-term preservation. Ongoing efforts to 
photograph collection objects continued, and the resulting images were 
added to the collection database.
    Staff worked with the Senate Photo Studio and the AOC Photography 
Branch to capture special events and projects, including moving art, 
photographing objects, and documenting restoration. These images are 
important for recordkeeping; disaster preparedness; use on Senate.gov, 
the Senate's website; and publications highlighting the Senate's 
collections.
    The most significant addition to the collection this year was the 
acquisition of a graphite on paper sketch by Constantino Brumidi, one 
of only two known pencil sketches by the artist that still exist. 
Created by Brumidi in preparation for his mural in the lunette on the 
south wall of the Senate Reception Room, the sketch depicts George 
Washington, John Adams, and Thomas Jefferson seated together and 
flanked by two rondels with portraits of James Madison and James 
Monroe. The drawing documents the artist's original plan to illustrate 
portraits of the first 16 Presidents in the room. Brumidi modified the 
scene before painting the final fresco, substituting Alexander Hamilton 
for Adams, thus representing Washington and his two principal cabinet 
officers--Jefferson and Hamilton. While Brumidi worked in the Reception 
Room for over 20 years, he never completed his elaborate plans for the 
space, and this is the only historical scene he painted in the room.
    The office continued to advance the preservation and documentation 
of the historic Russell Senate Office Building furnishings through 
several initiatives this year. Chief among them was the advancement of 
educational initiatives aimed at informing Senate staff about the 
history of the furnishings. The program is important, as only 33 
percent of the original 3,109 furnishings made for the Russell Building 
remain in the Senate. Regarding documentation, the yearly occupant 
inventory of the Russell flat-top desks was conducted and the results 
were added to the Curator's database, thus recording the use and 
location of the remaining 63 historic desks. Efforts continue to locate 
and document Russell furnishings in other collections.
Conservation and Restoration
    Providing for the conservation needs of the Senate's historic 
collections is a priority. In 2013 a 5-year program was implemented to 
improve the preservation and care of the Senate Chamber desks and other 
historic furnishings in the Senate's public and ceremonial spaces. The 
project was divided between two conservation studios in order to 
accomplish as much of the on-site care and treatment as possible during 
the August State work period. Conservators evaluated the condition of 
each of the 100 Senate Chamber desks and 30 other historical objects in 
use. The findings were recorded in the Curator's database, allowing 
staff to prioritize treatment needs. Conservators completed necessary 
repairs, cleaning, and other routine care. During the first year, 
treatment of the Senate Chamber desks included repairs to broken or 
cracked feet, warped lids, and chipped or severely damaged finish, and 
replacement of wood losses. The desk in the Vice President's Ceremonial 
Office received extensive treatment, and the largest Senate Reception 
Room bench required repairs to two legs. Yearly examinations, care and 
cleaning, and repairs to new damage will ensure the long-term 
preservation and appearance of the Senate's historic objects.
    The 5-year care program also allows for more extensive treatment of 
the historic furnishings at the conservators' studios. This year, two 
objects were sent out for treatment: the case for the floor clock in 
Vice President's Ceremonial Office and an armchair from the set of 
chairs and sofas currently in the main corridor of the Senate wing and 
used in the Senate Chamber from 1900 to 1949. Both objects required 
extensive cleaning and improvements to the finish. The clock case also 
needed repairs to replace missing wood and hardware. The conservator 
provided a report on microscopic analysis of finish samples from the 
armchair and recommendations for re-upholstery procedures that will 
improve preservation. The Senate Curator's Office plans to collaborate 
with the SAA's Capitol Facilities Office to re-upholster the set, as 
well as have the remaining pieces repaired and refinished according to 
the treatment protocol developed by the conservator. The goal of 
treatment is to return this historic furniture to its appearance when 
it was in the Senate Chamber, while preserving as much original 
material as possible.
    The project to clean and repair the metal inkwells with glass 
liners and glass sanders associated with the historic Senate Chamber 
desks began this year. The containers, manufactured in the 1930s, are 
no longer used as originally intended and show signs of deterioration. 
The inkwells have a significant amount of corrosion and many of the 
hinges are loose or detached and require structural reinforcement, 
repair, and, in some cases, soldering. The glass liners and sanders 
require significant cleaning to remove dried ink and other corrosive 
substances. Treatment includes cleaning and stabilization, while 
preserving the original object as manufactured. The work is being 
conducted at a local studio during Senate State work periods. Half of 
the project was completed in 2013. Thus far the project is ahead of 
schedule and under budget.
    Taking advantage of Architect of the Capitol (AOC) restoration 
projects, the office coordinated the conservation of two historic 19th 
century over-mantel mirrors. As part of the mirror project, a 
protective plinth was installed to keep the mantel clock and display 
items from damaging the frame, to minimize contact with anything 
spilled on the mantel, and to reduce abrasions on the lower rail caused 
by dusting the mantel. Another way the office works to protect the 
mirror frame is by sending an information letter to new occupants of 
rooms with historic mirrors.
    The collection of historic clocks displayed in the Senate wing of 
the Capitol receive regularly scheduled care and repairs. This year, 
the floor clock in the President's Room, the French mantel clock in the 
SAA's office, the historic calendar clock in the Secretary's office, 
the ``Ohio'' clock, and the shelf clock in the Old Senate Chamber all 
received care to keep them properly lubricated, timed, and cleaned. The 
mechanism for a floor clock was sent to a clock conservation specialist 
for treatment at the beginning of August, at the same time as treatment 
began on the clock case. The dials, hands, weights, bells, and movement 
all required cleaning and care. In early December, the case and the 
mechanisms were returned to the Capitol and the clock was reassembled 
in working order by the clock conservator.
    Conservation treatments were carried out in 2013 to prepare for or 
improve the display of artwork in the Capitol. Four oil on canvas 
Brumidi sketches were professionally glazed by a conservator and 
installed in the Trophy Room on the first floor of the Capitol. A 
conservator cleaned the bust of George Washington that previously was 
exhibited outside the LBJ Room. The bust is scheduled to be displayed 
in front of the President's Room, and the conservator also reviewed and 
approved a mount maker's design to secure the bust on the marble 
pedestal. The pedestal is currently being fabricated and will be 
completed and installed in 2014. With the conservator's help, the mount 
maker also designed and installed a new mount to keep the arrows in 
place for the Eagle and Shield sculpture in the Old Senate Chamber.
    Staff of the Curator's Office continued to perform routine cleaning 
for objects on display according to a schedule established to prevent 
harmful or unsightly build-up of dust and grime. Repeatedly touching of 
an object can damage the patina of the marble, requiring the 
specialized skills of conservators to clean. The conservator who 
cleaned the bust of Washington also treated the bust of Vice President 
James Sherman. A disfiguring stain along the side of the plinth where 
people rested their arms was removed, as well as other stains and dried 
paint drips.
    In conjunction with the installation of new interpretive labels for 
the paintings in the Senate wing of the Capitol, a conservator removed 
old labels attached to 23 painting frames and repaired the holes and 
discolorations left in the gilding. This project was part of the 
ongoing program for on-site treatment of gilded frames. Other work 
included on-site frame work to address losses on two frames and 
critical consolidation on three other frames. One frame required 
extensive work to improve its appearance, which was done in the 
conservator's studio.
    The Curator's Office identified a potential location for the 
installation of the circa 1857 Cornelius & Baker armorial gasolier in 
the Senate Collection. The fixture needs to be conserved and 
electrified in preparation for installation. The staff undertook 
extensive research into Cornelius & Baker's unique finishes, historic 
lighting conservation, and electrification of gasoliers. The office 
expects to initiate the project in 2014. All of the Senate extension's 
original chandeliers, with the exception of the chandelier in the 
President's Room, were removed in the late 19th century. The return of 
this armorial fixture offers an exciting opportunity to interpret the 
Capitol's historic lighting and for the public to see this rare 
Cornelius & Baker gasolier.
Historic Preservation
    The Curator's Office continued to work closely with the AOC and SAA 
to review, comment, plan, and document Senate-side construction 
projects (many of which are long-term initiatives) that involve or 
affect historic resources. Such construction and conservation efforts 
this year included the Senate Reception Room restoration, Brumidi 
Corridors restoration, Senate-side plaster repairs, and the Small 
Senate Rotunda proposed restoration. Through this effort, the Curator's 
Office works to ensure that the highest preservation standards are 
applied to all Senate projects in the Capitol. The close working 
relationship fostered with the AOC historic preservation officer (HPO) 
and AOC curator has broadened the reach of curatorial review and 
strengthened preservation efforts. In an effort to formalize this 
collaboration and the dissemination of opinions, the Curator's Office 
and the AOC HPO drafted preservation guidelines that will require 
project review and written comment by the AOC and Senate 
preservationists for all projects submitted to the Senate Committee on 
Rules and Administration.
    After assisting the AOC in moving toward a 5-year plan for 
finishing the Brumidi Corridors conservation, the Curator's Office 
worked with the AOC to establish an internal working group to consider 
the full scope of the corridor restoration and ensure that a consistent 
philosophy is applied. This group has addressed furnishings, signage, 
and protective measures to date. The Curator's Office took the lead on 
the issue of signage (honorary, current occupant, and historic overdoor 
cartouche) and conducted extensive research and drafted a comprehensive 
position statement.
    Following the success of the Brumidi Corridor conservation effort, 
the Curator's Office assisted in the Senate Reception Room 
conservation. While a phased plan for wall conservation exists, the 
office has emphasized a need for a comprehensive plan that includes 
ceiling testing and conservation, mirror conservation, and door and 
window enframement restoration. In addition, the office has taken the 
lead in educating the Senate community on the significance of the space 
and the conservation work.
Historic Chambers
    The Curator's staff continued to maintain the Old Senate and Old 
Supreme Court Chambers and coordinated periodic use of both rooms for 
special occasions. The staff worked with the U.S. Capitol Police and 
the SAA to record after-hours access to the historic chambers by 
current Members of Congress. One hundred and twenty-three requests were 
received from current members for after-hours access to the Old Senate 
and Old Supreme Court Chambers. Of special significance in the Old 
Senate Chamber were the re-enactment swearing-in ceremonies for 
senators elected to the 113th Congress, as well as four senators 
elected during the course of the Congress. In addition, a joint caucus 
was held in the Old Senate Chamber. Both historic chambers were used to 
support the 2013 Presidential Inauguration.
Loans to and from the Collection
    A total of 54 historic objects and paintings are currently on loan 
to the Curator's Office on behalf of Senate leadership and officers in 
the Senate wing of the Capitol. The staff returned 12 loans, renewed 
loan agreements for 29 other objects, and acquired 2 new loans. Over 17 
loans are projected to be renewed in 2014.
    For the 2013 Presidential Inauguration, the office assisted the 
Joint Congressional Committee on Inaugural Ceremonies with coordinating 
the loan of a painting from the State Department, the eagle podium from 
the Daughters of the American Revolution, the Lincoln Bible from the 
Library of Congress, and Martin Luther King, Jr.'s personal Bible from 
the King Estate. The office was responsible for the management of all 
loan agreements and legal documentation associated with the loans, 
shipping arrangements, and installation of the objects.
Publications and Exhibitions
    In the spring of 2014, the office is scheduled to publish the 150-
page book, ``To Make Beautiful the Capitol'': Rediscovering the Art of 
Constantino Brumidi, which highlights the extensive conservation and 
recent scholarship on Brumidi's work in the Senate wing of the Capitol. 
The Office of Senate Curator utilized the resources of the AOC 
Photography Branch to generously illustrate the publication, and is 
working extensively with the Government Printing Office to coordinate 
the printing of the art book with over 160 color images of murals, 
collection objects, and historic graphics related to Brumidi.
    Four educational brochures were reprinted for public distribution: 
The Old Supreme Court Chamber 1810-1859, The Senate Vestibule, The 
President's Room, and The U.S. Senate Appropriations Committee.
    New interpretive labels were installed for the 49 paintings on 
display in the Senate wing of the Capitol. The labels were fabricated 
using in-house resources at minimal cost to the Senate in a 
collaborative effort coordinated by the Curator's Office with the 
assistance of the Secretary's Office of Conservation and Preservation 
and the Senate Gift Shop, the SAA's Printing and Graphics Office, as 
well as the AOC's Painting and Decorating Division and Carpentry Shop.
    The office continued to increase its presence on Senate.gov by 
adding artifact pages and including new information to existing 
artifacts pages. Objects highlighted include the four Brumidi sketches, 
as well as several stereographs depicting Senate rooms and corridors. 
The office is currently developing a Web site featuring the Senate's 
collection of ephemera and historic artifacts, and the site is 
anticipated to be launched in 2014. The growing number of artifacts and 
virtual exhibits added to Senate.gov directly correlates to the 
increased number of inquiries received from the public, students, 
congressional staffers, and others regarding the Senate's collections. 
This effort supports the office mission to ``make known the 
collection.''
Collaborations, Educational Programs, and Events
    Curator's staff assisted with numerous CVC-related projects 
throughout the year, including participating in the morning briefings 
to the Capitol Visitor's Services, conducting exhibit talks in the CVC 
for the public, reviewing exhibition text and images, and evaluating 
products and publications for the CVC Gift Shop.
    The Curator's staff also gave lectures on the Senate's art and 
historical collections to various historical groups and art museums, as 
well as to members of the Capitol Police Chamber Division. The office 
continued to assist with the Secretary's Senate staff lecture and tour 
series. For Unum, the Secretary of the Senate's newsletter, the staff 
has created a regular series entitled ``Artifacts & Oddities,'' which 
highlights old and new objects from the Senate Collection.
    With approval of the Office of Senate Curator, the United States 
Postal Service released a ``Forever'' stamp on September 10, based on 
the Senate Collection image of the Battle of Lake Erie by William Henry 
Powell. The stamp commemorates the 200th anniversary of the War of 
1812.
    At the request of the Rules Committee, the Curator's Office worked 
with the staff of Senate Conservation and Preservation and Senate 
Historian to prepare a new exhibit for the Senate Dining Room in the 
Capitol Building. The exhibit features menus, photos, and coffee 
service sets associated with the Senate Dining Room over the years, and 
provides interesting historical information for diners waiting to be 
seated.
Office Administration and Automation
    In 2013 the Senate Commission on Art empanelled the Senate 
Curatorial Advisory Board for the 113th Congress. This board, 
authorized by 2 USC Sec. 2108, is made up of experts in the fields of 
arts, historic preservation, and other appropriate fields, and provides 
expert advice and assistance to the Commission on Art in furtherance of 
its duties.
    An office intranet was created that enables Curator staff to access 
quickly the most important legislative records, precedents, and 
official rules and policies relevant to the establishment and operation 
of the Senate Commission on Art. In addition, the intranet provides 
convenient access to more than 660 documents that detail the 
jurisdiction and authority of the Commission on Art, and the history of 
the implementation of the Commission's duties. In addition, staff 
developed a new system to track office finances and contract fund 
disbursements.
    In 2013 the Office of Senate Curator undertook efforts to reduce 
costs by having staff pack items for shipping when possible instead of 
hiring professional art handlers. This included paintings and small 
sculptures on loan, the sanders and inkwells for conservation, and 
retrofitting crates for reuse. The office was also able to consolidate 
several shipments with professional art handlers, which reduced the 
number of delivery stops and lowered the overall transportation and 
fuel costs.
Continuity of Operations (COOP) Planning
    In 2013, in support of the Office of the Secretary's commitment to 
COOP programs, the Office of Senate Curator participated in building 
evacuation and relocation exercises carried out by the U.S. Capitol 
Police. A tabletop exercise, in conjunction with the AOC's staff, was 
conducted to better understand how the AOC responds to an emergency and 
to ensure that contact information is shared by all. The office updated 
the emergency preparedness database and made regular back-ups of the 
office's electronic records to store off-site in a secure location. 
Additionally, monthly tests of emergency notification, laptop remote 
access procedures, and monthly remote desktop access were conducted to 
facilitate staff preparedness in an emergency situation.
                         education and training
    The Joint Office of Education and Training provides training and 
development opportunities for Senate staff in Washington, DC and the 
State offices. There are two branches within the office: Education and 
Training and Health Promotion. The Education and Training branch 
provides training for all Senate staff in areas such as management and 
leadership development; human resources management; legislative and 
staff information; new staff and intern orientation; and training 
support for approved software and equipment used in Washington, DC, and 
State offices. This branch also coordinates and provides major training 
events for State and DC staff.
    Training is provided through instructor-led classes; one-on-one 
coaching sessions; specialized vendor-provided training; computer-based 
training; Webinars; video teleconferencing; informal training and 
support services; documentation, job aides and quickcards. The Learning 
Management System, which has over 3,000 staff accounts, provides Senate 
staff with a user-friendly method for finding and registering for 
classes.
    Education and Training will continue to expand its online training 
options for Hill and State staff. The department is rolling out an 
Online Leadership curriculum for Senate managers and continues to work 
with its training partners to provide just-in-time training. Education 
and Training also successfully trained many offices on the use of the 
new Watson Unified Conferencing and Jabber Telepresence using a variety 
of learning methods, including online, documentation, classroom, and 
individual coaching.
    The Health Promotion branch provides seminars, classes, and 
screenings on health and wellness. This branch also coordinates an 
annual health fair for all Senate employees and plans blood drives 
throughout the year.
Capitol Hill Training
    The Office of Education and Training offered over 1,000 instructor-
led and online classes and events in 2013, in which over 5,800 staff 
enrolled. This office's registration desk handled approximately 10,000 
email and phone requests for training and documentation.
    The office also provided customized training to 121 offices for 
over 800 staff members. These sessions included conflict resolution, 
organizational development, strategic planning, Senate office systems 
training, and meeting facilitation. Individual in-depth training to 
Senate office system administrators and management coaching was 
provided as well.
    Education and Training coordinates the orientation program for 
aides to senators-elect and new administrative directors after every 
election. Twenty to 30 staff usually attend each of the eight sessions 
in this program. Once the senators had taken office, another 10 session 
orientation series for management, press and scheduling staff was held, 
and was attended by 15 to 20 staff.
    The Senate's intern program is a focus of the office, which 
provides training for intern coordinators as well as 10 orientation and 
training sessions for approximately 1,500 interns throughout the year.
State Office Training
    The Office of Education and Training provided learning 
opportunities to State offices for which over 300 State staff 
registered. To reduce travel costs for offices, Education and Training 
began offering virtual conferences in recent years. In 2013 the Virtual 
State Training Fair was attended by 32 State staff, and another 70 
participated in the State Directors Forum and the Outreach Conference. 
Twenty different virtual sessions were offered at these two 
conferences. The Constituent Services Conference, held in DC, was 
attended by 42 State staff. Additionally, the office offers weekly 
video teleconferencing or webinar classes just for State staff. Each of 
these offerings is attended by anywhere from 10 to 50 staff.
    The offices' online offerings include 5,000 self-paced-based 
training courses covering technical, performance and language skills 
and a research library of 19,900 publications. This allows staff in 
both DC and the States to take training at their convenience. This 
year, 398 DC and State office staff have registered and accessed 921 
unique courses. During 2013, over 8,400 book pages had been accessed.
    Education and Training also continues to develop job-specific 
training and resources for Senate staff. The office is currently 
identifying the job skills required for each position in member and 
committee offices to create a set of recommended classes for improving 
or learning those job skills.
Health Promotion
    In the Health Promotion area, 450 staff participated in health 
promotion activities, including lung function and kidney screenings, 
blood drives, and seminars on health-related topics. Health Promotion 
also coordinates fee-based classes such as weight managements, yoga, 
and pilates to promote healthy lifestyles.
Cost Saving Measures
    The Office of Education and Training has eliminated all printed 
announcements and calendars and has expanded its video teleconferencing 
and webinar offerings to include Washington, DC staff as well as State 
staff. Additional self-paced training modules allow State and DC staff 
to learn at their own time and place. The Learning Management System, 
created by Sergeant at Arms staff, eliminated the support costs of the 
commercially purchased system it replaced and provides a superior 
product.
                               gift shop
    Since its establishment in 1992 (2 U.S.C. 121d), the Senate Gift 
Shop has continued to provide outstanding service and products that 
maintain the integrity of the Senate while increasing the public's 
awareness of its mission and history. The Gift Shop serves Senators and 
their spouses, staff, constituents, and the many visitors to the U.S. 
Capitol complex. The products available include a wide range of fine 
gift items, collectables, and souvenirs, many created exclusively for 
the U.S. Senate.
Facilities
    In addition to providing products and services from three physical 
locations, the Gift Shop has an online presence on Webster. The Capitol 
Kiosk temporarily closed at the end of January 2013 to accommodate 
continued restoration of the Brumidi Corridors. The Web site offers an 
increasing selection of products that can be purchased by phone, email, 
or by printing and faxing the order form provided on the site. Along 
with offering over-the-counter and walk-in sales, as well as limited 
intranet services, the Gift Shop administrative office provides mail 
order service as well as special order and catalogue sales.
    The Gift Shop maintains two warehouse facilities. The bulk of the 
Gift Shop's stock is held in the Senate Storage Facility (SSF), an 
offsite warehouse. While the Senate Sergeant at Arms (SAA) is in charge 
of the overall management of the SSF, the director of the Gift Shop has 
responsibility for the operation and oversight of the interior spaces 
assigned for Gift Shop use. Storing inventory in this centralized, 
climate-controlled facility provides protection for the Gift Shop's 
valuable inventory in terms of physical security as well as improved 
shelf life for perishable and nonperishable items alike.
    The second Gift Shop warehouse is maintained within the Capitol 
complex. This facility serves as the point of distribution of 
merchandise to the Gift Shop store and the Capitol Gift Shop counter, 
both of which have limited storage space. This warehouse accommodates 
the Gift Shop's receiving, shipping, and engraving departments, as well 
as supplying the inventory sold through the administrative and special 
order office.
Sales Activities
    Sales recorded for fiscal year 2013 were $1,372,279. Cost of goods 
sold during this same period was $1,111,894, accounting for a gross 
profit on sales of $260,385.
    The Senate Gift Shop maintains a revolving fund and a record of 
inventory purchased for resale. As of October 1, 2012, the balance in 
the revolving fund was $4,137,132. The inventory purchased for resale 
had an end of the year value of $2,427,187.
Environmental Fair and Senate Service Expo
    The Gift Shop participated in the 2013 U.S. Senate Environmental 
and Energy Fairs sponsored by the Architect of the Capitol. 
Environmentally friendly products that were displayed included wooden 
flag and desk boxes, wooden pens, custom-designed wrapping paper 
produced from recycled paper, aluminum water bottles, BPA-free water 
bottles, biodegradable travel mugs, and a travel mug produced from 100 
percent U.S. natural corn products. The Senate Gift Shop was also part 
of the Senate Service Expo where Senate staff were able to learn about 
the wide range of services available, including engraving, customized 
merchandise, bulk orders, and more.
Continuity of Operations (COOP) Planning
    Under the auspices of the Office of Senate Security, the Senate 
Gift Shop participated in an off-site exercise designed to measure 
preparedness to work off-site. Additional material was added to the Fly 
Away Kit based on the results of this exercise. The Senate Gift Shop 
also prepared a plan to cope with the possibility of a flu pandemic.
Selected Accomplishments in Fiscal Year 2013
            Official Congressional Holiday Ornaments
    The Official 2013 Congressional Holiday Ornament was introduced in 
September 2013. The ornament takes its inspiration from the Old Senate 
Chamber and the meticulous restoration that took place there. Working 
with the Curator's Office, the Gift Shop was able to salvage and 
incorporate pieces of the red draperies that had previously hung in the 
Old Senate Chamber since 1976 within the ornament's design.
    Sales of the 2013 holiday ornament exceeded 21,000 ornaments of 
which almost 6,400 were personalized with engravings designed, proofed, 
and etched by the Senate Gift Shop staff. This highly successful effort 
was made possible by the combined efforts of the administrative, 
engraving, and store staff. Consistent with past practice, a transfer 
of $40,000 to the Senate Employees Child Care Center was made based on 
the annual sales of the Congressional Holiday Ornament (see 2 U.S.C. 
121d(3)).
            Webster Site
    The Senate Gift Shop's website continues to expand with the 
addition of new merchandise, photographed by the Senate Photo Studio. 
Product descriptions are written in-house.
    The Gift Shop contributes an article highlighting products and 
services to each issue of the Secretary's Unum newsletter. In turn, the 
website links to the electronic version of Unum, a practice that has 
increased traffic to the website and is responsible for an increase in 
the use of Gift Shop services by State offices.
Projects Recently Produced and New Initiatives for 2014
            Capitol Visitor Center and Other Venues
    The Senate Gift Shop continues to supply the Capitol Visitor Center 
and the House Gift Shop with a wide variety of inventory product, 
offering service when needed and advice on purchase order, invoice, and 
operational processes. This year the Senate Gift Shop expanded on this 
service, providing merchandise and promoting the art and architecture 
of the U.S. Capitol to other cultural institutions including the 
National Archives, the John F Kennedy Center for the Performing Arts, 
Eastern National and the Lake Erie Maritime Museum. We will continue to 
expand this operation in fiscal year 2014.
            Congressional Plate Series
    The latest 8 year, four-plate series of the 112th, 113th, 114th, 
and 115th Congresses has been produced. The 112th and 113th plates are 
currently being offered for sale. The plates for each of the future 
Congresses will be made available during that respective congressional 
session. The designs depict art and architecture from four of the most 
historically significant rooms in the Capitol: the Senate 
Appropriations Room, Old Senate Chamber, Old Supreme Court Chamber, and 
President's Room.
            Laser Engraver
    The laser engraver has allowed the Senate Gift Shop to meet 
customer demand by expanding engraving services to include additional 
materials such as wood, acrylic, glass, plastic, stone, marking metals, 
and anodized aluminum. We were also able to purchase stock merchandise 
for resale from a number of vendors and brand the merchandise with 
Senate logos or architectural motifs from the U.S. Capitol. Previously, 
crystal and glass items could not be personalized without being sent 
offsite at additional cost. The laser engraver has been used for 
special projects: for the Curator's office, the Gift Shop created 
signage for the Vice Presidential busts and for assorted artwork. The 
laser engraver has also been used regularly on behalf of the 
Conservation and Preservation Office.
            Special Orders
    The administrative office coordinated over 1,300 special orders 
during fiscal year 2013 consisting of engraving projects and custom 
orders of merchandise including mugs, binders, cufflinks, etc., for a 
total of 44,521 units.
            Capitol Kiosk
    Gift Shop staff worked with the Curator's Office and SAA's Capitol 
Facilities to design a new Capitol Kiosk. The design is both compact 
and utilitarian, allowing for a better viewing of the Brumidi artwork 
in the area and for a better display of the selected Senate Gift Shop 
merchandise.
                           historical office
    Serving as the Senate's institutional memory, the Historical Office 
collects and provides information on important events, precedents, 
dates, statistics, and historical comparisons of current and past 
Senate activities for use by members and staff, the media, scholars, 
and the general public. The archivists advise Senators, officers, and 
committees on cost-effective disposition of their noncurrent office 
files and assist researchers in identifying Senate-related source 
materials. The historians keep extensive biographical, bibliographical, 
photographic, and archival information on the nearly 2,000 former and 
current senators. The staff edits for publication historically 
significant transcripts and minutes of selected Senate committees and 
party organizations, and conducts oral history interviews with senators 
and Senate staff. The historians offer special talks and tours to 
inform senators and Senate staff about important historical events, the 
history of the Capitol, and the Senate's institutional development. The 
photo historian maintains a collection of approximately 40,000 still 
pictures that includes photographs and illustrations of Senate 
committees and nearly all former Senators. The Office staff also 
develops and maintains all historical material on the Senate website, 
providing educational outreach through email and Twitter.
Research, Writing, and Editorial Projects
            Social Media
    In June 2013 the Historical Office launched a Twitter account as a 
way to expand the audience for Senate history. Daily tweets help raise 
awareness of the considerable resources available on Senate.gov to 
Senate staff, students, teachers, researchers, reporters, and the 
public. @SenateHistory highlights Senate-related events that occurred 
``on this day'' in history, features specific Web pages and 
collections, and announces new material and information posted on 
Senate.gov. The Historical Office sent an average of almost 13 tweets a 
week, had more than 75 percent of those tweets retweeted, and gained 
2,000 followers, which has increased traffic to the Senate Web site. 
Compiling information and material for tweets has also helped in 
refining and editing existing material, as well as developing new 
content for the Web site.
            ``Historical Series'' of the Senate Foreign Relations 
                    Committee
    The historians continued the ongoing project to prepare the 
executive transcripts of the Senate Foreign Relations Committee (SFRC) 
for publication. Both to work more efficiently and to create digital 
copies of the hearings, secure equipment was set up in the Office of 
Senate Security, where the assistant historian has scanned closed 
transcripts from the year 1969 which will appear as volume XXI of the 
``Historical Series'' of SFRC. She is now editing the transcripts for 
declassification and publication.
            Sesquicentennial of the Civil War
    In connection with the ongoing commemoration of the 150th 
anniversary of the Civil War, the Historical Office continued to post 
monthly features relating to the Senate's Civil War experiences on the 
Senate.gov. The historians also worked with the Capitol Visitor 
Center's staff in selecting items for display related to the Civil War 
and Reconstruction. The historians have developed and led special 
Capitol tours to highlight historic spaces, events, and personalities 
associated with the Senate's Civil War experience as well as providing 
brown bag lunch talks on the topic.
            Documentary Histories of the U.S. Senate
    The Historical Office continued its work on this online documentary 
history series, which presents case studies and primary-source 
documentation for all contested Senate elections, censure, and 
expulsion cases; impeachment trials; and major investigations. Intended 
for use by the Senate and the general public, these documentary 
histories are particularly valuable for teachers seeking to include 
primary-source documents in their lesson plans. This project also 
allows the Historical Office to update case studies of past events and 
add recent case studies, eliminating the need for new print editions of 
past publications, reducing costs and paper use. Completed case studies 
in three categories (contested elections, censures, and expulsions) of 
this five-part project are now included on the Senate Web site, with 
new revisions and updated cases added periodically. In addition, 
multiple case studies in the remaining two categories (impeachment 
trials and investigations) are now completed and online, with more to 
follow in the year ahead. The incorporation of more images, audio 
clips, and historic video footage further enhances the interest and 
usefulness of the site for teachers and students.
            Administrative History of the Senate
    The associate historian continued preparing a historical account of 
the Senate's administrative evolution since 1789. This ongoing study 
traces the development of the offices of the Secretary of the Senate, 
the Sergeant at Arms, and the Senate's administrative infrastructure. 
It explores 19th and 20th-century reforms that resulted in 
reorganization and professionalization of Senate staff, and examines 
how the Senate's administrative structure has developed and evolved.
            Rules of the United States Senate, Since 1789
    In 1980, Senate parliamentarian emeritus Floyd M. Riddick, at the 
direction of the Senate Committee on Rules and Administration, prepared 
a publication containing the eight codes of rules that the Senate 
adopted between 1789 and 1979. In the 1990s, the Senate Historical 
Office staff developed a project to incorporate into the eight codes of 
rules an explanation of how and why the Senate's current rules evolved 
from earlier versions. The Senate's historian emeritus continues to 
work on this project, which will include the original text of all 
standing rules and, for the first time in one publication, all changes 
adopted between each codification.
            Biographical Directory of the U.S. Congress, 1774-present
    The Historical Office regularly updates the Biographical Directory 
of the U.S. Congress, adding biographical entries for new Senators, 
making sure that entries for sitting Senators are current and accurate, 
and incorporating new bibliographical citations for former Senators. 
The Senate historians work in tandem with the historical staff of the 
House of Representatives to maintain accuracy and consistency in this 
joint Senate-House database, and to promote this valuable resource 
among historians, teachers, students, and the public. The Senate 
archivist and her deputies expand and revise the ``Research 
Collections'' aspect of the database, taking advantage of new resources 
on archival collections.
            Party Conference Minutes, 1965-1977
    The Historical Office previously edited, indexed, and published the 
minutes of the Senate Democratic and Republican Conferences covering 
the years prior to 1964, and is currently preparing a similar volume 
for the Democratic Conference including its minutes from 1965 to 1977. 
Beginning in 1973, verbatim transcripts were prepared for each 
Conference meeting, considerably enlarging the documentation. This 
project has involved scanning and editing 2,869 pages of transcripts 
for 102 meetings of the Conference and inclusion of an index and 
explanatory annotations. With the approval of the Conference, the 
minutes will be published, and a similar editorial project is being 
pursued for the Republican Conference minutes for this time period. The 
office has scanned an additional 3,115 pages of transcripts for the 73 
conferences between 1977 and 1982 for future publication.
            Dirksen Senate Office Building Exhibits
    Senate historians have worked with the Senate Curator and the 
Senate Library staffs on new exhibits for the entranceway to G-50 in 
the Dirksen Building. This year's exhibits detailed the types of 
committee rooms in which the Senate has conducted hearings, in the 
Capitol and the Senate office buildings, and the notable investigations 
that Senators have carried out. Quick Response (QR) codes are being 
added to the exhibit cases to enable visitors to connect to additional 
information on the Senate's Web site.
            Oral History Program
    The historians conduct oral history interviews to record personal 
recollections of Senators, officers, and Senate staff members who 
reflect on their careers and experiences. Over the past year, 
interviews were conducted with Larry Bageant, who ran the mail 
operations for five Republican and Democratic Senators; Burton V. 
Wides, who served on the staff of Senator Phil Hart; Jane Calderwood, 
former legislative assistant and chief of staff to Senator Olympia 
Snowe; Julie Price and Ellen Blakeman, two of the Senate's first female 
pages; Mary DeOreo, who served as an investigator on the Watergate and 
Church Committees and the Judiciary Committee; Scott McGeary, a page 
who served under the patronage of four Democratic and Republican 
Senators; Rohit Kumar, former domestic policy advisor and deputy chief 
of staff to Republican Leader Mitch McConnell; and David Hoppe, former 
chief of staff for Republican Whip Jon Kyl.
    These interviews with opened for research: Charles Ferris, former 
staff director of the Democratic Policy Committee; Rufus Edmisten, 
former staff of Senator Sam Ervin and deputy counsel for the Senate 
Watergate Committee; and Elizabeth Letchworth, former Republican Party 
secretary.
    The complete transcripts of 44 interviews conducted since 1976 have 
been posted on Senate.gov, the Senate Web site. The Web site now 
features a different collection of oral history interviews each month 
and includes images and audio clips with the interview transcripts. The 
Historical Office has worked with the National Archives and Records 
Administration to digitize recordings of past oral history interviews 
previously archived on magnetic tape for both preservation and 
presentation purposes. Many issues of Unum, the Secretary of the 
Senate's newsletter, have included a feature titled ``Senate Voices,'' 
which excerpts the oral histories, focusing on different subjects.
Member Services
            Educational Outreach
    The historian and associate historian delivered a series of 
``Senate Historical Minutes'' at the weekly Democratic and Republican 
Conference luncheons. These ``minutes'' highlighted significant events 
and personalities associated with the Senate's institutional 
development. Many of them are now included on Senate.gov as ``Senate 
Stories.'' The historian and associate historian also provided special 
tours to members and their staff, highlighting the historic 
significance of specific rooms and spaces of the Capitol.
            Members' Records Management and Disposition Assistance
    The Senate Archivist began meeting with all Senators' offices that 
will be closing either before or at the end of the 113th Congress to 
provide guidance on archiving their records. This service includes a 
``closing an office'' notebook that features a closing timeline and 
quick cards on topics ranging from selecting a repository and 
inventorying a collection, to how to donate a collection. Following 
these meetings, some retiring Senators have hired professional 
archivists to assist with preparing their records for archival 
preservation, while others have assigned dedicated staff to perform 
this work. The Senate archivist provides a ready source for 
troubleshooting on archival issues as the offices are closing, a 
process that has grown increasingly complex with electronic records and 
the many forms they take.
    Of the 11 Senators who have left or plan to leave office by the end 
of the 113th Congress, five have selected a repository for their 
papers, four are in the process of doing so, and two have retained 
their records personally. Because these collections have large digital 
components, the members who are retaining their electronic records for 
the time being were provided with electronic records preservation 
guidance to follow until they are ready to donate the collections to a 
research institution.
    Senators are frequent users of portable communications devices and 
their offices are making use of social media. YouTube, Facebook, and 
Twitter are the most popular, but Senate offices are moving into such 
other platforms as Instagram, Tumblr, and Pinterest. The archivists 
have produced new guidance for systems administrators to address the 
archiving issues raised by these devices and systems. Information 
gathered during the briefings on closing offices and from meetings with 
new offices was used to produce the second and third editions of the 
Senator's Office Archives Toolkit, which has proved popular with both 
new and established offices. The Records Management Disposition 
Schedule was revised to incorporate new formats. The archivists urge 
members to preserve their email and texts in order to preserve a full 
record of their Senate service.
    The archivists have also been working with the Senate Technology 
Assessment Group (TAG) on evaluating available tools for social media 
preservation. This has been necessary because some of the tools are 
fee-based or require administrative access to the specific account in 
order to implement platform-specific APIs (Application Programming 
Interface that specifies how software components should interact). TAG 
membership has made the project a high priority and formed a working 
group to determine requirements and investigate the options. The goal 
is to provide either a specific option or a suite of options that will 
meet Senators' needs and adhere to archival best practices.
    The Senate archivists hosted lunchtime discussions and individual 
meetings for staff directors, administrative directors, archivists, and 
systems administrators on committees and personal staffs on such themes 
as ``What New Offices Need to Know about Archiving,'' ``What Shall We 
Keep?,'' and ``Preserving the Senate's History in Times of Change.'' 
This last session was filmed and abstracted and is available of the 
Secretary's site on Webster. The archivists began a new initiative to 
include systems administrators in the archival meetings and have 
promoted the benefits of offices creating an ``archiving team'' that 
includes the systems administrator.
    The archivists' listserv continues to be a major means for updating 
staff with records management and archival guidance. The Senate 
archivists also work with the repositories that receive senatorial 
collections to promote adequacy of documentation and proper 
inventorying and formatting of records prior to transfer. As a result, 
the majority of Senators' collections have been inventoried before 
shipment to the repository that will preserve them.
    Outreach to members' spouses was initiated through a special 
briefing for the Senate spouses group on ``Five Things Every Spouse 
Should Know about the Senator's Archives.'' This was followed by an 
Archival Treasures Open House at the Center for Legislative Archives, 
designed to advise Senate families that they, too, have a role to play 
in preserving Senate history.
            Committee Records Management and Disposition Assistance
    Senate Rule XI(2) directs that ``the Secretary of the Senate shall 
obtain at the close of each Congress all the noncurrent records of the 
Senate and of each Senate committee and transfer them to the National 
Archives for preservation.'' During 2013, the Senate transferred 
1,700.3 cubic feet and 3.1 terabytes of electronic records to the 
Center for Legislative Archives. Senate archivists achieved this result 
by providing Senate committees with guidance for records management, 
preservation of electronic records, records appraisal and accessioning, 
and questions of access.
    Senate archivists continued to concentrate on the backlog of 
committees' electronic records, which date back 20 years. They 
encouraged committee staffs to adopt ``best practices'' for electronic 
records management and to sustain those practices moving forward. The 
Senate archivist continues to communicate with committee staff on an 
ongoing basis. Sixteen of the Senate's 17 standing committees have 
begun to preserve their electronic records. The archivist is also 
working with the Select Committee on Intelligence to prepare for 
archiving classified electronic records, and is expecting to begin this 
process during 2014. Preservation of electronic records continues to be 
a challenge due to the rate of staff turnover and the need for constant 
outreach and persuasion.
    Because electronic records archiving has been more consistent for 
those committees with archivists on their staff, the Senate archivist 
continues to encourage committees to hire a professional archivist. 
Committee archivists are on the scene and able to respond immediately 
when staff members depart and can provide contextual information for 
the accessioning process. Recently, however, some of the committee 
archivist positions have been lost due to budget cuts. The Senate 
archivists are currently handling the preservation of electronic 
records for eight committees until those committees can either create 
or reinstitute their own archival positions.
    In order to create an online catalog of Senate records at the 
National Archives, the archivists have worked with the Center for 
Legislative Archives' descriptive archivist to create an accessions 
form that adequately describes modern electronic records.
            Advisory Committee on the Records of Congress
    This 11-member permanent committee, established in 1990 by Public 
Law 101-509, meets semiannually to advise the Senate, the House of 
Representatives, and the Archivist of the United States on the 
management and preservation of the records of Congress. By law, the 
committee is required to report to Congress every 6 years on the status 
of Congress' and members' archival records. The Senate archivist serves 
as principal liaison to the committee.
    The Senate archivist served as lead editor of the Fifth Report of 
the Advisory Committee. This report recommends that committees hire 
professional archivists/records managers to improve preservation of 
committee electronic records; that the Senate archivists build strong 
bridges with the Senate IT community; and that Senate leaders continue 
to promote archiving and serve as examples for Members of the Senate.
Photo Collections
    The Senate photo historian continued to ensure history-focused 
photographic coverage of the contemporary Senate by photographing 
Senate committees, collecting formal photo portraits of new and 
departing Senators, and capturing significant Senate events in 
cooperation with the Senate Photo Studio. She provided timely 
photographic reference service by phone and email, while cataloging, 
digitizing, and expanding the office's 40,000-item image collection.
Continuity of Operations (COOP) Planning
    The Historical Office's COOP action officer and emergency 
coordinator continued to update the office's COOP plan in the LDRPS 
(Living Disaster Recovery Planning System) and make back-ups of the 
office's electronic records for off-site storage. The COOP action 
officer also trained summer interns in the office's emergency 
evacuation procedures in addition to regularly updating staff members' 
contact information in the ALERTS system, attending relevant emergency 
preparedness training, and leading the office in shelter in place and 
internal relocation drills.
Educational Outreach
    The Historical Office's contact with the general public 
increasingly occurs through the Senate's Web site. In anticipation of 
such contact, the historians frequently update the Web site with timely 
references and historical information, and each month they select 
relevant and timely material to be featured on the site. During the 
past year, the office responded to more than 1,200 inquiries from the 
public, the news media, students, genealogists, congressional staff, 
teachers, and scholars through the public email link, in addition to 
daily requests by phone from staff, the media, and the public. The 
diverse nature of these questions reflects varying levels of interest 
in Senate operations, institutional history, and former members.
    Working with the Office of Web Technology, the historians and the 
historical writer continued to revise and update all of the principal 
pages of the Web site to better utilize the online environment to 
provide timely, accurate, and interesting historical material. Over the 
past year, monthly features have focused on Black History Month, 
Women's History Month, classic Senate speeches, the 40th anniversary of 
the Watergate investigation, the ``Idea of the Senate,'' and the 
centennial of the direct election of Senators, to name a few. New 
archival documents were featured, historic photographs were included, 
and audio and video clips further enhanced the historical pages. The 
online collection of ``historical minutes'' was expanded and revised as 
``Senate Stories'' to make these valuable features more interesting and 
easier to navigate.
    The historians offered talks, tours, and seminars on the general 
history of the Senate and launched a new ``brown bag lunch'' series 
with talks by the associate historian on ``Margaret Chase Smith: Senate 
Pioneer'' and ``Beyond the Caning: The Rest of the Charles Sumner 
Story,'' and a talk by the assistant historian titled ``The Senate's 
Civil War Accomplishments.'' On September 17, 2013, the historians 
joined forces with the Center for Legislative Archives to present a 
special Constitution Day program, ``Amending the Constitution: One 
Hundred Years of Direct Election of Senators,'' for Senators, staff, 
and visiting students and teachers. Throughout the year, the historians 
participated in Senate staff seminars, conducted briefings for 
specially scheduled groups, and met with visitors, teachers, and 
students.
Capitol Visitor Center
    The historians continued to provide information and guidance to the 
staff of the Capitol Visitor Center (CVC) related to the educational 
component of the exhibition gallery. On a regular basis, the historians 
provided training and informative talks for the Capitol Guide Service, 
the CVC visitor assistants, and other CVC staff. They gave morning 
briefings to the Capitol Guide Service, advised volunteers and staff 
giving exhibit talks in the CVC, contributed to the training of visitor 
assistants who guide visitors through the exhibition gallery, and 
consulted with the CVC staff on its educational outreach programs. The 
historians routinely provided oversight for exhibit rotations, reviewed 
the selection of exhibit documents and artifacts, participated in 
planning for future exhibit rotations, and provided guidance and 
oversight on the purchase of books and other materials for the CVC gift 
shops.
                            human resources
    The Office of Human Resources was established in June 1995 by the 
Secretary of the Senate as a result of the Congressional Accountability 
Act. The office focuses on developing and implementing human resources 
policies, procedures, and programs for the Office of the Secretary of 
the Senate that fulfill the legal requirements of the workplace and 
complement the organization's strategic goals and values.
    These responsibilities include recruiting, staffing, and verifying 
eligibility to accept employment in the United States; providing 
guidance and advice to managers and staff; training; performance 
management and evaluation; job analysis and classification; 
compensation planning, design, and administration; leave 
administration; records management; maintaining the employee handbooks 
and manuals; internal grievance procedures; employee relations and 
services; and organizational planning and development.
    The Human Resources staff administers the following programs for 
the Secretary's employees: the public transportation subsidy program, 
student loan program, Family and Medical Leave Act program, parking 
allocations, and the Secretary's intern program.
Recruitment and Retention of Staff
    Human Resources has the ongoing task of advertising new vacancies 
or positions, screening applicants, interviewing candidates, and 
assisting with all phases of the hiring process. Human Resources staff 
coordinates with the Sergeant at Arms (SAA) Human Resources Department 
to post all SAA and Secretary vacancies on the Senate intranet, 
Webster, so that the larger Senate community may access the posting 
from their own offices. In an effort to reach a larger and more diverse 
applicant pool, the department uses multiple posting forums to reach 
potential applicants for employment. During the past fiscal year, the 
Human Resources Office processed more than 298 applications for 
vacancies in the Secretary's Office, including review of applications, 
coordinating scheduling of candidates for interviews, assisting 
departments in the interview process, conducting reference checks, 
making starting salary recommendations, and finalizing new hire 
paperwork.
    The application process is completed solely through an online 
application management system, designed by the Secretary's Office of 
Web Technology. The online application streamlines the application 
process, reduces paperwork, and allows both Human Resources and 
departmental supervisors to access applicant data on a secure network.
First Year Orientation and Integration
    All new hires receive orientation from Human Resources staff when 
they come on board. The office's Year One Program, a series of monthly 
events, visits, and tours geared for staff in their first year of 
employment, helps integrate new staff members into the Office of the 
Secretary, providing a full understanding of the role and mission of 
the office.
Training
    In conjunction with the Senate Chief Counsel for Employment, Office 
of Senate Security, and the Office of Education and Training, Human 
Resources staff continues to develop, deliver, and help facilitate 
training for department directors and staff. Training topics include 
continuity of operations and emergency planning, sexual harassment, 
interviewing skills, Family and Medical Leave Act administration, and 
an overview of the Congressional Accountability Act. Human Resources 
staff also works with different department directors on topics that can 
enhance harmony, productivity, and teamwork in the workplace.
Employee Performance Appraisal
    Human Resources has worked closely with the Executive Office and 
with department directors to evaluate and improve the appraisal 
process. In 2013, Secretary staff members were surveyed regarding the 
annual performance appraisal process, and a small working group of 
department directors will analyze the survey results and revise the 
appraisal tool as needed.
HR Intranet
    In 2013, working closely with the Office of Web Technology and 
Information Systems, the Human Resources Office launched an HR 
intranet, a convenient location for staff to access important links, 
forms, news about upcoming events and trainings, and documents such as 
the employee handbook.
Veterans Employment Opportunity Act of 1998
    In 2011, the rights and protections of the Veterans Employment 
Opportunity Act of 1998 (VEOA) became applicable to the Office of the 
Secretary of the Senate through the Congressional Accountability Act of 
1995. Eligible veterans now receive hiring preferences over nonveterans 
for most of the job openings in the Secretary's Office. Consistent with 
its obligations under the VEOA, the Secretary's Office has identified 
over 204 VEOA preference-eligible positions within its organization, 
has instituted a process for proper application of the veterans' 
preference law, and in 2013 invited preference-eligible veterans to 
apply for five job openings.
Interns
    Human Resources manages the Secretary's internship program. From 
posting vacancies; conducting needs analyses; and communicating, 
screening, placing, and following up with all interns, the staff keeps 
a close connection with these program participants in an effort to make 
the internship most beneficial to them and the organization.
Congressional Internship for Individuals with Intellectual Disabilities
    The Office of the Secretary of the Senate participated in the 
Congressional Internship Program for Individuals with Intellectual 
Disabilities. The internship program, which lasts 12 weeks, gives 
students with intellectual disabilities the same educational and 
enrichment opportunities typically afforded to congressional interns. 
Interns work one 2-hour session each week. The interns work with their 
congressional offices, as well as with job coaches specifically trained 
to assist the students, to complete various office tasks as assigned. 
In 2013, Human Resources successfully recruited two students from the 
program and will continue to be proactive in recruiting candidates.
Operation Warfighter
    Human Resources participated in two recruiting events sponsored by 
the Department of Defense's Operation Warfighter program. The unpaid 
internship program is open to all wounded and ill service members 
assigned to a Military Treatment Facility, an Army Warrior Transition 
Unit, the USMC Wounded Warrior Regiment, the Air Force Wounded Warrior 
Program, or the Navy Safe Harbor Program. The program positively 
impacts the recuperation process and provides meaningful activity 
outside of the hospital environment. In 2013, Human Resources 
successfully recruited one Wounded Warrior intern and will continue to 
be proactive in recruiting candidates.
Upward Bound Internship Program
    The Office of the Secretary of the Senate participates in the 
Upward Bound Internship program for low-income high school students, 
many of which are the first in their family to eventually attend 
college. The program is sponsored by a local university, and combines 
congressional, community, and Federal agency internships along with 
intensive history and literature seminars. This program's combination 
of practical experience and rigorous academic curriculum has produced 
wonderful results. For the past 4 years, 100 percent of the student 
participants have gone on to enroll in 4-year colleges. The Secretary's 
office hosted one Upward Bound student in 2013.
Combined Federal Campaign
    The office has again taken an active role in the Combined Federal 
Campaign for the Senate community at-large. The office serves as a co-
director of the program and participates in kick-off meetings, 
identifies key workers in each office, and disseminates and collects 
necessary information and paperwork.
                          information systems
    The staff of the Department of Information Systems provides 
technical hardware and software support for the Office of the Secretary 
of the Senate. Information Systems staff also interface closely with 
the application and network development groups within the Sergeant at 
Arms (SAA), the Government Printing Office (GPO), and outside vendors 
on technical issues and joint projects. The department provides 
computer-related support for all local area network (LAN) servers 
within the Office of the Secretary of the Senate. Information Systems 
staff provide direct application support for all software installed 
workstations, initiate and guide new technologies, and implement next 
generation hardware and software solutions.
Mission Evaluation
    The primary mission of the Information Systems Department is to 
continue to provide the highest level of customer satisfaction and 
computer support for the Office of the Secretary of the Senate. 
Emphasis is placed on creating and transferring legislative records to 
outside departments and agencies, fulfilling Disbursing Office 
financial responsibilities to the member offices, and complying with 
office-mandated and statutory obligations.
Fiscal Year 2013 Technology Initiative Summary
    The department technology initiatives are concentrated in four 
areas:
  --Improvements in workflow process efficiency and security
  --Deployment of improved hardware and software technologies
  --Business continuity planning and disaster recovery improvements
  --Network perimeter and end point security awareness
            Improvements in Workflow Process Efficiency and Security
  --Ongoing security awareness training continues to be mandatory for 
        all employees of the Secretary. In conjunction with SAA 
        Security Operation Center personnel, a series of training 
        seminars was completed in the fourth quarter of 2013 for all 
        Secretary staff.
  --The finalized implementation of Web-based legislative reporting 
        occurred in 2012. This project provided staff with a process to 
        run Legislative Information System (LIS) reports via a Web 
        browser session and send legislative data to the GPO. 
        Eliminating the need to install additional applications in the 
        Senate Library and other legislative departments enhanced the 
        application access to a wider audience in 2013. This also 
        streamlined the 2013 Library workstation hardware replacement 
        effort and considerably shortened the installation project 
        timeline.
  --New legislative applications were authored for the Executive Clerk, 
        Journal Clerk, and Daily Digest offices. These new software 
        applications facilitated the requirements needed to upgrade 
        these offices with improved hardware and updated operation 
        system software.
  --All accounts assigned to transmit GPO legislative files were 
        updated in 2013 with a strong password protection scheme. 
        Additionally, a more secure transfer method was adopted to send 
        or receive data from the GPO. Floppy diskette media normally 
        sent by courier will be retired in 2014 with an alternative 
        email method developed for file transfers.
            Deployment of Improved Hardware and Software Technologies
  --Completed a series of milestones of the Senate-wide ADMA projects 
        in October 2012 and finalized the migration of all offices, 
        including Disbursing and the Chief Counsel for Employment in 
        February 2013, to enterprise architecture. All office messaging 
        applications now operate at this enterprise level ensuring a 
        higher level of email and messaging availability.
  --Access to legislative server data, home, and shared directory 
        information is now available in the event that AC power is not 
        available in the Capitol.
  --Migrating to an enterprise environment in October 2012 allowed for 
        streamlining the process to retire three physical servers and 
        transfer Secretary of the Senate data files to a virtual server 
        infrastructure. This data migration completed in November 2013 
        denotes a significant milestone in COOP readiness. SAA 
        continues to maintain the readiness for disaster recovery by 
        performing backups of this virtualized environment and can 
        successfully provide failover capability to an alternate 
        facility. This failover exercise was successfully tested in 
        August 2013.
  --Installed new workstations and updated software applications.
  --To date, 21 new multi-function network devices have been installed 
        as replacements for office copiers and scanners. These devices 
        support network printing, office document scanning, and fax 
        capability. Choosing a multi-function device in lieu of a 
        separate purchase for an office copier and fax system has 
        yielded a cost savings of almost $45,000 so far.
  --Completed 14 major LIS software upgrades and installed updated 
        application software in all legislative clerk offices, the 
        alternate computing facility, and offsite home laptop 
        locations. Upgraded LIS applications to a more robust operating 
        system for workstations in the all legislative offices. 
        Completed the renovation of the applications in the offices of 
        the Daily Digest, Enrolling Clerk, Journal Clerk, and Executive 
        Clerk.
  --Completed the hardware upgrade of all Blackberry hardware devices 
        for assigned staff users (74 devices).
  --Implemented 43 Senate Information Lifecycle Management (ILM) email 
        accounts. This service provides an alternative solution to 
        larger mailboxes and electronic archival files by moving aged 
        messages from mailboxes to online archives that are available 
        through the standard Outlook client. Email archives are also 
        now available for ILM users when utilizing Outlook Web Mail. 
        Additionally, the ILM feature allows for improved performance 
        when failover procedures are required by system administrative 
        staff.
  --In conjunction with House technical staff, upgraded the Senate 
        Historical Office's Bioguide software application to facilitate 
        data exchanges with the House database servers. Updated the 
        Archivists Tool Kit software application for designated staff 
        and provided network connections to an SQL database for 
        Historical Office staff in May 2013. This was accomplished by 
        utilizing an existing database server instance which negated 
        purchasing new hardware and software. This cost savings is 
        estimated at $4,500. Retired the development Archivist Toolkit 
        virtual instance in December 2013.
  --The Stationery Room hardware and software upgrade commenced in 
        December 2013. This process required the replacement of all 
        workstation and server hardware. Information Systems staff and 
        Stationery technical staff combined technical efforts to reduce 
        on-site contracting hours. The office realized a reduction of 
        20 to 30 hours of vendor costs, an estimated $9,000 cost 
        savings.
  --Added a Human Resource Department Web server for all Secretary 
        staff access. Provided an additional network access storage 
        (NAS) Web server for the Office of Web Technology. This device 
        serves as a much lower cost hardware platform to test Web-based 
        applications designed for Senate offices.
  --Reduced the existing home directory file storage requirement by 30 
        percent in the last 6 months of 2013. Email archives presently 
        account for 34 percent of all home directory space. Extended 
        the capacity of the ``cold storage'' archival system which 
        realized a 50 percent increase in file server space in fiscal 
        year 2013. Utilizing a sound archival process ensures that 
        staff has access to current active server documents and that 
        overall system performance is optimized for failover operations 
        when needed.
            Business Continuity Planning and Disaster Recovery 
                    Improvements
  --Replaced and retired older offsite laptop hardware located for all 
        legislative departments. This hardware presents a unique 
        solution when office closures occur and ensures a higher level 
        of access when work is required away from the office.
  --Replaced older laptops used by department heads and key legislative 
        staff. Added an enhanced encrypted feature to safeguard against 
        accidental loss or theft. The enhancement prevents unauthorized 
        access to the contents of a hard drive. After the drive lock 
        protection is applied to a drive, a password must be entered to 
        access the drive and the drive can be accessed only when it is 
        inserted into the notebook.
  --In partnership with SAA Network Engineering, successfully completed 
        continuity of operations (COOP) testing from multiple offsite 
        locations. Information Systems staff continue to provide IT-
        related support for office staff implementing COOP and 
        continuity of Government business plan activations.
  --Enrolling Clerk staff retains the ability to print multiple types 
        of parchment style documents for delivery to the White House in 
        the event of an office closure or relocation. Partnered with 
        the GPO and House personnel to successfully stage and test this 
        offsite operation in 2013.
  --Continued to provide updates to the member accountability client 
        application. This normally occurs bimonthly or whenever there 
        is a change in the Senate membership. Four virtual hosts are 
        presently configured, one reserved specifically for training 
        purposes and one virtual ``always on'' instance that resides at 
        the primary computer facility datacenter. Information Systems 
        staff continue to make this virtual solution available for the 
        Secretary of the Majority and the Secretary of the Minority 
        offices.
  --Presently 70 percent of Secretary staff members have some method of 
        secure remote access to Senate network resources.
  --Information Systems staff continues to manage the Alerts 
        notification database for all Secretary staff. Database 
        information is verified nightly to ensure email, voice, and 
        BlackBerry personal identification number information is valid 
        and will function during an emergency.
  --Provided an improved and updated offsite COOP laptop solution for 
        the Office of Senate Security. This was accomplished without 
        any additional hardware or software expense to the office, 
        realizing a cost savings of $2,750.
            Network Perimeter and End Point Security Awareness
  --In partnership the SAA Security Operations Center, conducted 
        periodic testing for security vulnerabilities and compared 
        these measurements with the department patch deployment server. 
        Focused observations on spear phishing attempts from outside 
        messaging sources continued in 2013.
  --IT staff continue to monitor email spam filtering applications. 
        Email messages delivered to staff email accounts no longer 
        employed by the Secretary's Office are removed from the 
        messaging server. Maintaining software updates will continue to 
        be a challenge. IT staff continue to maintain the inventory and 
        respective updates of all applications for 300 workstation 
        installations. In December 2013, Microsoft released 11 
        bulletins for the final Patch Tuesday of the year. In 2013 
        Information Systems saw a total of 106 Microsoft bulletins, 
        which is an increase of 22 percent over 2012's total count.
  --Upgraded network connections at the offsite Emergency Operations 
        Center location. In addition to the onsite laptop hardware, an 
        additional nine workstations are now available for Secretary 
        staff at the ACF.
  --Upgraded to improved version of BlackBerry security scanning 
        software. IT staff continue to provide this scanning service 
        for staff prior to travel outside of the United States. 
        BlackBerry devices continue to be directly supported and 
        updated by the Information System staff. Additionally, the 
        office has the ability to suspend cellphone services for lost 
        or stolen blackberry devices during non-business hours.
    As a rule, the Secretary offices do not allow vendors or 
contractors to access Senate equipment without a physical or visual 
escort. The IT office worked with SAA to improve the Watson Unified 
Conference (WUC) process to accommodate a more secure access policy. 
WUC was leveraged to include the policy changes to accommodate ``secure 
attended'' access so staff could monitor the contractor or vendor who 
supplied the technical help in the office. Without this change, offices 
would have to rely on a less secure method of vendor interaction or 
purchase a non-Senate subscription for vendor support.
Ongoing and Future Projects in 2014
  --Senate Chief Counsel for Employment Server hardware/software 
        upgrade.
  --Migrate member status hardware server to enterprise network.
  --Evaluate and deploy zero client device or thin client technical 
        solution for Public Records patron systems.
  --Upgrade server hardware and workstation hardware in the Office of 
        Public Records and Gift Shop.
                      interparliamentary services
    The Office of Interparliamentary Services (IPS) is responsible for 
administrative, financial, and protocol functions for special 
delegations authorized by the majority and/or minority leaders, for all 
interparliamentary conferences in which the Senate participates by 
statute, and for interparliamentary conferences in which the Senate 
participates on an ad hoc basis. The office also provides appropriate 
assistance as requested by other Senate delegations.
    The statutory interparliamentary conferences include:
  --NATO Parliamentary Assembly
  --Mexico-United States Interparliamentary Group
  --Canada-United States Interparliamentary Group
  --British-American Interparliamentary Group
  --United States-Russia Interparliamentary Group
  --United States-China Interparliamentary Group
  --United States-Japan Interparliamentary Group
    In 2013, IPS staff was responsible for organizing the Mexico-U.S. 
Interparliamentary Group conference.
    As in previous years, all foreign travel authorized by the majority 
and minority leaders is arranged by IPS staff. In addition to 
delegation trips, IPS provided assistance to the President pro tempore, 
individual Senators, and staff traveling overseas. Senators and staff 
authorized by committees for foreign travel continue to call upon this 
office for assistance with passports, travel arrangements, and 
reporting requirements.
    On behalf of the Senate majority and minority leaders, the staff 
arranges official receptions for heads of state, heads of government, 
heads of parliaments, and parliamentary delegations. IPS maintains 
required records of expenditures on behalf of foreign dignitaries under 
authority of Public Law 100-71.
    IPS receives and prepares for printing the quarterly consolidated 
financial reports for foreign travel from all committees in the Senate. 
In addition to preparing the quarterly reports for the majority leader 
and the minority leader, IPS staff also assists staff members of 
Senators and committees in filling out the required reports.
    IPS organizes visits for official foreign visitors and assists them 
in setting up meetings with leadership offices. IPS maintains regular 
contact with the Department of Defense, the Department of State, and 
foreign Embassy officials. The staff works closely with other offices 
of the Secretary of the Senate and the Sergeant at Arms in arranging 
programs for foreign visitors. In addition, IPS is consulted by 
individual Senate offices on a broad range of protocol questions. 
Occasional questions come from state officials regarding congressional 
protocol.
Continuity of Operations (COOP) Planning
    IPS regularly reviews our COOP plan, updates materials kept off-
site, and evaluates evacuation procedures and remote site working 
procedures.
              legislative information system (lis) project
    The Legislative Information System (LIS) is a mandated system 
(section 8 of the 1997 Legislative Branch Appropriations Act, 2 U.S.C. 
123e) that provides desktop access to the content and status of 
legislative information and supporting documents. The 1997 Legislative 
Branch Appropriations Act also established a program (2 U.S.C. 181) for 
providing the widest possible exchange of information among legislative 
branch agencies. The long-range goal of the LIS Project is to provide a 
``comprehensive Senate Legislative Information System'' to capture, 
store, manage, and distribute Senate documents. Several components of 
the LIS have been implemented, and the project is currently focused on 
a Senate-wide implementation and transition to a standard system for 
the authoring and exchange of legislative documents that will greatly 
enhance the availability and re-use of legislative documents within the 
Senate and with other legislative branch agencies. The LIS Project 
Office manages the project.
Background: LIS Augmentation Project (LISAP)
    An April 1997 joint Senate and House report recommended 
establishment of a data standards program, and in December 2000, the 
Senate Committee on Rules and Administration and the House Committee on 
House Administration jointly accepted the Extensible Markup Language 
(XML) as the primary data standard to be used for the exchange of 
legislative documents and information. Following the implementation of 
the Legislative Information System (LIS) in January 2000, the LIS 
Project Office shifted its focus to the data standards program and 
established the LIS Augmentation Project (LISAP). The overarching goal 
of the LISAP is to provide a Senate-wide implementation and transition 
to XML for the authoring and exchange of legislative documents.
    The current focus for the LISAP is the continued development and 
implementation of the XML authoring system for legislative documents 
produced by the Office of the Senate Legislative Counsel (SLC); the 
Senate Enrolling Clerk; the Senate Committee on Appropriations; the 
Senate Committee on Commerce, Science, and Transportation; and the 
Government Printing Office (GPO). The XML authoring application, 
Legislative Editing in XML Application (LEXA), inserts tags during 
drafting that provide more information about the document and can be 
used for printing, searching, displaying, or repurposing parts or all 
of a document. The XML tags also facilitate automating many functions 
that provide a more efficient and consistent document authoring 
process. The LIS Project Office has worked very closely with the SLC, 
the Enrolling Clerk, and the editorial and printing staff of the 
Committee on Appropriations to create an application that meets the 
needs for legislative drafting.
LISAP: 2013
    The LIS Project Office continued to provide support to the SLC; the 
Committee on Appropriations; the Committee on Commerce, Science, and 
Transportation; and the Senate Enrolling Clerk in their use of LEXA for 
drafting, engrossing, and enrolling. With the addition of the Commerce 
Committee drafters, all measures in the first session of the 113th 
Congress were produced in XML. In addition, the GPO uses LEXA to 
complete measures for printing. Several new features and fixes were 
added in LEXA releases to improve the drafting process. LIS staff 
trained new drafters and interns in the use of LEXA.
    Enhancements to LEXA in the past year included additional table 
templates, improvements specific to Appropriations Committee drafters, 
and additional printing formats for the enrolling clerks to produce 
printed-as-passed bills.
    The LIS Project Office has been working with staff from the GPO and 
the Legislative Computer Systems (LCS) in the Office of the House Clerk 
to create and print committee reports in XML. This office released a 
LEXA committee report application to the Commerce Committee which 
already uses LEXA to draft bills and amendments. The committee drafters 
were able to create several sections of their committee reports using 
the application, and additional enhancements were subsequently added.
    Two other group projects with the GPO and LCS include participants 
from the Law Revision Counsel and the Senate and House Legislative 
Counsels. The first project with the Law Revision Counsel will result 
in applications to convert and maintain the U.S. Code in an XML format. 
The second project with the Legislative Counsels continues work toward 
the editing and printing of the compilations of existing law in their 
XML format.
    The LIS Project Office is also closely following the GPO's project 
to replace Microcomp with a new composition system that can directly 
ingest XML data without having to convert it to another format before 
printing.
Continuity of Operations (COOP) Planning
    Several procedures have been implemented to provide for COOP. All 
source code and data files are backed up nightly to a drive in the 
office, and each LIS Project Office staff member carries an encrypted 
flash drive containing the office COOP plan, documentation, and the 
most recent version of LEXA. All the software and documentation 
required to create the development environment and a LEXA end user 
environment are available in duplicate copies of the LIS Project Office 
fly-away kit. The COOP plan and the fly-away kits are updated 
frequently, and one fly-away kit is kept at an off-site location. 
Regular testing of the ability to work remotely is conducted via Senate 
laptops and personal computers to ensure that application development 
and user support can continue if access to the office is not possible.
LISAP: 2014
    The LIS Project Office will continue to support all Senate offices 
using LEXA and will continue to work with the House, GPO, and the 
Library of Congress on projects and issues that impact the legislative 
process and data standards for exchange. The office will continue to 
produce enhancements to LEXA and to seek out new technologies to 
improve the production of legislative documents.
                                library
    The Senate Library provides legislative, legal, business, and 
general information services to the United States Senate. The Library's 
collection encompasses legislative documents that date from the 
Continental Congress in 1774; current and historic executive and 
judicial branch materials; an extensive book collection on American 
politics, history, and biography; a popular collection of audiobooks; 
and a wide array of online resources. The Library also authors content 
for three Web sites--LIS.gov, Senate.gov, and Webster.
    Senate Information Services (SIS) program service contracts were 
renegotiated for fiscal year 2013 with existing program vendors to 
continue services while meeting stringent program budget constraints. 
Enterprise-wide access to the WestlawNext search platform was added and 
approval was secured to add 802 new local newspaper titles from Westlaw 
to the Senate NewsWatch site, expanding the scope of coverage for 
finding, tracking, and reading news or creating news clips using 1,157 
newspapers from all 50 States.
    The Library continues to meet the Senate's increasing demand for 
information through the creation of new Web-based content, judicious 
selection and investment in online resources, expanded outreach and 
training opportunities, and use of technology to support alternative 
means for information delivery.
Notable Achievements
  --Outreach and online research training efforts expanded to include 
        two new vendor-taught classes. A record number of 1,496 staff 
        members attended 288 classes, tours, and Webinars, a 4 percent 
        increase in the number of staff trained in 2012 despite the 
        cancellation of 15 classes during the Government shutdown.
  --The Library catalog now provides Senate staff with desktop access 
        to over 46,113 full-text electronic documents and online 
        resources, an increase of 9 percent over 2012. A 2-year 
        collaborative project to digitize the Library's collection of 
        congressional bills and resolutions from the 16th through the 
        72nd Congresses was completed. Full-text access to the 
        digitized material will be made available through the ProQuest 
        Congressional platform.
  --Senate Executive Calendars from 1990-1994 were digitized and will 
        be added to the archive that was expanded to include 1995 to 
        the present and is publicly available on Senate.gov through the 
        collaborative efforts of the Library, the Executive Clerk, the 
        Office of Web Technology, and the LIS Project Office.
  --Two new hallway informational displays were created in 2013: 
        Inauguration Day and U.S. Senate Library Services. In addition, 
        the informational display What Issues Has the United States 
        Senate Investigated?, installed outside SD-G50, was updated 
        with Quick Response (QR) codes to allow easy access to 
        supplementary information provided online.
Senate Library Inquiries, Online Book Requests, and Patron Accounts
    Reference librarians continue to assist Senate staff with 
challenging research in areas including legal and public records, 
legislative histories, and news and journal articles, and in finding 
answers to difficult and complex requests. This year librarians 
answered 23,018 walk-in, telephone, and email requests from Senate 
staff, demonstrating a continued demand for high-quality Library 
resources and services.
    Senate staff continued to demonstrate an increasing preference for 
Web-accessible resources. Use of Library-created resources on Webster 
saw 28,223 page visits in 2013. The Library's popular Virtual Reference 
Desk on Senate.gov received 2,267,372 page visits while appropriations 
and active legislation pages accounted for an additional 342,136 page 
visits from public users in 2013.
    The Senate Library's FrontPage electronic resources portal received 
16,005 page visits in its third year. Senate staff turned to SIS 
program support 90 times for help with accounts, resource access, and 
custom news profile requests. Program staff logged an additional 96 
requests with program vendors related to program site maintenance and 
support during 2013.
    The Library received 856 online book requests in 2013, a 7 percent 
decrease from the previous year. A total of 4,365 volumes were loaned 
in 2013, an increase of 4 percent. Titles featured in monthly online 
bibliographies on Webster and reference room displays saw a 25 percent 
increase in loan activity in 2013, reflecting focused outreach and 
promotion efforts.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Seventy-eight percent of the Library's patrons are Senate office 
and committee staff members while the remaining 22 percent of users 
include support office staff, members of the accredited press, and 
Government agencies.
    A total of 698 new patrons were registered for borrowing accounts 
in 2013, a decrease of 14 percent over the number of new staff 
registered in 2012. Although fewer permanent staff were registered for 
Library accounts, new accounts for interns increased by 11 percent.
    Other activities for 2013 included setting up 388 new computer 
accounts for our patron workstations, an 8 percent increase from 2012.

              INFORMATION SERVICE SUPPORT ACTIVITIES, 2013
------------------------------------------------------------------------
                      Category                              Total
------------------------------------------------------------------------
Circulation
    Document Deliveries............................                3,852
    Item Loans.....................................                4,365
Pages Printed
    Microform Pages Printed........................                  710
    Photocopies....................................               39,792
                                                    --------------------
      Document Delivery Total......................               48,719
------------------------------------------------------------------------

Senate Library Content Creation
            Senate.gov Web Site Content
    Two bibliographies, Resources on Elections and Politics (http://
www.senate.gov/
reference/resources/pdf/electionsp.pdf) and Resources on Congress 
(http://www.senate.gov/reference/resources/pdf/congress.pdf), were 
revised and updated to reflect newer sources and editions published and 
annotations were rewritten where necessary.
            Senate Executive Calendars
    A digital archive of Senate Executive Calendars, expanded to 
include material from 1995 to the present, was made available on 
Senate.gov and Webster as the result of a collaborative project 
involving the Library, the Executive Clerk, the Office of Web 
Technology, and the LIS Project Office. During 2013, Library staff and 
interns completed the retrospective digitization of calendars for the 
years 1990-1994; these files will be made available as part of the 
online public archive. Work will continue on the digitization of the 
remaining Executive Calendars in the Library's collection.
            Senate Information Services Program Content
    Senate NewsWatch, the Senate's custom news portal, was updated in 
January to include new Web pages and pre-set news searches for all new 
Senators of the 113th Congress. Similar updates were made to coincide 
with the swearings-in of all Senators elected or appointed to the 
Senate later in the year. During 2013, Senate users viewed 152,915 news 
articles on Senate NewsWatch, the Senate's custom news portal, and 
219,148 news articles using InfoViewer, the Senate's web-based news 
tracking and news clip publishing tool.
    In response to user feedback, the ``Newspapers'' page on Senate 
NewsWatch was updated to include more prominent thumbnail images of 
newspapers available in the NewspaperDirect PressDisplay database. 
Although several other significant enhancements to NewsWatch and 
InfoViewer were proposed in 2013, their implementation has been 
significantly delayed due to budget sequestration and the Government 
shutdown in October.
    In February 2013, the custom user interface (CUI) working group 
proposed more than 60 changes to the Senate's custom LexisNexis 
interface to enhance its features and improve usability that were 
implemented by LexisNexis in May. A second round of changes to the 
LexisNexis custom layout, functionality, and account registration 
features were proposed in December to facilitate the Senate's 
implementation of Lexis Advance product offering in 2014.
    The Library coordinated the launch of the new WestlawNext search 
platform as an upgrade to the Senate's existing Westlaw research 
services that adds new features for customization, saving research, and 
searching across multiple content sources simultaneously. As part of 
that process the Library's CUI working group proposed changes to the 
organization, layout, text, and account registration features of the 
Senate's Westlaw custom user interface which were implemented along 
with the launch in July.
    There were 2,802 searches and 1,754 documents viewed using the 
Serials Solution A-Z list, 37 percent of which were the result of users 
finding and using SIS program content from LexisNexis, ProQuest, and 
Westlaw.
            Library Web Site Working Groups
    An external website working group with membership from all the 
Library's teams was formed in February to review the Library's web 
presence and to find ways to improve the presentation of information, 
usability, and streamline the maintenance of the Senate Library's Web 
pages. The group researched best practices for Web design and 
usability, using principles to categorize the strengths and weaknesses 
of current web pages; ranked the most common and important research 
tasks performed by users of Library websites and created testing 
personas representative of typical Senate Library Web site users; 
inventoried the more than 600 pages for which the Library currently 
maintains content; and drafted goals for the Library Web presence. At 
the close of 2013, the group had begun to identify potential Web site 
improvements and plan for outcome-based Web usability testing; these 
efforts will form the foundation for significant enhancement of the 
Library's future Web presence.
            Senate Knowledge Base
    The Senate Knowledge Base is an institutional repository of data to 
support the Webster site taxonomy project and Webster search 
enhancement. To date, 1,399 document records, 2,386 term records, and 
516 organization records in the Senate Knowledge Base are supporting 
the Webster taxonomy and search projects. The 14 percent increase in 
the number of terms and 12 percent increase in the number of documents 
created this year is a result of the addition of descriptive records 
for ``Dear Colleague'' letters and continuing maintenance of the 
database to support the online Senate Services Directory (Red Book); 
the ``Legislative,'' ``News and Research,'' and ``About the Senate'' 
tabs on Webster; as well as daily reporting for keymatches.
    Descriptive metadata was created for each of the 111 ``Dear 
Colleague'' letters distributed via email during 2012 using records 
modified to capture specific data elements in the Senate Knowledge 
Base. The resulting XML data file was reviewed by the Office of Web 
Technology and additional recommendations made to improve the title and 
search result display. In the coming year, the pilot project will be 
expanded to include letters issued since 2012. Requested by the Senate 
Committee on Rules and Administration, the work will form the basis for 
the development of a searchable internal online archive of Senate 
electronic ``Dear Colleague'' letters beginning with the 112th 
Congress.
            Webster Search Enhancement
    Librarians improve Webster search results by analyzing popular 
search terms and matching them with topically relevant pages or search 
engine ``keymatches'' (which are managed through the Senate Knowledge 
Base). This improves the chances a searcher will find what he or she is 
looking for on Webster. During 2013, 115 ``keymatches'' were 
established, 50 were edited, and 25 were deleted to update Web page 
links.
Instruction and Outreach Programs
    Senate librarians teach a variety of classes for Senate staff. In 
2013, a record 1,496 Senate staff attended the 288 research training 
classes, Library tours, and Webinars offered by the Senate Library. 
Total attendance increased by 4 percent over last year despite a 
Government shutdown in October that forced the cancellation of 15 
scheduled classes. All training-related pages on the Library's site 
received 1,877 visits from Senate staff.
    Among the 645 staffers who attended the Library's 134 in-person 
class sessions, 372 completed class evaluation survey forms, offering 
overwhelmingly positive feedback about class content and instruction. 
In an analysis of the results, 98 percent of the respondents 
characterized Library classes as either ``useful'' or ``highly useful'' 
and 99 percent of the respondents described Library instructors as 
either ``effective'' or ``highly effective.'' Librarians also offered 
74 tours of the Library to 541 staff and other interested groups 
including the Senate Page School, Government document librarians, and 
Government Printing Office (GPO) staff.
    Webinars continue to be a popular option, reaching 310 Senate 
staff, including many in State offices, in 91 class sessions. Webinar 
registration procedures were modified to streamline processes, 
incorporate new hosting requirements, and take advantage of new 
functionality. As an example, the Library hosted a webinar co-taught by 
an offsite vendor trainer for the first time in December. Enhanced 
offsite vendor training capabilities will provide needed flexibility 
for vendor trainers and library staff when hosting these sessions in 
the coming year.
    ProQuest Congressional training classes, offered monthly since 
January, drew 32 Senate staff members. A single PressDisplay class was 
offered for the first time in May for three attendees; this training 
will be held on a quarterly basis in 2014. The Library also 
experimented with a new targeted focus for CQ training: ``CQ for 
Legislative Staff'' offered in March and ``CQ for Press and 
Communications Staff'' offered in January and May. In total, 337 Senate 
staff members attended vendor-taught Library course offerings in 2013, 
an increase of 14 percent over 2012.
    Using the Legislative Information System (LIS) was taught to 14 
participants as part of the Legislative Survival Guide training series 
in collaboration with the Joint Office of Education and Training in 
July. Librarians answered questions and provided information about 
research services and training to 90 participants in the Senate 
Services Fair in May and to attendees at the CRS District State Staff 
Institutes held on March 5 and October 28, 2013.
    In November, new employees of the Office of the Secretary of the 
Senate were introduced to the services of the Senate Library as part of 
the new ``Year One'' program designed to familiarize new staff with the 
different offices under the jurisdiction of the Secretary and sponsored 
by the Secretary's Human Resources Department.
    A total of 31 announcements for Library services, Senate Historical 
Office talks, and three featured book talks were run on Webster and 
1,756 promotional flyers were distributed to Senate staff during 2013.
    Monthly book displays and online bibliographies highlight the 
Library's collections and stimulate interest in reading new titles. To 
support this effort, 15 bibliographies were created, revised, or 
updated this year, including: The American Guide Series; Celebrate 
National Book Month: Read an Award Winner; The Capitol and the Capital 
City; The Emancipation Proclamation; Escape Into A Good Book: August 
2013; Great Reads for New Staff and Interns; John F. Kennedy: A Look 
Back; Library of America: Selections from the Best of American Writing; 
Resources on Elections and Politics; Resources on Congress; United 
States Senate History and Practice: A Selected Bibliography; Watergate 
at 40; Women in Congress: A Bibliography; and Women in the United 
States Military. All online bibliographies saw 11,239 page visits from 
Senate staff and the public in 2013.
Collection Development
            Audiobooks
    The Library acquired 25 new audiobook titles in 2013, bringing the 
total number to 214 titles. Designed to assist users with diverse 
needs, including those who may be visually challenged, as well as to 
draw patrons into the Library, the program remains popular with patrons 
whose 634 loans were equivalent to circulating each item in the 
collection almost three times over. The online bibliography of 
audiobooks on Webster received 447 visits from Senate staff in 2013 and 
contains links to the catalog and the online book request form.
            Government Documents
    As a participant in the GPO's Federal Depository Library Program 
(FDLP), the Library receives selected categories of legislative, 
executive, and judicial branch publications. Distribution of documents 
on microfiche through the FDLP is limited to congressional documents 
and is down by 83 percent due in large part to distribution problems 
with a single supplier. The Library received 8,577 Government 
publications in 2013. In response to the trend of issuing Government 
documents in electronic format, 1,787 links were added to the Library 
catalog, bringing the total number to 46,113, an increase of 9 percent 
over last year. The links provide Senate staff desktop access to the 
full text of each document.

                           ACQUISITIONS, 2013
------------------------------------------------------------------------
                      Category                              Total
------------------------------------------------------------------------
Congressional Documents............................                6,943
Executive and Judicial Branch Publications.........                1,634
Books (including audiobooks and e-books)...........                  856
Electronic Links...................................                1,787
                                                    --------------------
      Total Acquisitions...........................               11,220
------------------------------------------------------------------------

Legislative Validation
    The Library's Legislative Validation Clerk verifies and edits the 
accuracy and consistency of data and legislative information published 
by Secretary of the Senate staff in the Legislative Information System 
(LIS), the document management system (DMS), the Congressional Record, 
Senate.gov, and Webster. The clerk's work also requires the 
verification of selected Congressional Record Index entries (print and 
electronic) and includes comparing electronic entries made by 
legislative staff or data entry clerks from various agencies with the 
printed Congressional Record Index and notifying the offices of 
discrepancies.
    Between January and December 2013, the Legislative Validation Clerk 
submitted 154 corrections out of hundreds of thousands of verified 
legislative actions that took place during the year.

             LEGISLATIVE VALIDATION CLERK CORRECTIONS, 2013
------------------------------------------------------------------------
                       Office                            # Submitted
------------------------------------------------------------------------
Bill, Enrolling, Executive, Journal, and                              45
 Legislative Clerks................................
Reporters of Debates, Morning Business Editor, and                    80
 Daily Digest......................................
GPO and Library of Congress_LIS....................                   29
                                                    --------------------
      Total Corrections............................                  154
------------------------------------------------------------------------

Cataloging
    The Library's productive cataloging staff draws on years of 
experience to produce and maintain a catalog of more than 224,000 
bibliographic items. During 2013, they added 3,446 new titles to the 
catalog and performed 27,983 record maintenance and enhancement 
activities, including correcting subjects and names that have become 
obsolete and retrospectively adding links to full-text content and book 
jacket images to existing records.
    Catalogers' time and skills at categorizing and describing content 
are increasingly in demand for taxonomy-related projects designed to 
enhance Webster. These include creating the records that drive 
functionality in the online Senate Services Directory, analyzing logs 
of unsuccessful searches to create ``keymatches'' that target Webster 
search results, providing descriptive metadata for an internal online 
archive of Senate electronic ``Dear Colleague'' letters, and developing 
a topical framework to support the development of news alerts, improve 
content organization, and enhance the effectiveness of searches in 
Senate NewsWatch and the InfoViewer client.
    Catalogers created 570 bibliographic records for Senate hearings 
not yet printed using information in the Congressional Record Daily 
Digest and the combined hearings schedule on Webster. This includes 
field hearings that are not listed in the Daily Digest. These records 
provide preliminary access for Senate staff and remain in the catalog 
until the printed hearing is received and cataloged.
    The catalog is updated nightly to ensure that Senate staff will 
retrieve accurate and current information on Library holdings. The 
addition of 535 book jacket images in 2013 enhanced the catalog's 
visual appeal. The Library catalog was used by 3,503 Senate staff 
accounting for 4,970 visits in 2013.
Preservation, Binding, and Collection Maintenance
    Technical Services staff continued to participate in book repair 
training sessions led by the director of the Office of Conservation and 
Preservation. Trainees repaired 331 volumes, an increase of 3 percent 
from 2012, making significant progress in the preservation of the 
Library's bound book collection. A multi-year project to repair volumes 
in the Congressional Record circulating collection was completed, a 
preservation survey to identify volumes in the U.S. Congressional 
Serial Set circulating collection in need of repair was begun, and a 
project to assemble a third copy of the Serial Set in the Library's 
offsite storage facility was begun.
    The Library continues to preserve and protect rare and fragile 
print materials in its collections using commercial binding services 
procured through the GPO. In 2013, a total of 664 volumes were sent out 
for binding, an increase of 118 percent from the previous year, with 
excellent results.
Budget
    Budget negotiations with database vendors resulted in flat or 
reduced pricing for some online research services and price discounts 
for print edition standing orders and multi-year subscriptions. Budget 
savings from fixed-price contracts for the Library's 2013 online 
research services, negotiated print edition price discounts and cuts in 
standing orders, and multi-year subscription discounts totaled $15,319. 
After 15 years of budget monitoring, savings total $178,924. This 
continual review of purchases eliminates materials not meeting the 
Senate's current information needs. This oversight is also critical in 
containing and offsetting cost increases for core materials, in meeting 
sequestration budget requirements, and for acquiring new materials with 
reduced funding levels.
Special Projects
            Unum, Newsletter of the Office of the Secretary of the 
                    Senate
    Unum, the Secretary's quarterly newsletter, has been produced by 
Senate Library staff since October 1997 and is distributed throughout 
the Senate and to former Senators. It serves as an historical record of 
accomplishments, events, and personnel news in the Office of the 
Secretary of the Senate. Highlights from the 2013 Unum issues include a 
look at the ``Senate on the silver screen''--movies that focus on the 
Senate, an article that was prompted by the release of the movie 
Lincoln, as well as articles on how factual the Lincoln movie was and 
the Senate action that was left out of the Lincoln movie; articles on 
the 40th anniversary of Watergate; a feature on the new Year One 
orientation program for recently hired Secretary employees; a piece by 
Senate Archivist Karen Paul on the Advisory Committee on the Records of 
Congress; an article by a Senate page about her experience working 
through a vote-a-rama; an article about a gallery pass with a mystery 
Senate signature; and the continuation of the ``Senate Voices'' series 
prepared by Senate Historian Don Ritchie that contains excerpts of oral 
histories of former staffers and Senators. A new feature was 
introduced, called Artifacts and Oddities from the Senate Collection, 
which showcases some of the more unusual objects in the Senate's art 
and historical collections.
            National Library Week
    Guy Gugliotta, author of Freedom's Cap: The United States Capitol 
and the Coming of the Civil War, was the featured speaker at the 
Library's 15th annual book talk in honor of National Library Week. This 
year 80 people attended the talk. The Library also hosted the popular 
annual dessert reception which drew in over 135 Senate staff.
    This year the Library also sponsored three other popular book 
talks. Senate Historian Emeritus Richard A. Baker spoke about his new 
book, The American Senate, coauthored by Neil MacNeil, before a crowd 
of 115 in the Capitol Visitor Center. Author John T. Shaw drew an 
audience of 100 for the discussion of his book JFK in the Senate: 
Pathway to the Presidency. James Swanson drew 95 participants speaking 
about his book End of Days: The Assassination of President Kennedy.
            Unpublished Senate Hearings on Microfiche
    A project to improve access to the Library's collection of 
unpublished Senate hearings on microfiche (18th-98th Congresses) was 
continued, resulting in the cataloging of 250 hearings in 2013. Each 
catalog record was assigned a full array of name and subject headings 
and enhanced with a link to the full-text version of the hearing in 
ProQuest. A note summarizing the subject of the hearing was provided to 
facilitate access via keyword searching and to impart useful 
information not conveyed by the generic titles often used in these 
hearings.
Display Cases
    Hallway display cases continue to educate staff and visitors alike 
while highlighting the Library's collections. Display cases featured 
this year include: Inauguration Day and U.S. Senate Library Services. 
In addition, one of the informational displays installed outside SD-
G50, What Issues Has the United States Senate Investigated?, was 
updated with QR codes to allow easy access to supplementary information 
provided online. The Dirksen exhibit and its subsequent enhancements 
were developed through the joint efforts of the Library, the Office of 
Senate Curator, the Historical Office, and the Office of Conservation 
and Preservation.
Cooperative Projects
    Hearing Universal Resource Locator (URL) data from the Library 
catalog is exported weekly to provide LIS and THOMAS, now 
Beta.Congress.gov, with full-text links to Senate hearings. Visitors to 
the Library of Congress' THOMAS site were redirected to the new 
Beta.Congress.gov site in November. The Library contributed 1,796 new 
Senate hearing links to the LIS database during 2013.
Major Library Goals for 2014
  --Continue team evaluation and enhancement of instructional course 
        offerings, review available applications to create online 
        course offerings, and expand Web-based training opportunities 
        to reach State staff.
  --Continue to expand the online historical archive of the Senate 
        Executive Calendars on Senate.gov, in collaboration with the 
        Executive Clerk and the Office of Web Technology, by digitizing 
        calendars from the Library's collection.
  --Enhance the Library's external Web presence through continued team 
        development efforts identifying potential Web site 
        improvements, planning for outcome-based web usability testing, 
        review, and evaluation of options.
  --Continue the development of an internal searchable online archive 
        of Senate electronic ``Dear Colleague'' letters beginning with 
        the second session of the 112th Congress though the creation of 
        descriptive metadata about the documents distributed via email 
        using the Senate knowledge base.
  --Continue the collaborative development of a topical framework for 
        Senate NewsWatch to support the development of news alerts, 
        improve content organization, and enhance the effectiveness of 
        searches in Senate NewsWatch and the InfoViewer client.
  --Continue collaborative development of an organizational framework 
        and basic content set for a Library staff Web site that will 
        support the internal work requirements and information needs of 
        all Library staff members.
  --Begin implementation of new cataloging rules, called Resource 
        Description and Access (RDA), in conjunction with the Library 
        of Congress and other libraries worldwide.
  --Continue to improve access to the Library's collection of 
        unpublished Senate hearings on microfiche by adding item-level 
        records to the catalog with links to full-text content.

                                             SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2013--ACQUISITIONS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                           Books          Government            Congressional Publications
                                                                   -------------------     Documents    ----------------------------------------
                                                                                      ------------------                              Reports/    Total
                                                                    Ordered  Received   Paper    Fiche   Hearings   Prints   Bylaw      Docs
--------------------------------------------------------------------------------------------------------------------------------------------------------
January...........................................................       18       146       76       70       289       24      124         271    1,000
February..........................................................       35        81      148       73       308       11       80          60      761
March.............................................................       17        50       65       21       185       32      134         123      610
                                                                   -------------------------------------------------------------------------------------
      1st Quarter.................................................       70       277      289      164       782       67      338         454    2,371
                                                                   =====================================================================================
April.............................................................       23        90      312        4       392       37      107         250    1,192
May...............................................................       15        59      113        2       307       29      134         188      832
June..............................................................       27        93       39        0       228       11      100         237      708
                                                                   -------------------------------------------------------------------------------------
      2nd Quarter.................................................       65       242      464        6       927       77      341         675    2,732
                                                                   =====================================================================================
July..............................................................       20        58       74      126       303        3       86         397    1,047
August............................................................       24        41       88        2       236        2       23         185      577
September.........................................................      102        35       72      123       308       13       83         292      926
                                                                   -------------------------------------------------------------------------------------
      3rd Quarter.................................................      146       134      234      251       847       18      192         874    2,550
                                                                   =====================================================================================
October...........................................................        8       142       64        2       107        4      158         107      584
November..........................................................       31        28       47       66       136        4       60         202      543
December..........................................................       13        33       47        0       269        5       70         229      653
                                                                   -------------------------------------------------------------------------------------
      4th Quarter.................................................       52       203      158       68       512       13      288         538    1,780
                                                                   =====================================================================================
2013 Total........................................................      333       856    1,145      489     3,068      175    1,159       2,541    9,433
                                                                   =====================================================================================
2012 Total........................................................      276       689    1,130      484     3,297      101    1,082       2,440    9,223
                                                                   =====================================================================================
Percent Change....................................................       21        24        1        1        -7       73        7           4        2
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                              SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2013--CATALOGING
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                         Bibliographic Records Cataloged
                                                             S.   ----------------------------------------------------------------------------
                                                          Hearing        Books           Government Documents      Congressional Publications    Total
                                                          Numbers ----------------------------------------------------------------------------  Records
                                                           Added                                                                       Docs./  Cataloged
                                                           to LIS   Paper    Audio/   Paper    Fiche   Electronic  Hearings   Prints   Pubs./
                                                                            E-books                                                   Reports
--------------------------------------------------------------------------------------------------------------------------------------------------------
January.................................................       31      102        4        1        0         17        381        4       97       606
February................................................       55       49        4        3        0          6         96        3       69       230
March...................................................       37       37        2        6        0          8         39        0       27       119
                                                         -----------------------------------------------------------------------------------------------
    1st Quarter.........................................      123      188       10       10        0         31        516        7      193       955
                                                         ===============================================================================================
April...................................................       17       33        6        1        0          7        200       38       69       354
May.....................................................        5       28        7        1        1         41        224        0       62       364
June....................................................       57       11        1        2        0          6         28        0       67       115
                                                         -----------------------------------------------------------------------------------------------
    2nd Quarter.........................................       79       72       14        4        1         54        452       38      198       833
                                                         ===============================================================================================
July....................................................       11       26        3        1        0         12         96        0       39       177
August..................................................       25       13        1        7        0         10        194        5       97       327
September...............................................       14       50        3        3        0          8        162        3       59       288
                                                         -----------------------------------------------------------------------------------------------
    3rd Quarter.........................................       50       89        7       11        0         30        452        8      195       792
                                                         ===============================================================================================
October.................................................      102       41        3        4        0          3         49        0       22       122
November................................................       37       67        3        4        0         11        240        0       41       366
December................................................       48       22        3        7        0          2        314        1       29       378
                                                         -----------------------------------------------------------------------------------------------
    4th Quarter.........................................      187      130        9       15        0         16        603        1       92       866
                                                         ===============================================================================================
2013 Total..............................................      439      479       40       40        1        131      2,023       54      678     3,446
                                                         ===============================================================================================
2012 Total..............................................      470      296       18       50        6        125      2,012      204      769     3,480
                                                         ===============================================================================================
Percent Change..........................................       -7       62      122      -20      -83        4.8       0.55      -74      -12     -0.98
--------------------------------------------------------------------------------------------------------------------------------------------------------


                       SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2013--DOCUMENT DELIVERY
----------------------------------------------------------------------------------------------------------------
                                                                                     Micrographics
                                                                                         Center     Photocopiers
                                                   Volumes    Materials  Facsimiles ----------------------------
                                                   Loaned     Delivered                                 Pages
                                                                                     Pages Printed     Printed
----------------------------------------------------------------------------------------------------------------
January........................................         479         424          13            17          4,146
February.......................................         371         273          13            76          4,837
March..........................................         368         287          13           135          3,831
                                                ----------------------------------------------------------------
      1st Quarter..............................       1,218         984          39           228         12,814
                                                ================================================================
April..........................................         403         512          27            33          2,599
May............................................         486         332          14            55          5,158
June...........................................         485         315          20            46          2,817
                                                ----------------------------------------------------------------
      2nd Quarter..............................       1,374       1,159          61           134         10,574
                                                ================================================================
July...........................................         476         354          23            35          2,562
August.........................................         393         252          24           115          2,767
September......................................         291         338          11            13          3,564
                                                ----------------------------------------------------------------
      3rd Quarter..............................       1,160         944          58           163          8,893
                                                ================================================================
October........................................         211         244          13           152          1,993
November.......................................         220         262          32            33          3,110
December.......................................         182         259          36             0          2,408
                                                ----------------------------------------------------------------
      4th Quarter..............................         613         765          81           185          7,511
                                                ================================================================
2013 Total.....................................       4,365       3,852         239           710         39,792
                                                ================================================================
2012 Total.....................................       4,207       4,441         156           975         56,415
                                                ================================================================
Percent Change.................................           4         -13          53           -27            -30
----------------------------------------------------------------------------------------------------------------

                              page school
    The United States Senate Page School exists to provide a smooth 
transition from and to the students' home schools, providing those 
students with as sound a program, both academically and experientially, 
as possible during their stay in the Nation's Capital, within the 
limits of the constraints imposed by the work situation.
Summary of Accomplishments
  --In 2013 the Middle States Commission on Secondary Schools awarded 
        accreditation renewal which continues until May 1, 2018. The 
        Page School is among schools throughout the world that meet the 
        internationally recognized Middle States Standards for 
        Accreditation.
  --Two page classes successfully completed their semester curriculum. 
        Closing ceremonies were conducted on June 7, 2013 and January 
        24, 2014, the last day of school for each semester.
  --Orientation and course scheduling for the spring 2013 and fall 2013 
        pages were successfully completed. Needs of incoming students 
        determined the semester schedules.
  --Faculty administered English usage pre- and post-tests to students 
        each semester and reviewed the results to determine what usage 
        instruction or remediation was needed.
  --Faculty administered calculator usage pre- and post-tests to 
        students each semester to determine what instruction or 
        remediation was needed.
  --Staff provided a general study skills tutorial to all students, and 
        students identified in need of training in specific areas took 
        part in study skills sessions.
  --Faculty and staff provided extended educational experiences to 
        pages, including 19 field trips, two guest speakers, 
        opportunities to play musical instruments and vocalize, and 
        world languages study. A panel of former pages also provided 
        information and answered current pages' questions. Summer pages 
        made eight field trips to educational sites and heard from two 
        guest speakers. Additionally, the Page School hosted visits for 
        current and former employees who have given service to the Page 
        School.
  --Nineteen pages took 35 Advanced Placement (AP) exams in nine 
        subjects.
  --The community service project embraced by pages and staff in 2002 
        continues. Pages collected, assembled, and shipped items for 
        gift packages to military personnel serving in various 
        locations. Pages included letters of support to the troops.
  --All Page School staff attended continuing education and training 
        classes.
  --Communication among Sergeant at Arms, Secretary of the Senate, 
        party secretaries, the Page Program, and the Page School is 
        ongoing.
  --To update teaching efficiency, the school purchased a conductivity 
        probe for chemistry and modern visual technology aids for 
        social studies presentations by the instructor and students.
  --Cost savings are realized as the school no longer distributes daily 
        schedules; instead, teachers have preprinted schedules for the 
        various possibilities. The Page School staff also make good use 
        of the recycling center and have picked up binders, writing 
        utensils, and print cartridges.
Continuity of Operations (COOP) Planning
    The evacuation and continuity of operations (COOP) plan was updated 
in the Living Disaster Recovery Planning System (LDRPS). Back-ups of 
the office's electronic records are made for off-site storage and 
regular updating of staff members' contact information for the ALERTS 
system are made. Pages and staff continue to participate in evacuating 
to primary and secondary sites. Pages also participated in escape hood 
training. Additionally, remote laptop access procedures are reviewed 
and practiced, as well as participation in emergency notification 
tests. The Pandemic Essential Functions Staffing Plan was also 
completed and provided to Human Resources and Senate Security.
Summary of Plans
    Our goals include:
  --Individualized small group instruction and tutoring by teachers on 
        an as-needed basis will continue to be offered, as well as 
        optional academic support for students preparing to take AP 
        tests.
  --Language tutors will provide assistance to students.
  --The focus of field trips will be sites of historic, political, and 
        scientific importance which complement the curriculum.
  --English usage pre- and post-tests will continue to be administered 
        to students each semester to assist faculty in determining 
        needs of students for usage instruction. Calculator usage pre- 
        and post-tests will be administered to students each semester 
        to assist faculty in determining calculator use in both math 
        and science courses.
  --Staff development options include attendance at seminars conducted 
        by the Joint Office of Education and Training and subject 
        matter and/or educational issue conferences conducted by 
        national organizations.
  --The community service project will continue.
  --Work to maintain accreditation will continue.
                     printing and document services
    The Office of Printing and Document Services (OPDS) serves as 
liaison to the Government Printing Office (GPO) for the Senate's 
official printing, ensuring that all Senate printing is in compliance 
with Title 44, U.S. Code as it relates to Senate documents, hearings, 
committee prints, and other official publications. The office assists 
the Senate by coordinating, scheduling, delivering, and preparing 
Senate legislation, hearings, documents, committee prints, and 
miscellaneous publications for printing, and provides printed copies of 
all legislation and public laws to the Senate and the public. In 
addition, the office assigns publication numbers to all hearings, 
committee prints, documents, and other publications; orders all blank 
paper, envelopes, and letterhead for the Senate; and prepares page 
counts of all Senate hearings in order to compensate commercial 
reporting companies for the preparation of hearings.
Printing Services
    During fiscal year 2013, the OPDS prepared 3,150 requisitions 
authorizing the GPO to print and bind the Senate's work, exclusive of 
legislation and the Congressional Record. This number represents a 10 
percent increase in the number of orders over the previous year. Since 
the requisitioning done by the OPDS is central to the Senate's 
printing, the office is uniquely suited to perform invoice and bid 
reviewing responsibilities for Senate printing. As a result of its cost 
accounting duties, OPDS is able to review and ensure accurate GPO 
invoicing as well as play an active role in helping to provide the best 
possible bidding scenario for Senate publications.
    In addition to processing requisitions, the Printing Services 
Section coordinates proof handling, job scheduling, and tracking for 
stationery products, Senate hearings, Senate publications and other 
miscellaneous printed products, as well as monitoring blank paper and 
stationery quotas for each Senate office and committee. OPDS also 
coordinates a number of publications for other Senate offices, such as 
the Curator, Historian, Disbursing, Legislative Clerk and Senate 
Library, as well as the U.S. Botanic Garden, U.S. Capitol Police, 
Architect of the Capitol and the U.S. Capitol Visitor Center. These 
tasks include providing guidance for design, paper selection, print 
specifications, monitoring print quality, and distribution.
            Hearing Billing Verification
    Senate committees often use outside reporting companies to 
transcribe their hearings, both in-house and in the field. OPDS 
processes billing verifications for these transcription services, 
ensuring that costs billed to the Senate are accurate. OPDS utilizes a 
program developed in conjunction with the Sergeant at Arms Computer 
Division that provides more billing accuracy and greater information-
gathering capacity, and adheres to the guidelines established by the 
Senate Committee on Rules and Administration for commercial reporting 
companies to bill the Senate for transcription services. During 2013, 
OPDS provided commercial reporting companies and corresponding Senate 
committees a total of 794 billing verifications of Senate hearings and 
business meetings. Over 54,000 transcribed pages were processed at a 
total billing cost of $483,980, an increase of 35 percent over the 
previous year.
    During 2013, the office processed all file transfers and billing 
verifications between committees and reporting companies 
electronically, ensuring efficiency and accuracy. Department staff 
continues training to apply today's expanding digital technology to 
improve performance and services.
            Secretary of the Senate Service Center
    The Service Center within OPDS is staffed by experienced GPO 
detailees who provide Senate committees and the Office of the Secretary 
of the Senate with complete publishing services for hearings, committee 
prints, and the preparation of the Congressional Record. These services 
include keyboarding, proofreading, scanning, and composition. The 
Service Center provides the best management of funds available through 
the congressional printing and binding appropriation because committees 
have been able to decrease, or eliminate, additional overtime costs 
associated with the preparation of hearings. Additionally, the Service 
Center provides work for GPO detailees assigned to legislative offices 
during Senate recesses.
Document Services
    The Document Services Section coordinates requests for printed 
legislation and miscellaneous publications with other departments 
within the Secretary's Office, Senate committees, and GPO. This section 
ensures that the most current version of all material is available, and 
that sufficient quantities are available to meet projected demands. The 
Congressional Record, a printed record of Senate and House floor 
proceedings, Extension of Remarks, Daily Digest, and miscellaneous 
pages, is one of the many printed documents provided by the office on a 
daily basis. In addition to the Congressional Record, the office 
processed and distributed over 8,050 distinct legislative items during 
the first session of the 113th Congress, including Senate and House 
bills, resolutions, committee and conference reports, executive 
reports, treaty documents, and public laws.
    The demand for online access to legislative information continues 
to be strong. Before Senate legislation can be posted online, it must 
be received in the Senate through OPDS. Improved database reports allow 
the office to report receipt of all bills and resolutions received in 
the Senate which can then be made available online and accessed by 
other Web sites, such as LIS, FDsys and THOMAS.
            Customer Service
    The primary responsibility of OPDS is to provide services to the 
Senate. The office provides the same high level of customer service to 
the general public, the press, and other Government agencies as it does 
to the Senate. During 2013, over 10,000 requests for legislative 
material were received at the walk-in counter, through the mail, by 
fax, and electronically. Online ordering of legislative documents and 
the Legislative Hot List link, where members and staff can confirm 
arrival of printed copies of the most sought-after legislative 
documents, continued to be popular. The site is updated several times 
daily each time new documents arrive from GPO to the Document Room. In 
addition, the office handled thousands of phone calls pertaining to the 
Senate's official printing, document requests, and legislative 
questions. The office stresses prompt, courteous customer service while 
providing accurate answers to requests from Senate offices and the 
public.
            On-Demand Publication
    The office supplements depleted legislation when needed by 
producing additional copies in the DocuTech Service Center, staffed by 
experienced GPO detailees who provide Senate offices with on-demand 
printing and binding of bills, reports, and other legislation. On-
demand publication allows the department to cut the quantities of 
documents printed directly from GPO, reducing waste. OPDS anticipates 
that the need for on-demand printing will continue to increase over the 
next year. The office produced 843 on-demand jobs during 2013, an 
increase of 47 percent over the previous year. Documents were produced 
on-demand for Senate committees and to replenish document room 
inventory. The DocuTech is networked with GPO, allowing print files to 
be sent back and forth electronically. This permits OPDS to print 
necessary legislation for the Senate floor and other offices in the 
event of a GPO continuity of operations (COOP) situation.
            Accomplishments and Future Goals
    OPDS anticipates that Senate offices' print-on-demand capabilities 
will continue to grow in 2014, answering the Senate's needs in light of 
decreased GPO distribution of legislative documents. The office 
anticipates the installation of a new, faster, and more cost-efficient 
digital copier in April 2014. The office works diligently to track 
document requirements, monitor print quantities, and reduce waste and 
associated costs. Also of particular note is OPDS's commitment to help 
``green'' the Senate. During 2013, over 12 million sheets of 100 
percent recycled copier paper were ordered by Senate offices.
    The office continues working with GPO, on behalf of its customers, 
to improve efficiency and help answer the evolving needs of the Senate. 
Focus on COOP planning and emergency preparedness will continue.
                             public records
    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate that involve the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act of 1995, as amended; the Senate Code of 
Official Conduct; Rule 34, Public Financial Disclosure; Rule 35, Senate 
Gift Rule filings; Rule 40, Registration of Mass Mailing; Rule 41, 
Political Fund Designees; Rule 41(6), Supervisor's Reports on 
Individuals Performing Senate Services; and Foreign Travel Reports.
    The office provides for the inspection, review, and publication of 
these documents. From October 2012 through September 2013, Public 
Records staff assisted more than 3,000 walk-in individuals seeking 
information from or about reports filed with the office. During that 
same time period, the office responded to over 10,000 inquiries by 
telephone or email, including assistance to individuals attempting to 
comply with the provisions of the Lobbying Disclosure Act of 1995, as 
amended. The office works closely with the Federal Election Commission 
(FEC), the Senate Select Committee on Ethics, and the Clerk of the U.S. 
House of Representatives (Clerk) concerning the filing requirements of 
the aforementioned acts and Senate rules.
Fiscal Year 2013 Accomplishments
    Implementation of the Stop Trading on Congressional Knowledge Act 
(STOCK Act) was ongoing into fiscal year 2013. The STOCK Act, as 
amended, required the Secretary to collaborate on the development of an 
electronic filing system for member and employee financial disclosure 
reports. Working in coordination with the Sergeant at Arms (SAA) and 
the Senate Select Committee on Ethics, the Public Records Office 
participated in the planning and development of the electronic filing 
system which was successfully launched on January 1, 2014.
    The office continued to maintain and update the Public Records Web 
site that provides online access for documents in each area of 
responsibility.
    To continue implementation of the Lobbying Disclosure Act (LDA) as 
amended, the Public Records Office conducted two LDA Guidance reviews 
in coordination with the Clerk of the House. The office referred 1,053 
cases of potential noncompliance to the U.S. Attorney for the District 
of Columbia.
    The Public Records Office continued to test continuity of 
operations (COOP) plans and pandemic response plans.
Plans for Fiscal Year 2014
    The Public Records Office will be engaged with STOCK Act 
implementation throughout fiscal year 2014, collaborating with the SAA 
and the Senate Select Committee on Ethics as needed to implement and 
finalize all aspects of the electronic filing system for financial 
disclosure reports. The office also will continue to assess technology 
infrastructure needs. The office will work with the House Clerk and her 
staff to semiannually review and update the LDA Guidance as needed. 
Additionally, the office expects to work with the House Clerk to 
initiate further improvements to the LDA electronic filing system. The 
office will continue to develop and implement educational information 
and tools that will help all report filers comply fully with the law 
and assist customers in accessing the information they seek.
Automation Activities
    During fiscal year 2013, the Office of Public Records continued to 
work with the SAA to update operating systems and enhance database 
performance for all issue areas and improve public query programs and 
compliance reviews. The office continued to maintain quality control 
measures to ensure accuracy and integrity of report processing and 
final database information.
Federal Election Campaign Act, as Amended
    The Federal Election Campaign Act requires Senate candidates to 
file quarterly and pre- and post-election reports. Filings totaled 
4,882 documents containing 491,545 pages, which were scanned, 
processed, and transmitted to the FEC, as required by law.
Lobbying Disclosure Act of 1995, as Amended
    The Lobbying Disclosure Act requires semiannual contribution 
reports and quarterly financial and lobbying activity reports. As of 
September 30, 2013, there were 4,525 registrants representing 16,351 
clients. The total number of individual lobbyists disclosed on fiscal 
year 2013 registrations and reports was 11,857. The total number of 
lobbying registrations and reports processed was 113,517.
Public Financial Disclosure
    The filing date for Public Financial Disclosure Reports was May 15, 
2013. The reports were made available to the public and press by May 
22, 2013, well within the 30 days as required by statute. Public 
Records staff provided copies to the Senate Select Committee on Ethics 
and the appropriate State officials. A total of 3,892 reports and 
amendments containing 20,267 pages were filed. There were 121 requests 
to review or receive copies of the documents, a significant reduction 
from previous years due primarily to the online availability of 
Senators' reports implemented in 2012.
Senate Rule 35 (Gift Rule)
    The Public Records Office received 249 Gift Rule/Travel Reports 
during fiscal year 2013.
Registration of Mass Mailing
    Senators are required to file mass mailing reports on a quarterly 
basis. Four hundred ten pages were submitted during fiscal year 2013.
                            stationery room
    Since it was formally established in 1854, the Senate Stationery 
Room has evolved into a highly diversified retail outlet serving the 
needs of the Senate community by providing outstanding customer service 
and a wide range of products such as office and administrative 
supplies, health and personal security supplies, personalized 
stationery, communication and computer accessories, and special order 
items for official Government business. Additionally, the Stationery 
Room provides U.S. flags flown over the Capitol for constituent 
requests. The Stationery Room serves all members, both current and 
retired; support offices; and other authorized organizations.
    The Stationery Room fulfills its mission by:
  --Utilizing open market, competitive bid, or GSA schedules for supply 
        procurement.
  --Maintaining sufficient in-stock quantities of select merchandise to 
        best meet the immediate needs of the Senate community.
  --Developing and maintaining productive business relationships with a 
        wide variety of vendors to ensure sufficient breadth and 
        availability of merchandise.
  --Maintaining expense accounts for all authorized customers and 
        preparing monthly activity statements.
  --Managing all accounts receivable and accounts payable 
        reimbursement.
  --Ensuring the integrity and security of all funds and Government 
        assets under our control.

----------------------------------------------------------------------------------------------------------------
          Fiscal Year 2013 Statistics                              Fiscal Year 2012 Statistics
----------------------------------------------------------------------------------------------------------------
Gross sales...................................   $3,150,900.07  Gross sales.....................   $2,915,708.38
Sales transactions............................          34,785  Sales transactions..............          33,881
Purchase orders issued........................           5,664  Purchase orders issued..........           4,930
Vouchers processed............................           5,922  Vouchers processed..............           5,282
Office deliveries.............................           6,102  Office deliveries...............           5,459
Number of items delivered.....................         135,000  Number of items delivered.......         121,408
Number of items sold..........................         290,069  Number of items sold............         303,520
Total cartons received offsite................          23,000  Total cartons received offsite..          20,909
Total of all items received...................         152,000  Total of all items received.....         133,988
Average office deliveries per day.............              22  Average office deliveries per                 23
                                                                 day.
----------------------------------------------------------------------------------------------------------------

Fiscal Year 2013 Overview
            Webster Online Ordering Portal
    During fiscal year 2011, the Stationery Room, with the assistance 
of the Office of Web Technology, launched an online Web ordering portal 
through Webster, the Senate's intranet. The website offers an up-to-
date Stationery Room catalog with product description, price, and 
pictures. Customers can place a stock order online and request direct 
delivery to a location of their choice. During fiscal year 2013, the 
Stationery Room received and processed 436 orders via that interface, a 
20 percent increase over fiscal year 2012. Use of the Web site helps 
reduce order time, increases customer convenience and order accuracy, 
and reduces the use of paper through reduced reliance on hard copy 
orders. Moving forward, the Stationery Room anticipates increased use 
of this website as customers discover the benefits of its use.
            Credit Card Payment for Flags
    Utilizing the Pay.gov service offered by the U.S. Department of the 
Treasury, the Stationery Room has been accepting online flag requests 
and payments from constituents through member Web sites. At the end of 
fiscal year 2013, 13 Senators were offering this payment option. The 
benefits include a reduced wait time for constituents, elimination of 
payment inaccuracies, and greatly reduced workload for office 
representatives. The service has been so well received that several 
participating offices have practically stopped accepting paper checks 
altogether. The Stationery Room will continue to expand the service 
during fiscal year 2014 to eventually include all interested member 
offices.
New Initiatives for 2014
            TranSAAct Statement Integration
    The Stationery Room prepares activity statements for approximately 
300 customer accounts on the last business day of each month. Those 
statements are printed and either emailed to the customers or mailed 
via inside mail. One upgrade most requested by our customers is for the 
Stationery Room to post the account statements directly to TranSAAct, 
the online business services portal for Senate offices, with supporting 
documentation (e.g., itemized receipts or delivery tickets). This 
integration required a custom application to enable that function. By 
the end of fiscal year 2013, a functional utility had been completed 
and fully tested. The inclusion of Stationery in the latest TranSAAct 
release occurred in early fiscal year 2014, enabling customers to print 
statements, current and historical, and research transaction details 
directly from their desktop. The Stationery Room expects to save over 
$500 a year in paper costs and, most importantly, reduce paper use by 
45,000 individual sheets.
            Capitol Visitor Center (CVC) Coordination
    The Stationery Room contracts annually with various vendors to 
provide United States flags. The flags are purchased by constituents 
through individual member offices, and they are flown over the U.S. 
Capitol building for commemoration of special occasions. While many 
flags are flown for specific reasons, some are not and the Stationery 
Room sells pre-flown flags for offices to meet those generic requests. 
Late in fiscal year 2013, the Stationery Room began to work with the 
Capitol Visitor Center (CVC) to supply pre-flown flags to its gift 
shops. This cooperative relationship offers the CVC considerable 
savings on flag purchases through the Stationery Room's existing 
procurement contract and allows the Stationery Room to benefit from 
larger volume discounts, possibly reducing the cost of U.S. flags on 
future contracts. The relationship should be finalized in fiscal year 
2014.
                             web technology
    The Office of Web Technology is responsible for the Web sites, 
along with the Web-based systems, servers, and technologies supporting 
these Web sites, that fall under the purview of the Secretary of the 
Senate:
  --Senate.gov--available to the public;
  --the Secretary's internal Web site (Webster.senate.gov/secretary)--
        available to Senate staff;
  --central portions of Webster--available to Senate staff; and
  --the Senate legislative branch website (Legbranch.senate.gov)--
        available to the Senate, House of Representatives, Library of 
        Congress, Architect of the Capitol, Government Accountability 
        Office, Government Printing Office, Congressional Budget 
        Office, and U.S. Capitol Police.
Senate.gov

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Senate website content is maintained by over 30 contributors 
from seven departments of the Secretary's Office and three departments 
of the Sergeant at Arms (SAA). Content team leaders regularly share 
ideas and coordinate the posting of new content. All content is 
controlled through the Secretary's Web content management system (CMS), 
managed by the Office of Web Technology.
    Senate.gov enhancements in 2013 include:
            Video Streaming
    Senate.gov transitioned to a new streaming media solution to 
leverage additional services, while migrating away from a deprecated 
alternative. The newly implemented player offers more robust viewing 
options for users, smoother streams, greater availability, and better 
general experience. After completing the transition of legacy content, 
Web Technology developed and administered a method for uploading future 
video content in a secure and efficient manner.

http://www.senate.gov/artandhistory/history/video/
KefauverCommitteeNewsreel1_1.htm
            Archived Floor Proceedings
    Web Technology implemented a tabbed interface for historic floor 
proceedings videos. This easy-to-use interface separates floor 
proceedings by calendar year, facilitating browsing of historic 
proceedings in an automatically updating and intuitive format. The new 
tabbed view includes summary links to floor reports isolated by year. 
Changes make management of the system more efficient as the quantity of 
content increases and will lengthen the lifespan of existing systems.

http://floor.senate.gov
            Member Office Streaming Video View
    A new template and view for floor proceedings was developed based 
on specifications requested by member offices. The new view is easily 
embeddable on member Web sites and follows existing workflow, requiring 
no additional tasks by offices to include live floor proceedings. 
Having a common view used by members will facilitate seamless upgrades 
as the streaming video infrastructure advances.
            Idea of the Senate
    A thoughtful analysis of the Senate's rules and procedures, its 
history and traditions, and its personnel and prerogatives are shared 
through this new exhibit. Using many historical documents, portraits, 
quotes, and anecdotes, the exhibit engages a wide audience of how the 
Senate has and continues to evolve. In total, 27 individual essays were 
created as part of the exhibit ranging from 1787 to 2003. This is an 
exhibit that will continue to grow with content and interactive 
elements.

http://www.senate.gov/pagelayout/history/one_item_and_teasers/
IdeaoftheSenate.htm
            Picturing the Senate Feature
    This very complex feature highlights various illustrations, 
photographs, cartoons, paintings, and sculptures where the Senate or 
its members have been the subject. Unique slideshows highlighting the 
following:
  --Committees
  --Senatorial Hall of Fame
  --Senators in Caricature
  --Photographing the Senate

http://www.senate.gov/artandhistory/history/common/collection_list/
CommitteeFeature.jsp

http://www.senate.gov/artandhistory/art/common/collection_list/
SenatorialHallofFame.jsp

http://www.senate.gov/artandhistory/history/common/slideshow/
SenatorsinCaricature.jsp

http://www.senate.gov/artandhistory/history/common/slideshow/
PhotographingtheSenate.jsp
            Senate Voices Archive
    The Senate Voices archive added a permanent navigational page 
listing previously featured Oral History Project subjects. The new 
feature allows easy access to the monthly pieces highlighting various 
segments of interviews which are part of the Oral History Project. Some 
of the subjects focused on during 2013 include:
  --Maiden Speeches
  --Celebrating Black History Month
  --Classic Senate Speeches
  --Watergate and the Senate
  --Idea of the Senate

http://www.senate.gov/pagelayout/history/h_multi_sections_and_teasers/
Senate_Voices.htm
            Civil War Sesquicentennial Exhibit
    This continuing exhibit has provided a series of online features 
exploring the Senate's wartime experiences. The components of this 
exhibit have been updated monthly over the last several years to 
highlight various events, people, and locations related to the Senate 
during the war and connecting users to rich historical information 
throughout the site. The exhibit expanded on the efforts of previous 
years. Existing pages were expanded to add multimedia content on the 
right hand side of the page, such as photographs and historical 
documents. The sub-site contains a wealth of knowledge applicable and 
engaging to a vast range of audiences.

http://www.senate.gov/artandhistory/history/common/civil_war/
CivilWar.htm

http://www.senate.gov/pagelayout/history/one_item_and_teasers/
CivilWar_chronology.htm

http://www.senate.gov/reference/Index/Civil_War_Senate.htm
            Pending on Executive Calendar Report
    Web Technology worked with staff from member offices and the 
Sergeant at Arms to develop and automate a nightly report of executive 
nominations, including mapping individual nominations with their 
assigned calendar numbers. Previously, this information was unavailable 
in a machine readable format. The new report provides a user friendly 
and a machine readable version in XML that is updated nightly.

http://www.senate.gov/pagelayout/legislative/one_item_and_teasers/
nom_cal.htm
            LIS/DMS XML Authoring and Transfer System
    The existing XML content production authoring system and transfer 
method was upgraded in a joint effort with the Sergeant at Arms. The 
new reporting system allows for greater flexibility and stricter 
enforcement of XML best practices. Establishing a testing environment 
to run existing and future systems in parallel with production data 
helped expedite the project and provided valuable quality control. Code 
was modified to accommodate changes in the new system and established 
business requirements with the assistance of legislative staff. This is 
an ongoing project that will eventually replace all of the 30 plus 
reports that are sent at least nightly. The changes are being 
implemented seamlessly to end users as well as staff entering the 
information. The new system increases the overall uptime of reports and 
decreases the time for implementing requested changes.
            Visitors Section
    Using the wonderful photographs and tools for discovering them from 
the Senate Photo Studio, Web Technology revamped the visitors section 
to include more recent photographs of the many items of interest around 
Washington, DC. The text was also thoroughly reviewed and updated as 
applicable to ensure the accuracy of all information. Close to 100 
primary photographs were replaced in this project, making for a much 
more pleasing user experience.

http://www.senate.gov/pagelayout/visiting/
g_three_sections_with_teasers/visitingdc.htm
            Funeral and Memorial Services in the Senate Chamber Exhibit
    A new exhibit, built on advanced templates created last year and 
enhanced this year, displays artifacts associated with funeral and 
memorial services. Information regarding all 55 funerals is included as 
part of the exhibit, increasing its potential audience.

http://www.senate.gov/artandhistory/art/common/collection_list/
Funeral.jsp
            President Andrew Johnson's Impeachment Trial, 1868 Gallery 
                    Passes Exhibit
    The ephemera exhibit includes 25 images of gallery passes 
associated with the impeachment of President Andrew Johnson. An easy-
to-navigate, custom-built slideshow makes the viewing of these colorful 
and historic documents interesting to a wide range of audiences. The 
templates used for the creation of this exhibit are easily customizable 
to display subjects of wide variety.

http://www.senate.gov/artandhistory/art/common/collection_list/
1868Impeachment.jsp
            Gallery Passes Exhibit
    A total of 74 unique gallery passes dating back to 1890 are now 
available online thanks to the newly created Gallery Pass Exhibit. The 
custom slideshow allows users to view 12 gallery passes at a time and 
easily find ones associated with certain Congresses and contrast 
changes over the years. A valuable list of data regarding the passes 
back to the 51st Congress was also created as a useful cross reference.

http://www.senate.gov/artandhistory/art/common/collection_list/
GalleryPass.jsp
            Updated and Enhanced Virtual Reference Pages and Research 
                    Tips
    The virtual reference desk pages were continually validated and 
edited to contain the most valuable assets across legislative 
institutions. Using this well-established format and associated 
templates allowed us to quickly create new items and modify existing 
ones to meet the needs of Senate.gov users. Other additions include 
Sessions of Congress and Art in the Senate.

http://www.senate.gov/reference/common/faq/
how_to_executivecommunications.htm

http://www.senate.gov/reference/Index/Sessions.htm

http://www.senate.gov/reference/Index/Art_in_the_Senate.htm
            Direct Election of Senators Essay
    A descriptive essay with supporting documents added to the 
Institutional subsection of Origins & Development was authored in 
conjunction with a monthly feature on the Constitution. This 
historically focused piece includes information on the 17th Amendment, 
primary source documents, related cartoons, and historical context in 
an engaging way.

http://www.senate.gov/artandhistory/history/common/briefing/
Direct_Election_Senators.htm

http://www.senate.gov/artandhistory/history/
DirectElectionStateResolutions.htm
            Converting Content from PDFs to HTML
    In an ongoing effort to increase accessibility of all materials on 
the Web site, several popular pdf files were converted to HTML pages. 
The subjects of content included the following:
  --Sitting Presidents and Vice Presidents Who Have Testified before 
        Congressional Committees
  --The Capitol Art and Architecture
  --Senate Sessions while Presidents Lay in State
  --Memorial and Funeral Services in the Capitol Rotunda
  --Senators Voting from Their Desks
            Quick Reference Landing Page
    In support of a physical exhibit in a Senate office building, Web 
Technology designed and published a landing page supported by Quick 
Reference (QR) code technology. This allowed people viewing the exhibit 
to scan a code with a mobile device to pull up information about the 
exhibit, enabling them to read the same information displayed in the 
physical exhibit as well as providing the opportunity to do further 
research on Senate.gov.

http://www.senate.gov/QR/dirksen_menu.htm
            Biographies and Oral Histories
    Five oral histories, 12 Senate Stories, and 25 featured biographies 
authored by the Senate Historical Office were added to Senate.gov this 
year. The feature biographies page was revamped to include alphabetical 
sorting, thumbnail images, and a new layout to allow for quick scanning 
and searching of the more than 100 featured biographies now online.

http://www.senate.gov/pagelayout/history/one_item_and_teasers/
featured_biographies.htm

http://www.senate.gov/pagelayout/history/g_three_sections_with_teasers/
oralhistory.htm

http://www.senate.gov/pagelayout/history/b_three_sections_with_teasers/
essays.htm
            Homepage Feature Articles
  --Picturing the Senate
  --Amending the Constitution: 100 Years of Direct Election
  --Idea of the Senate
  --Watergate Hearings
  --Classic Senate Speeches
  --Celebrating Women's History Month
  --Celebrating Black History Month
  --When a New Congress Begins
Secretary's Intranet--Webster.senate.gov/secretary

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Secretary of the Senate's intranet (http://webster.senate.gov/
secretary) continued to expand in information and services offered 
while also implementing a new architecture that ensures the continuity 
of operations (COOP).
    The new architecture comprises load balanced servers in multiple 
computer facilities. Data is replicated in both centers in real time to 
ensure accuracy of content to all viewers and implemented seamlessly to 
content contributors. The newly built virtual servers use the most 
recently available supported versions of software offered and fully 
comply with all COOP recommendations. This was a lengthy and complex 
project but ensures the integrity of the site, the availability of the 
information, and requires no additional work from users.
    A common footer was implemented for all Secretary of the Senate web 
pages. The addition was implemented to leverage advances in data 
collection technology for Web statistics. The footer has been very 
successful in its original goal and will provide for great flexibility 
when other opportunities arise to leverage advances in technology. The 
project was greatly expedited through using computer coded custom jobs 
in the CMS.
    The catalog-based ordering system developed for the Stationery Room 
continues to be a huge success. During fiscal year 2013, 436 orders 
were placed and filled using the online order form, a 20 percent 
increase from last year.
    Web Technology developed and implemented a new video solution for 
live streaming and archived videos to replace a discontinued service 
that was previously utilized. The new video player allows for on-demand 
viewing of recorded videos. Specially created conference bridges allow 
for the consumption of live streaming videos that combine multimedia 
presentations with live lecturers. By utilizing the existing Watson 
Conferencing infrastructure, Web Technology was able to come up with a 
no-cost, supported solution with the Senate Recording Studio. As a 
result of this joint effort, offices of the Secretary can continue to 
offer training to State staff without the need to purchase any 
additional equipment or incur travel costs.
    Utilizing advances from the Joint Office of Education and 
Training's new Learning Management System, Web Technology was able to 
automate the schedule of classes offered by the Senate Library. 
Extremely complex code was written to create an online registration 
form, streamlining the process for maintaining course schedules in 
multiple systems. The new technology offers more efficient operations 
and improved customer service to the Senate community.
    A new development environment replaced the legacy system. The new 
server uses the same versions as those on production, allowing for 
robust quality control of materials posted to production.
Webster Central Website--Webster.senate.gov

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    In conjunction with the SAA, Chaplain, and Senate Committee on 
Rules and Administration, Web Technology continued administering, 
managing, and enhancing the central section of Webster.
    Two new load balanced virtual servers replaced the existing single 
``onebox'' server used for searching Webster and integrating the 
service directory and keymatches. The dual server architecture at 
separate computer facilities ensures the availability of these 
functions in emergency situations and utilizes the most recently 
released and supported versions of software available. Several scripts 
automating the uploading of the information from the Library's 
knowledge base to each individual server were authored, ensuring 
homogenous content to all users.
Senate Legislative Branch Website (Legbranch.senate.gov)
    The Legbranch server is accessible by the Senate, House of 
Representatives, Library of Congress, Architect of the Capitol, 
Government Accountability Office, Government Printing Office, 
Congressional Budget Office, and U.S. Capitol Police. The Office of Web 
Technology maintains a basic website for a Capitol Hill email messaging 
working group managed by the SAA. The server will continue to expand 
and be used to share more information with Capitol Hill entities.
    With the Library of Congress, Web Technology created and 
implemented a new site hosted on http://legbranch.senate.gov. The new 
site lists current and historical versions of the hot bills lists, as 
well as cloture and appropriations tables maintained by the Senate 
Library that link to resources internal to legislative branch entities. 
The new site replaced an antiquated system built years ago to share 
this valuable information assembled by the Senate Library, which relied 
on access to specific Library of Congress servers and became 
problematic to maintain. This new system allows Web Technology complete 
control to make any and all modifications that may be required and 
provides an excellent framework as a way to repurpose some of our most 
valuable information for different audiences through leveraging the 
CMS. The new site is linked to http://lis.gov, one of the most utilized 
internal sites on Capitol Hill.
    Web Technology created customized XML feeds for use on the new beta 
version of the Congress.gov website. These feeds get published to a 
repository on http://legbranch.senate.gov which allows them to be 
repurposed by other legislative branch Government agencies. This 
information was also shared with Senate member and committees offices 
so they may leverage this advanced technology on their individual Web 
sites.
Accomplishments of the Office of Web Technology in 2013
  --Coding improvements to existing pages. In the continuing process of 
        ensuring accessibility and leveraging advances in best 
        practices, Web Technology converted many pdf documents to html 
        files to increase accessibility to Web visitors. Additionally, 
        tables were removed from many historic pages where they were no 
        longer necessary, replacing them with advanced CSS techniques.
  --Decoupling of back end code from our content management system 
        (CMS). In anticipation of potentially needing to replace our 
        CMS, Web Technology devised a new means of collecting required 
        information programmatically that does not rely on proprietary 
        mechanisms. This is a lengthy and difficult process that will 
        continue in 2014, building on the advances made in 2013.
  --In preparing for the possible replacement of the heavily utilized 
        CMS, Web Technology has done extensive research into 
        alternatives. This has involved meeting with Web content 
        management experts and exhaustive independent research. The 
        current CMS is on its fourth generation and has been in place 
        for over 12 years. It is deeply engrained with multiple other 
        systems. Every effort will be made to replace, if necessary, 
        the current system with minimal impact to others.
  --Exploring Senate floor Webcast alternatives. In an effort to reduce 
        costs, Web Technology investigated other means of accomplishing 
        streaming live and archived floor proceedings. Several 
        alternatives to the current solution have been developed along 
        with cost and implementation time estimates.
  --Creating a multi-tabbed multimedia template for an online Historic 
        Spaces exhibit presently being constructed. The new display 
        allows for several layers of information to exist on a single 
        page, providing a rich user experience. The template was 
        developed so it may be seamlessly integrated into existing 
        exhibits or used to create new ones.
  --Responding to approximately 1,274 emails from the general public 
        regarding Senate.gov sites. Worked with various content 
        providers, web support groups, SAA, and member and committee 
        offices to make suggestions and resolve issues. This is a 12 
        percent increase from the previous year.
  --Devising and building a website for the Secretary's Human Resources 
        Department. The site is intended only for Secretary of the 
        Senate staff and was constructed to be easily maintained by 
        nontechnical staff.
  --Creating and developing a system to permit the Secretary's Human 
        Resources staff to control all aspects of job postings online, 
        without requiring direct assistance from any other departments.
  --Helping design new weekly video usage reports on various streaming 
        and clipping services. New information was critical in 
        evaluating current systems and potential alternative solutions.
  --Conducting user testing with Senate staff and interns to increase 
        understanding of current website interactions, desires, and 
        best practices.
  --Helping organize Capitol Hill-wide webmaster meetings where best 
        practices were shared across entities. Regularly gave 
        presentations and facilitated conversations.
  --Continually training and practicing working from remote locations 
        to be prepared should the need arise. All staff members are 
        fully capable of accomplishing their job functions from any 
        location with Internet access. This was accomplished largely 
        through configuring virtual machines that mimic workstations on 
        office laptops. Regardless of which staff member uses which 
        laptop, the experience will be ubiquitous and consistent with 
        being in the office.
  --Rewriting code for pages on the ``States in the Senate'' online 
        exhibit to utilize daily automated feeds. This allows for 
        greater accuracy of information with less human involvement.
  --Nearly completing a complex and beautiful online exhibit regarding 
        primary documents with the Historical Office. The exhibit 
        utilizes many advanced scripts allowing for robust user 
        interactions, such as zooming and lightboxes. The exhibit is an 
        engaging way to display primary historical documents alongside 
        transcripts.
  --Working extensively with the Senate Library in the continued 
        development, implementation, and maintenance of taxonomies 
        utilizing the knowledge base system. Created and established a 
        schedule for programs to automatically transfer content nightly 
        from the taxonomy system to the CMS. Participated in the 
        planning, design, development, and administration for including 
        eDear Colleague letter data in the knowledge base and then on 
        Webster.
  --Implementing new virtualized production and development servers for 
        the Secretary's intranet. Also, replaced virtualized production 
        servers for the Secretary's dedicated ``onebox'' server, 
        transfer mechanisms to keep indices current, and a newly built 
        search server.
  --Administering the CMS constantly throughout the year and resolved 
        issues as they arose. Modified the existing system for 
        enhancement requests and changes in general Senate information 
        architecture for both production and development systems.
  --Working extensively with SAA, Web Technology developed and 
        implemented an advanced technology that collects usage 
        statistics from a distributed environment. The following usage 
        statistics are a result of this effort. Please note, in 
        comparison to previous years before 2012, the statistics 
        reported are solely for the central site of Senate.gov, where 
        previously statistics were for the entire domain of Senate.gov.
Senate.gov Usage Statistics
    In 2013 an average of 36,500 visits occurred per day to the central 
site of Senate.gov. This is an increase of slightly over 4 percent from 
2012.

------------------------------------------------------------------------
                                     Visits/        Avg.     Change from
      Title of Website/Page           Month       Duration       2012
------------------------------------------------------------------------
Senate.gov Site..................    1,109,793    5 minutes          +2%
Senators Contact Page............      410,008   52 seconds          -7%
Senate Homepage..................      359,594   51 seconds          +1%
------------------------------------------------------------------------

    Reviewing statistics on web page usage helps the content providers 
better understand what information the public is seeking and how best 
to improve the presentation of that data. Visitors are consistently 
drawn to the following content items, listed in order of popularity:

------------------------------------------------------------------------
                       Most Visited Pages in 2013
-------------------------------------------------------------------------
                                                                 Avg.
            Top Pages                Visits/    Views/Month    Duration
                                      Month                   (seconds)
------------------------------------------------------------------------
Senators Contact Info List.......      410,008      980,925           52
Committees.......................       55,547      102,323           43
Votes Home.......................       57,453       90,275           80
Legislation Home.................       42,788       62,853           34
113th 1st Session Vote Menu......       41,544       78,456          107
Leadership (Org. Chart)..........       32,729       52,445          135
Constitution.....................       28,491       32,919          271
Active Legislation...............       21,318       35,066          127
Floor Webcast....................       20,257       23,920          245
Class Glossary Entry.............       17,651       20,541           54
------------------------------------------------------------------------

    By a huge margin, the most popular page on the main Senate Web site 
is the list of Senators with links to their Web sites, comment forms, 
main office addresses, and telephone numbers. Visitors also continue to 
be interested in legislative matters in 2013 with roll call vote 
tallies, the active legislation table, committee assignments, and 
schedules being particularly popular. The Senate Floor Webcast is a new 
addition to the top ten list, beating out employment opportunities from 
2012.

                       TRAINING AND NEW RECRUITS

    Senator Shaheen. Thank you.
    Thank you all very much for your testimony.
    Chief Dine, the subcommittee provided a modest increase in 
funding in fiscal year 2014 for Capitol Police, and that was to 
go mainly to restart new recruiting classes and to return to 
routine training. Can you update us on whether the classes have 
begun and how many officers you expect to be brought into the 
force this year, and how the training is going?
    Chief Dine. Yes, ma'am, thank you very much.
    First of all, we're very appreciative for the funding that 
you have provided us. And those are essentially two of the core 
areas that are the lifeblood of this agency: people and 
training.
    As it relates to the people, we are very excited. We've 
hired a new Human Resources Director, just a little bit before 
I came on. And one of the missions that we gave her was to 
reengineer the manner in which we hire people and make them 
U.S. Capitol Police officers. As I mentioned in my remarks, we 
consider USCP to be America's Police Department. We are the 
face of the Capitol, in the sense that we're the first people 
that people see when they come here from around the country and 
around the world, and the last people they see when they leave. 
We strive to represent the best in American policing, and have 
best practices, and be as professional as we can be. When 
people leave here, they feel like they've just encountered 
America's finest, America's Police Department.
    Our hiring is very, very important. And what's important 
for this agency is to have people understand the type of 
position that they're undertaking. As you know, we're a unique 
agency. We're sort of an amalgamation of a number of different 
kinds of departments--State, local, and Federal--because we do 
so many different things. But, we want to meet their 
expectations when they choose this agency, and likewise, we 
want to choose the best and the brightest. We've instituted an 
assessment center process. We opened up hiring; again, thanks 
to the funding you provided. And, in just about 4 weeks, we 
received over 6,900 applications.
    Senator Shaheen. Wow.
    Chief Dine. We were very excited about that. And that's 
from across the United States. Several weekends in the last few 
months, we've brought the top candidates in from that group, 
and had a 2-day Assessment Center process. They were tested 
academically and physically, but there was also a process to 
explain to them what the United States Capitol Police is all 
about. We explained how we do business, what the agency does, 
to make sure that we are meeting their expectations and that 
they have a long career here, and they don't come here and then 
go somewhere else. Likewise, it allows us to meet these folks 
and get to know them so we can make sure we choose the best 
people.
    I was there, personally, with Assistant Chief Malloy, our 
CAO, Richard Braddock, as well as a number of command staff who 
went through agency overviews. We're slated to hire about 100 
people this year, in three separate classes. We actually have a 
class in process right now. That class was just to backfill. 
But the hiring to meet the 1775, for which you've provided, it 
will take place over the next three classes, and we're on board 
to do that.
    Senator Shaheen. So, excuse me for interrupting, but you 
said that we got 6,900 applications for about 100 positions. Is 
that correct?
    Chief Dine. Yes, ma'am.
    Senator Shaheen. Wow.
    Chief Dine. It made us very proud. And, as we were going 
around from table to table, meeting with these folks, they came 
from across the United States to be part of this agency.
    Senator Shaheen. When do you expect that first group that's 
going through training now to begin?
    Chief Dine. The first group, they just started a month or 
so ago.
    Senator Shaheen. Oh, okay.
    Chief Dine. 2015 is when this bulk of people will be 
available to us, so that is part of the challenge; they won't 
be available to us until 2015, especially this group. The three 
classes that I referenced are May, July, and September, the 
three main classes for the 100.
    Senator Shaheen. Great.

                       STATUS OF NEW RADIO SYSTEM

    I had the opportunity, a couple of months ago, to go 
through and look at the process of implementing the new state-
of-the-art digital radio system. It wasn't quite finished at 
the time I had a chance to visit. But, can you update us on 
both the status of the new radio system and what capabilities 
it has that the old system did not?
    Chief Dine. Yes, ma'am. And I was remiss, I got so excited 
talking about the new recruits, I didn't answer the part about 
training, which is very, very important.
    Two of the core areas that we are engaging in training, 
and, frankly, had to defer training over the last couple of 
years because of funding issues, but these are critical to the 
nature of what we do in the service and security we provide for 
you: our active shooter training and security training--
security screening training. So, with the funding that you are 
providing to us, we'll be able to put our last group of 500 
through active shooter training, and then--in this fiscal 
year--and we'll be able to put 600 officers through our 
security screening refresher training. Obviously, they've all 
had these trainings, but it's very, very important. These are 
perishable skills. Training has to be kept up, and this is 
critical to our efficiency and effectiveness. That's what we'll 
be working on, in terms of training and the funding you 
provided to us.
    And yes, we are extremely proud. Richard Braddock, who's 
not here today; he's ill--he and his team--Norm Farley is here, 
our CIO--the whole team, thanks to all of your support--the 
Sergeant at Arms, the Architect of the Capitol, NAVAIR--worked 
very, very hard to bring the radio project online. It is a 
state-of-the-art radio system designed especially for us. 
There's no other system like it in the world, because of the 
challenges we face, in terms of indoor and outdoor challenges. 
It's a 14-channel digital P-25 encrypted system, and it's fully 
operational now. And we've actually gotten nothing but kudos 
from around the Department, in terms of how it's operating. In 
fact, later this month, we're going to stand down the old 
system. We kept that up and running for a while, just to make 
sure. And the good thing is, we did this very judiciously, 
because the radio system is a life-safety system, obviously, 
for our officers, so we wanted to make sure it was done right 
and that it worked correctly.
    It significantly enhances our interoperability. We did have 
interoperability before, through several different means, 
including PMARS, which is the Police Mutual Aid channel, and 
DC-01 and -02. But, this allows us to incorporate more indices 
and enhance interoperability more with the flick of a switch, 
literally.
    We've done some other things, though, above and beyond 
that, to enhance communications with our partner agencies, with 
whom we work very hard every day. We've actually given our 
radios to the Secret Service, to the Metropolitan Police 
Department, to U.S. Park Police, and to the Supreme Court 
Police. We have a ring-down phone in our Command Center now 
that connects us to the service and several other agencies. 
That's another way to do business, just in case. We have 
several layers of interoperability, and now we have a state-of-
the-art system that is working very well. We appreciate your 
support for that.
    Senator Shaheen. Thank you.
    Senator Hoeven.

                       PLANS FOR REOPENING DOORS

    Senator Hoeven. Chief, any plan to change how you--which 
doors you have open and how you operate them for fiscal year 
2015?
    Chief Dine. Yes, sir. What we've implemented is a very 
aggressive approach to monitor these doors from our Command 
Center. We now have staff monitoring every door. And we used to 
informally track the ingress and egress, and we have 
significant analysis the flow of people in and out of our 
doors, how long it should take, how many minutes it should 
take, and--depending on where you are in line. It's incredibly 
detailed work.
    We used to informally track people at various doors. We'd 
find somebody wearing a yellow scarf and just see how long it 
took that person to get in.
    But, what we've tasked our folks to do now is actually 
monitor every door and track consistently so that we can chart 
out and graph the doors and the lines and how long is it--how 
long it takes. Then what they do is, if they see a backlog or a 
bottleneck at any door, they immediately notify our watch 
commander in the Command Center who notifies supervisors in the 
field. Then their role is to then call on any number of several 
units that will then come and assist from our building patrols, 
our emergency responders, who are often responding to alarms or 
when people have distress or other calls for service in our 
buildings. Our separate bike unit can be called, or our motor 
unit. We have an array of units that will then be called to 
help prescreen people, direct people to other open doors that 
may be open nearby that some people aren't even aware of, which 
does happen, frankly, or they'll open up another magnetometer, 
if it's one of the doors that actually has a magnetometer or an 
additional magnetometer or two there that's not being used. And 
then, if necessary, we're always assessing if we need to open 
additional doors.
    Right now, the data shows that the flow is going very well, 
we're going to keep that aggressive. We do a weekly analysis 
now, and chart it out with the actual average times that it's 
taking people to get in and out. And we obviously work very 
closely with the Sergeant at Arms Office, and we couldn't be 
more appreciative of their support.

           IMPACT OF THE DOME RESTORATION PROJECT ON OVERTIME

    Senator Hoeven. How about, Chief, with the Dome restoration 
project? What's--what does that mean for your officers, for 
overtime and so forth?
    Chief Dine. Overtime is built into our budget planning and 
we are working with the AOC on that. We already have an 
operational plan, in terms of where we'll deploy officers and 
where we'll do screening for vehicles. We've presented that to 
the Capitol Police Board, so we have a plan in place. It won't 
be dissimilar to what happened in the past, and we know that 
it's a really critical project, but in terms of safety and 
security of the campus, it's very, very important, because no 
vehicles can come up here without being screened, nor can 
people. We have a plan in place for that, and we are prepared, 
both operationally and fiscally.

              LESSONS LEARNED FROM THE NAVY YARD INCIDENT

    Senator Hoeven. How about--talk for a minute about lessons 
learned from the Navy Yard incident, and also both the 
interoperability of your radio systems, but then also your 
coordination, you know, with the other Federal, State, and 
local law enforcement, as well as the incident we had with the 
individual in the automobile.
    Chief Dine. Yes, sir. We always do an analysis and after-
action anytime we have a major event. Obviously, those two 
incidents highlighted the importance of interoperability, of us 
communicating as best we can, and always looking to see lessons 
learned. We've concentrated on a couple of areas, where we've 
gone back and looked at policies, we've looked at 
communication, and we've looked at our perimeter security, in a 
comprehensive way. We'll be changing some of our policies and 
directives as it relates to that, to enhance that.
    In terms of interoperability, one of the things that was, 
highlighted with both incidents, is that, when things happen 
very quickly, you can have the best system in the world, but 
there are still challenges when things take 2 or 3 or 4 
minutes, because there is some misnomer in interoperability, 
that people think you're going to have a thousand police 
officers from 20 different agencies talking on the same 
channel, and that's not necessarily correct. But, what we can 
do now more quickly is communicate. We're excited about that 
possibility. Because we've shared radios with other agencies 
we've enhanced our interoperability all the way around.
    One of the things we can do now, every tour of duty, is--we 
call our sister agencies, just to make contact for that tour of 
duty, to make sure we know who their watch commander is in 
their Command Center, and they know who's working on our end, 
and see if there are any issues ongoing or brewing that we need 
to know about. Just that exercise, alone, along with some of 
the other issues I mentioned, greatly enhance our communication 
efforts.

          IMPACT OF REDUCTIONS TO THE FISCAL YEAR 2015 BUDGET

    Senator Hoeven. If you have to make further reductions to 
your budget, where would you go for those things? Is there some 
flexibility that could help you? And are there things that 
you're doing that could be eliminated?
    Chief Dine. There is not much flexibility, the way the 
budget is built right now, because we literally have no new 
initiatives built in. The initial reductions would have to, be 
in the area of training, which is really the last area that any 
agency wants to reduce or cut back in. After that, it would be 
personnel, and we'd have to reduce back, then, the number of 
staff, both sworn and civilian, which does impact how we do 
business.
    Senator Hoeven. Is there anything that you're doing that 
you think could be eliminated, or should be eliminated, maybe 
even if it were statutory? I mean, are there things that you 
think that, you know, would save you dollars if you didn't have 
to do them, and that it would work to not be doing them?
    Chief Dine. Operationally, no. Obviously, the shutting of 
the doors for sequester saved a significant amount of money, 
$16 million. We went from mid-$30 million in overtime to the 
low-$20 million in overtime, which is a significant amount of 
money. In that regard, that helped. But, operationally, we are 
a public safety agency and face challenges in terms of the risk 
we face and the potential target that we are up here.
    Senator Hoeven. Okay. Thanks, Chief.
    Chief Dine. Yes, sir.
    Senator Shaheen. Senator Coons.
    Senator Coons. Thank you, Chair Shaheen. And thank you, 
Ranking Member Hoeven.

                 IMPACT OF THE SEQUESTER ON ACTIVITIES

    Thank you for your service and for the opportunity to be 
with you today and to go over some of the elements of your 
budget request, budget submissions.
    Let me first--and this may have been covered, so I 
apologize--I'd just be interested if each of you, in turn, 
would talk about, in a little more detail, how sequester 
affected your ability to carry out your responsibilities and 
how the passage of the fiscal year 2014 omnibus has changed 
that, and whether, your view, sequester, which still remains 
the long-term law and sort of gives us a long-term budget 
picture that is one of steadily declining spending several 
years from now, should we not work out an alternative, for 
which I hope we will all be working diligently--how would a 
return of sequester affect you, and what are the vital things 
that you need to invest in--training, technology, equipment, 
workforce, modernization--that you are not, because of a 
concern about the long term? Does that make sense?
    If I could, with you first, Nancy.
    Ms. Erickson. A big concern for our organization, looking 
at the possibility of a sequester 2 years from now, is 
staffing. We are a small organization, we don't have a deep 
bench. Cross-training is important. So, I would have a big 
concern on our ability to staff our offices.
    And another area of concern that I have is related to the 
cost-of-living increase. We're grateful to your committee for 
funding the 1-percent cost-of-living increase. It had a big 
impact on morale, after 3 years of going without a cost-of-
living. So, thank you, on behalf of my staff, for that.
    And another concern is being required to furlough the 
majority of our staff this last year. That was one of the most 
difficult things--and I think I speak for all of us at this 
table--to have to give your staff furlough notice, and the 
message that that sends, that their services aren't critical. 
And I tend to believe that every job in our organization, like 
the Sergeant at Arms or Capitol Police, is critical for the 
support of this institution. So, I hope that we can avoid that 
situation, going forward in the future.
    Senator Coons. Thank you, Nancy.
    Mr. Gainer. Thank you, Senator.
    A couple of issues. If you put aside the pain of putting 
people on furlough, and the concern of when will their 
compensation be restored, I think the sequester put us exactly 
where we needed to be. It was difficult, and I think it made 
everyone focus on how we would run our organizations if we were 
operating in the private sector.
    When we realized the impact of sequestration we could have 
approached it in several ways. One approach was reducing 
salaries, and the other was reducing expenses. And so, again, 
the Congress was very good to allow us to use this voluntary 
separation program, which facilitated people who wanted to take 
early retirement or retire, in general, or do something 
different. So, I really think it was an upside for them, and it 
made us refocus on how we need to conduct our business.
    And, as I mentioned, we reduced our strength by about 68 
people in this past year. There is a whole list of ways where 
we saved money, for example, a million dollars was saved by 
improving the way we handle our printing and Post Office 
operations. And I am not certain that, if it was not for the 
``trial by fire,'' we would have been in the right positions to 
say, ``How are we going to operate the way we need to 
operate?''
    And so, I believe that we are about at the right size and 
at the right cost. Future sequesters would affect all of those 
things. There are any number of things that go--to the 
question--what would we do if we had to take bigger cuts? We 
would have to significantly change expectations of the members, 
the staff, and your constituents. The same way the Chief 
mentioned, we could close doors to save money. We could replace 
computers less frequently, and we would save money. We could 
ask you to shrink the number of Senate State offices and it 
would save money. All of those things make your work easier, 
and make it so that you can respond to the public, in general.
    There are challenges. We have already deferred capital 
investment in our IT shop; however, it is now time to reinvest 
and upgrade equipment so that you can keep up with cloud-type 
networks, other new services and high-speed Internet. All that 
requires an ongoing investment.
    The--I mentioned the State office leases. I do not want to 
beat a dead horse but lease costs have grown 3 percent every 
year, and it's completely beyond our control to change that.
    Security. In general, physical security needs to improve. 
Notwithstanding what we have done, there are some 
vulnerabilities around here, and we ought to look at those. And 
we have discussed things like the constant threat of improvised 
explosive devices. Those are still vulnerabilities. The free 
access on Constitution and Independence Avenues and Second 
Street, are all ongoing threats that we have analyzed and are 
concerned about.
    Our postal employees and your staff do a tremendous job 
making the mail safe. They process a significant amount of 
mail. As a rule, your staffs do not accept mail that has not 
been cleared but sometimes it happens and that is a continuing 
concern.
    I think that covers the five challenges. The physical 
security, the State office leases, the replacement of IT 
equipment, the mail handling and capital investments.
    Senator Coons. Thank you, Terry.
    Chief. Can the Chief answer?
    Senator Shaheen. Yes, go ahead.
    Chief Dine. Yes, sir, thank you very much.
    Senator, I think the two areas I mentioned for us, because 
we're essentially in the service and security business, are the 
two areas that are the lifeblood for us and any police agency, 
are personnel and training. Thanks to the budget that you 
provided to us, we've been able to increase training in two 
very, very core areas: active shooter training--and I had 
mentioned that we're going to put our last 500 officers through 
active shooter training this fiscal year--and then 600 officers 
are going to undergo refresher training in screening, which is 
obviously a big part of what we do, as well. We've had to defer 
training over the last several years, due to cuts. And training 
is a critical part of a police agency like ours in an area you 
don't want to cut. And then, personnel. We're now able to 
increase position levels to 1775, with the budget that you've 
provided, and better fulfill our mission. Those are our two key 
areas.
    And then, likewise, in reverse, should cuts come, training 
would suffer, as would our number--the personnel number, which 
is why I mentioned the savings that we did secure as a result 
of just a few door closures. And again, we appreciate your 
cooperation. I remember, when we met on this last year, and it 
was a wonderful meeting, because the response was, ``Is this 
all that's being closed? You know, it seems reasonable.'' And 
we appreciated that. But those closings resulted in a huge 
savings, so we appreciate your support.
    Senator Coons. Thank you.
    If I might just offer one editorial comment. I have worked 
in a lot of different settings in a lot of places. The folks 
who serve here, in the Capitol Police and Sergeant at Arms, the 
Secretary to the Senate, are exceptional. The support that we 
get, as legislators, the support to make it possible for us to 
have a very open legislative process and body and campus, yet 
still be secure, and the support we get for the work we do, 
both in State and here, and the support for our functions and 
for--is exceptional. I really appreciate your service and I am 
grateful for what you've done and what you're going to do. 
Terry, I'm particularly grateful for your crew here, as well.
    So, thank you very much. And thank you. I look forward to 
continuing conversations about how we responsibly plan for 
future workforce needs.
    Thank you.

             POLICY ON CHAMBER CLOSINGS DURING EMERGENCIES

    Senator Shaheen. Thank you, Senator Coons. Another area of 
bipartisan agreement.
    Chief Dine and Mr. Gainer, Senator Hoeven raised the 
concerns about what happened with the Navy Yard tragedy and the 
car chase situation, and talked a little bit about lessons and 
the importance of interoperability. But, one of the things that 
I learned from those incidents, that I was surprised about, is 
that we don't have a uniform policy on how we determine which 
chamber closes to activity and which one doesn't, that is 
determined by the chamber itself. And I wonder Mr. Gainer if 
you could talk a little bit about what the process is for 
deciding when areas go on lockdown, when the Capitol is locked 
down, and who makes those decisions, and whether there's a 
process in place that needs to be examined, given our recent 
experience.
    Mr. Gainer. Thank you, Senator--Chairwoman.
    I believe there is a process in place. First, I would defer 
to the Chief, as people did to me when I was Chief. In an 
emergency, the Chief and his officers make the call about what 
to close, when to shelter in place or when and where to 
evacuate.
    If we have the leisure of time, then there is an 
established process in the Senate we follow. We have the Senate 
Continuity Board that would meet, review the situation and make 
recommendations to the Majority Leader.
    If the situation falls someplace in between that, the 
response might be based on conversations that the Chief and I 
would have, regarding the ongoing situation. In the event that 
happened most recently, regarding the intrusion by Ms. Carey's 
car, I spoke with the Majority Leader and several members of 
his staff about what we needed to do before making that 
recommendation.
    Before meeting with the Leader, I had ongoing conversations 
throughout the day with my counterpart in the House. In the 7 
years I have been in this position, and the 4-plus I served as 
the Capitol Police Chief, there was never a dispute. In this 
case, the House Sergeant at Arms and I had a professional 
disagreement about what we thought we needed to do. The value 
of having independent Sergeants at Arms is that I can make 
determinations, based on my understanding of the needs of the 
Senate.
    I do not think there is a problem. It was unique that there 
was not agreement. And I believe, that in the course of ongoing 
events, there can be different perspectives on how to handle 
each incident.
    Senator Shaheen. I certainly appreciate that, but let me 
see if I understand what you said. If there were overriding 
safety concerns and, Chief Dine, you thought it was important 
to close certain areas of the Capitol campus or certain 
buildings, and you made that determination, then everybody 
would comply, even though there was a difference of opinion 
between Sergeant at Arms in the chamber? Is that what I 
understood you to say?
    Mr. Gainer. From my perspective, absolutely. First, we have 
someone stationed in the Chief's Command Center at all times. 
It would be highly unusual for something to happen so quickly 
that there was neither input from someone from my office nor 
situational awareness. But, it can happen. And there is 
complete trust in the Chief's leadership to make the 
determination to close the building, lock down, or some other 
response.
    Senator Shaheen. And that's your understanding, as well, 
Chief.
    Chief Dine. Yes, ma'am. And on that day--and I think we're 
actually referencing the Navy Yard incident, I believe.
    Senator Shaheen. I think that was my understanding, that 
the House closed, that day, and the Senate did not. Maybe I 
misunderstood that.
    Mr. Gainer. Vice versa.
    Senator Shaheen. Okay.
    Chief Dine. There was constant communication between us on 
the Board, and several conversations, and, in that instance, I 
think, as Sergeant at Arms Gainer just alluded to, there was 
over 100 years of police experience on the phone together, you 
know, trying to make heads or tails out of that. And I guess, 
at some point, not everybody saw things exactly the same way.
    In a perfect situation, I think we would have a cohesive or 
unified result. In the future, I believe that would happen. 
But, reasonable people with all that amount of experience can 
view things differently.
    Mr. Gainer. May I add to that? In this case, it was a close 
call to open or close the Senate campus. On a spectrum, the 
decisions at each end are the easy ones to make. This one fell 
more towards the middle.
    Senator Shaheen. Sure.
    Mr. Gainer. In retrospect, had we not shut down, there 
would not have been any damage. In my recommendation and 
conversation with the Chief I erred, on the conservative side, 
because I did not think it was a tremendous strain on what was 
going on on the floor or with the safety of the members. In 
most crises, I think we will all be seeing the problem in the 
same way.
    Senator Shaheen. I appreciate that. I guess what I'm trying 
to figure out here is, if Chief Dine, or whoever the Capitol 
Police Chief is at the time, determines that there are 
overriding safety concerns, does he have the authority to 
override your decision, or is there a process in place whereby 
everybody has to agree in order for a decision to be made?
    Mr. Gainer. My perspective is that he can absolutely 
override. He has control of the alarm systems and the 
notifications. If the Chief's staff in the Command Center make 
the determination to lock down, shelter in place or evacuate, 
we will go with that decision.
    Senator Shaheen. Okay. Thank you.

                   SECURITY OF INFORMATION TECHNOLOGY

    Mr. Gainer, you talked about the IT portfolio that you have 
with the Sergeant of Arms Office, and the importance of that. 
And I certainly agree. Given the continuing cyber threats that 
we're hearing about in this country, first of all, I would ask 
you, even though I appreciate that this may be classified 
information and you can't give us any details, can you say 
whether or not the Senate members, Senate information 
technology has been threatened by cyber attacks? And what steps 
are you taking to address security to ensure that it's not a 
concern that we all need to worry about?
    Mr. Gainer. Our IT operation, run by Vicki Sinnett, has a 
very proactive cybersecurity operation that is linked very 
closely with intelligence agencies and others involved in 
preventing cyber mishaps. Potentially the biggest vulnerability 
we could have to our IT security is when someone responds to a 
phishing expedition, and clicks on a link they are not supposed 
to. The Senate community is very good at not making that 
mistake, but there are always tricksters out there. So, we have 
reviewed each member's Senate Web site to identify potentially 
dangerous links.
    Senator Shaheen. Sure.
    Mr. Gainer. We have provided warnings that indicate the 
consequences of going to these links and we continue to test. I 
think that is the bigger threat. But, we do know that there are 
those who continually try to challenge our systems.
    Now, these may be startling numbers, and everybody needs to 
keep them in perspective. Every single day we have nearly 400 
million attempts or touches to our Internet network.
    Senator Shaheen. So, let me just clarify. When you say 
``400 million,'' that's not 400 million trying to access 
individual Web sites or get information from the system. That's 
400 million who may have an interest in getting through the 
security on the system?
    Mr. Gainer. No, it's actually a combination. More of the 
latter than the former.
    Senator Shaheen. Okay.
    Mr. Gainer. So, if I follow the trail, 15 percent of those 
would be categorized as high or very-high risk and would 
require more work. The good news is that technology permits us 
to monitor that with our own staff. That generates less than 10 
security incidents that we would need to report to others per 
month. It shows you the scope of the potential and the 
sophistication of the systems used to keep those intruders out.
    Back to the phishing, we did have approximately 6,000 
incidents where people accessed sites they should not have or 
went to sites that led to unsafe sites, and we have resolved 
those instances.
    Overall, I would say this, we have great people that are 
connected to what's going on across the globe, through 
phenomenal technology, and I think we are in very good IT 
shape, as long as we continue to invest in replacing our 
equipment.
    Senator Shaheen. Thank you.
    Senator Hoeven.
    Senator Hoeven. Mr. Gainer, I want to follow up on that 
point. So, when it comes to cyber security, you feel you have 
adequate resources to make sure that we are providing adequate 
security or proper security in that area, and you feel we're 
doing the things we need to do.
    Mr. Gainer. Yes, sir.
    Senator Hoeven. Okay. You mentioned that, if you had to 
find additional savings, that you'd have to reduce services. 
What services would you reduce? I mean, where would we see that 
impact?
    Mr. Gainer. Turnaround times would be impacted. For 
example, we supply all the IT equipment, your hand-held 
devices, both here and in the State offices. We currently 
refresh office equipment every 3 years. But if we reduce 
services we may only refresh every 5 years or we may not always 
get the newer model for devices such as Blackberrys. We do not 
just buy equipment and pass it on. We do all of the testing to 
make sure the systems we use can operate properly.
    We process large volumes of constituent mail and your 
expectations are that it's turned around in a certain period of 
time. If your computer breaks down in your office, there's an 
expectation that we will be there quickly.
    Those are the types of service delays that could cause 
problems. We have 454 State offices; 25 percent are in Federal 
buildings, the rest are in commercial space. Members do move 
between rental space for a variety of reasons. Those moves 
require us to renegotiate leases, buy new equipment and move 
the existing equipment. Many of the offices want faster 
internet service. Those are all costs that need to be 
considered.
    Regarding the opening and closing of doors. I don't see 
this as just a convenience; it is part of the service to you 
and your constituents, but there is money to be saved in how we 
handle that duty.
    Senator Hoeven. So, how many of the--or, do members 
typically still get hand-held devices through you, rather than 
just getting their own, so they don't have to carry two? I 
mean, I--for example, you know, I carry one, pay for it myself, 
because the whole issue of doing, you know, your private call, 
which you can't do on a Federal phone, and so forth. Isn't it 
easier for most of them just to buy their own? And wouldn't 
that be an expense savings for you?
    Mr. Gainer. I think there are great arguments on both sides 
of the issue about purchasing your own device. When we discuss 
whether bringing your own devices makes more sense our IT 
security team is concerned. The upside is it is less expensive 
and the downside is there is a lot less control on phone 
security. However, technology across the globe is moving to 
different areas that may help. It is an area that we continue 
to explore.
    The amount of funds that we use to buy your products for 
here and at your State office is based on the population of 
your State. Based on your needs and your constituents' 
expectations and safety, it works very well.
    Senator Hoeven. Is there anything--any flexibility that 
would help you? Is there anything you're doing that you really 
think that we could do without, reasonably, even if it required 
legislation?
    Mr. Gainer. I'd want to give that some more thought. There 
is nothing that is so crystal clear to me at this time.
    Senator Hoeven. Jumps out at you.
    But, if there is something, I'd like you to let us know, 
even if it involves something----
    Mr. Gainer. I will make sure that Drew Willison is aware.

                      MEMBERS' STATE OFFICE LEASES

    Senator Hoeven. I don't know, he doesn't have a mustache.
    Overall, your budget's increasing 1.8 percent--or your 
budget request is 1.8 percent higher. So, you're--you know, 
you're--and you have been a leader, in terms of finding ways to 
save money, and I think, you know, you do very well at it. I 
see the State--but, one of the things that's increased quite a 
bit is the State--the members' State offices. And could you 
just tell me why that's the case?
    Mr. Gainer. Sure. The overall increase in expenses this 
year is $600,000 due to an increase of $2.4 million the State 
office leases partially offset by reductions elsewhere.
    Senator Hoeven. Yeah, I mean the State offices. That's what 
I'm talking about.
    Mr. Gainer. The lease costs continue to grow. One way you 
could reduce costs would be to move into Federal buildings 
located in your States. It would make it much easier.
    Senator Hoeven. There's tradeoffs there, took, because as 
far as people getting access to you, then it's much tougher. 
They, you know----
    Mr. Gainer. Senator, I wholeheartedly agree. And that is 
the dilemma based on the resources provided.
    Senator Hoeven. Right.
    Mr. Gainer. Good understanding of the Senate and what you 
expect and what your constituents expect.

                    OFFICE OF PRINTING AND DOCUMENTS

    Senator Hoeven. Okay. Well, and that's why I asked that 
question.
    Ms. Erickson, I guess I'd start with the same questions for 
you. For example, some of the printing and some of those kind 
of things. And I think the Chairman of this subcommittee even 
has legislation in that area, as far as some of the--you know, 
the paper materials we put out in this day of--this age of 
electronics. You know, are there some things you think that 
could or should be changed that would provide cost savings in 
your area?
    Ms. Erickson. The director of our Office of Printing and 
Documents says that we've dramatically reduced the number of 
documents that we're distributing to offices through the 
Government Printing Office. And we're--and I think we're saving 
committees money in printing by the fact that we have a 
DocuTech Center in our Printing and Documents Office. It's a 
huge printing machine that we have leased. And we're able to do 
printing jobs for committees in a much cheaper manner than if 
they were to go directly through the Government Printing 
Office. Our printing in this area, for committees and to 
restock document room inventory, has gone up 47 percent in the 
last year. And even though the volume has increased, we're able 
to do it much cheaper than if the Government Printing Office 
were doing these jobs.
    Senator Hoeven. So, is there any flexibility or is there 
anything that you feel would be helpful in your operation to do 
things better or to not do something that you're now required 
to do that maybe we could do without?
    Ms. Erickson. Well, I have to say, beginning in 2010, our 
organization saw the writing on the wall and started making the 
tough decisions. And those tough decisions have allowed us to 
keep our budget pretty lean. As I mentioned, my operating 
budget, my request this year is lower than the appropriation we 
received when I became Secretary in 2007, and our salary budget 
is 1.5 million less than it was in 2010. So, I'm pretty proud 
of our organization, that we've been able to maintain the 
services to the Senate with lean budgets.
    But, our Keeper of the Stationery identified an 1815 law 
that requires our stationery room to advertise in two or three 
newspapers for a 4-week period for necessary stationery 
supplies. So, that's writing tablets, envelopes, folders. And 
what we would like, ideally, would be for the Congress to 
change that statute that would allow us to advertise on 
``FedBizOpps.gov'' or use the GSA competitive schedule in order 
to procure these products. And, as a result, it would lower 
costs for your Senate offices, who are our customers.
    Senator Hoeven. Would you bring that forward? I'm pretty 
sure we could, maybe, impose upon the----
    Ms. Erickson. I would be happy to.
    Senator Hoeven [continuing]. Chairwoman and myself to 
sponsor that----
    Senator Shaheen. I think we----
    Senator Hoeven [continuing]. Legislation----
    Senator Shaheen [continuing]. Could get some bipartisan 
legislation for that.
    Senator Hoeven [continuing]. Bipartisan way. And I'm sure--
so, bring it forward----
    Ms. Erickson. Will do.
    Senator Shaheen [continuing]. We'll see if we can't get 
that changed.
    I want to offer that to all three of you. If you have 
something that you think would be helpful--and again, you can 
take time to think it through--but, things that you think could 
be helpful that would enable you to do your job better, save 
money, or maybe there's something you're doing that you just 
don't need to do anymore. Please bring it forward so that we 
can submit it, legislatively.
    And now, Ms. Erickson, the last question I have--and you'll 
have to remember, this is going to be part of the permanent 
record, so I want you to think carefully before you respond. 
Will you miss Terry Gainer?
    Mr. Gainer. She's going to claim the Fifth, I bet, on that.
    Ms. Erickson. No. I won't claim the Fifth. Yes, and we've 
had a good, collaborative relationship between our 
organizations. And I'd like to think that I've saved Terry 
Gainer money, on the IT front, by the antiquated BlackBerry 
that I use. But, Terry and I work closely on continuity issues. 
We're co-members of the Senate Continuity Board, and we work 
behind the scenes to make sure that the Senate could meet, 
anywhere, at any time in the event of emergency.
    Senator Hoeven. Great teamwork. And it shows.
    Chief Dine, I'd ask you the same question.
    Chief Dine. Absolutely. Some would say that it's a very 
difficult situation to be in a position where your boss had 
been the Chief of Police before you. And that has never been an 
issue. Terry Gainer always tells me what he thinks, gives me 
the best advice; doesn't tell me what I'd like to hear, tells 
me what I need to hear, but then always says, ``I hope I'm not 
overstepping my bounds.'' And, of course, he never does. You 
won't find a more committed public servant. He bleeds blue, and 
been a great supporter. So, we will miss him.
    Senator Hoeven. Absolutely. Again, Terry, for 47 great 
years. Truly appreciate it.
    Mr. Gainer. Thank you.
    Senator Shaheen. Thank you.
    I have a followup on two issues that Senator Hoeven raised.
    First, Mr. Gainer, with you. In terms of the State offices 
and the increased cost, I'm still trying to figure out, if we 
have the same number of Senators and presumably, the same 
number of offices from year to year, how does that cost 
continue to go up so much? Is it because the rents in 
individual States are going up, or is there something else 
going on there?
    Mr. Gainer. That is it, in a nutshell. It is the rising 
rental costs, just the--the rents rise around the United 
States.
    Senator Shaheen. Okay.

                      FEC ELECTRONIC FILING SYSTEM

    Ms. Erickson, you talked about the electronic filing system 
within the Secretary of the Senate's office. One of the things 
that I understand is that, even though we are trying to 
encourage electronic filing for Senators for their finance 
reports, that that's not required. Is that correct?
    Ms. Erickson. Well, they can still provide paper reports.
    Senator Shaheen. That's right. So, we haven't said, as 
Senators, that this is something that we think everybody should 
do. It is something that the House does, however. Is that 
correct?
    Ms. Erickson. That is my understanding.
    Senator Shaheen. I understand that the Federal Election 
Commission reports that manual processing of Senate campaign 
filings costs the FEC $430,000 a year?
    Ms. Erickson. That is my understanding.
    Senator Shaheen. So, can you talk about how much additional 
costs there are to your office because there are still paper 
filings, as opposed to electronic filings?
    Ms. Erickson. Sure. And I want to clarify my earlier 
answer. I was talking about financial disclosure filings, which 
we will be accepting electronic filings, but the statute still 
allows for members and staff to file paper files.
    With respect to FEC reports, Senators and Senate candidates 
are required to file paper FEC reports with our Office of 
Public Records. And last year, we processed roughly 490,000 
pages of campaign reports. Many of these reports are copied 
front and back, with the intent to save paper. Unfortunately, 
when it arrives in our office, we end up copying all these 
paper reports, scanning them, and indexing them, so they're 
available in our public portals within 48 hours, and then we 
transmit the reports to the FEC. The statute requires us to 
transmit these reports within 48 hours, but I'm proud to say 
that our Public Records staff transmits the reports typically 
within 24 hours. It's a very----
    Senator Shaheen. Do you have an estimate of how much the 
cost increases because you're forced to do that manually rather 
than electronically?
    Ms. Erickson. With staff costs, as well as the staff costs 
of Terry's IT staff that are involved in programming the 
system, and equipment costs, I would say the overall costs are 
roughly $160,000.
    Senator Shaheen. So, there could be some savings----
    Ms. Erickson. Yes.
    Senator Shaheen [continuing]. If we would require that 
everybody has to file electronically?
    Ms. Erickson. Yes.
    Senator Shaheen. It would require a legislative change. Is 
that correct?
    Ms. Erickson. It would require a legislative change.
    Senator Shaheen. And has there been an effort to do that in 
the past?
    Ms. Erickson. It's my recollection, Senator Tester has 
introduced legislation to require electronic filing of FEC 
reports.
    Senator Shaheen. Yes. I knew the answer to that. I'm a 
cosponsor.
    But, my understanding, also, is that this is an area that 
there has been objections to in the past. Do you know why there 
have been objections to filing electronically?
    Ms. Erickson. No, we're implementers, so we will implement 
the law as long as it's in place. And I really am not familiar 
with the reasons why people prefer to file by paper rather than 
electronically.
    Senator Shaheen. Mr. Gainer?
    Mr. Gainer. It is part of the security issue that we are 
all involved. I think some of the criticism was the ease with 
which electronic information would be made more available. The 
paper copies can be acquired, but there are additional steps.
    When you talk about protection of privacy information, 
banking information, and transparency, you must realize that 
the more information you make available, the greater the 
opportunity for people to do nefarious things with the data. 
Those are the issues people try to rectify. How do we make 
things available to the public and yet continue to protect the 
information that all of us would like to be protected?
    Senator Shaheen. I appreciate that concern. On the other 
hand, if we feel there's personal information that should not 
be made public, then it seems to me we shouldn't ask for that 
information on the forms. I mean, if--our goal here, I think, 
is to make as much information transparent to the public as 
possible, and that would speak for doing it electronically so 
it becomes available to people. And if there are concerns about 
what's being made available, then I would think maybe we ought 
to go back and look at what kind of information we're asking 
for, if we're concerned that it'll be misused by the public.
    Mr. Gainer. I think that is fair. I am not arguing one side 
or the other, but having been in some of the discussions, here 
and with other security experts, that is a concern. And, on 
first glance, it may make perfect sense. For example, let us 
talk about banking information or loans or credit. Some of that 
information, by itself, is not harmful; however, when paired 
with Facebook and Twitter, among others, it is easily exploited 
in an unintended manner. If it is a public filing, there is a 
way to get the paper, but people have to go to a greater 
effort. I understand the efficiency of it, but there are risks.
    Senator Shaheen. On the other hand, for anybody who's ever 
been in a campaign--I'm sure Senator Hoeven can speak to this--
you have to assume a reporter's going to get the fling within 
24 hours of having filed it, and whatever you file is going to 
be on the front page of your daily newspaper. So, it seems to 
me that we should err on the side of transparency rather on the 
side of trying to keep information private. And so, I hope that 
we can move forward with Senator Tester's bill and try and get 
this done, because I do think, not only is there significant 
savings, but there are some benefits to the transparency aspect 
for the public.

                  SENATE INFORMATION SERVICES PROGRAM

    I'm almost out of time, but I have one more question for 
you, Ms. Erickson. One of the things that the Secretary of the 
Senate provides is information services for the entire Senate 
community, for research. Can you talk about how you determine 
what's made available, in terms of research opportunities?
    Ms. Erickson. The Senate Information Services Program--run 
by my office--was actually transferred from the Sergeant at 
Arms Office to the Secretary's Office in 2011, and it's run by 
our Office of the Senate Library. And it provides research and 
news services to members and staff. Examples of some of the 
services we provide: Congressional Quarterly, National Journal, 
LexisNexis, Westlaw, Factiva, which provides access to the Wall 
Street Journal, Washington Post, committee transcripts. And we 
are--I'd say we're down to core services. We have made cuts to 
two vendors based on usage. We monitor usage statistics, and 
that's extremely important these days when budgets are tight. 
And it's also--we also receive quite a few requests from Senate 
staff for news services. We need to balance the fact that we've 
got limited resources. It makes it all the more important to 
monitor usage.
    I will say that the enterprise model that's been in place 
since 2000--it was authorized by the Rules Committee--provides 
good value to the Senate. During sequestration, we were 
required to reduce access to one of the services provided to 
Senate offices, and we learned that the vendor was soliciting 
offices directly to get their business, because we had reduced 
access. They were offering Senate offices one user at $5,350; 
whereas, the Senate Library, through the SIS program, was 
paying the equivalent of $130 per user. So, we're grateful 
that, for the first time since 2011, your committee funded an 
increase in the SIS program that allowed us to provide full 
access to the Senate now for services. But, we--yes, we will 
continue to monitor usage and make decisions based on that.
    Senator Shaheen. Thank you.
    Senator Hoeven.
    Senator Hoeven. No, I've finished with my questions.
    And again, I want to thank all of you very much for being 
here today, and for all you do.
    Thank you, Madam Chairman.
    Senator Shaheen. I would certainly echo that.
    Thank you very much Terry Gainer, we will certainly miss 
you and very much appreciate all the service that you have 
provided. And you can always come back and visit.
    Mr. Gainer. Thank you.
    Senator Shaheen. And you should let us know where we can 
find you.
    Mr. Gainer. Right.
    Senator Shaheen. I had the opportunity to see Admiral 
Mullen recently, and I was talking to him about how much I was 
sure he missed appearing before the Armed Services Committee. 
And so, I'm sure you would say the same. As he said, he didn't 
miss it a bit. So I'm sure you will miss appearing before this 
committee.
    Senator Hoeven. We, maybe, even could give him a round of 
applause. What do you think?
    Senator Shaheen. Thank you all very much.
    Chief Dine, I hope you're feeling better.
    Chief Dine. Thank you very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Shaheen. This hearing is adjourned, but the record 
will stay open until Friday, close of business, for any 
questions or comments for the record.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response, subsequent to the 
hearing:]
                Questions Submitted to Chief Kim C. Dine
               Questions Submitted by Senator John Hoeven
                           protective service
    Question. How many officers usually travel with members who have 
Protective Service?
    Answer. Members of Congress may receive protective services under 
the authority of 2 U.S.C. Sec. 1966, which states ``Subject to the 
direction of the Capitol Police Board, the United States Capitol Police 
is authorized to protect, in any area of the United States, the person 
of any Member of Congress, officer of the Congress, as defined in 
section 60-1(b) of this title, and any member of the immediate family 
of any such member or officer, if the Capitol Police Board determines 
such protection to be necessary.'' Members of Congress (MOCs) afforded 
protection fall into three general categories:
  --the 10 elected congressional ``leadership'' positions,
  --MOCs who are significantly threatened, and
  --delegations or groups of MOCs.
    The USCP assigns personnel to these protection details based on a 
comprehensive threat assessment that considers the factors of:
  --personal prevalence in national issues;
  --public attention to, and duties of, the specific position; and
  --quantity and nature of attention by persons of concern, 
        particularly threats of targeted violence.
    Threat assessments are rated in the categories of LOW, MODERATE, or 
HIGH and USCP personnel are assigned to the protection details in a 
manner that scales in correlation to the threat assessment.
    Based on the criteria cited above, there can be as few as three 
officers on a protection team, as many as 80 for a retreat by a caucus 
or conference from one of the Chambers of Congress, or as many as 200 
for nominating conventions during a Presidential election year, 
depending on the assessment. A caucus or convention requires additional 
resources beyond basic detail protection. Any additional specificity is 
considered law enforcement sensitive.
    Question. What coordination exists between the Secretary of the 
Senate and Capitol Police in bearing the costs associated with travel?
    Answer. The USCP does not coordinate with the Secretary of the 
Senate to bear the costs associated with travel. As a matter of the 
annual budgeting cycle, the USCP requests and receives monies within 
the general expense (GE) appropriation to fund various travel 
requirements. In the case of travel in support of protection details 
for Members of Congress, Officers of Congress, and their immediate 
families, the Protective Services Bureau (PSB) manages those funds.
                    navy yard and october 3 incident
    Question. How do you plan to train with other Federal, State and 
local law enforcement agencies to improve coordinated responses to 
events?
    Answer. To increase operational efficiency and effectiveness, the 
USCP has built partnering arrangements with the intelligence community, 
law enforcement agencies, and several Federal Government entities. 
Partnerships include sharing expertise, best practices, leveraging free 
training opportunities and combining training exercises.
    USCP partner agencies include but are not limited to: U.S. Park 
Police (USPP); Amtrak Police Department; Pentagon Force Protection 
Agency (PFP); DC Metropolitan Police Department (MPD); U.S. Secret 
Service (USSS); Federal Bureau of Investigation (FBI); Alcohol, 
Tobacco, Firearms and Explosives (ATF); U.S. Marshal Service (USMS); 
Transportation Security Administration (TSA); Federal Protective 
Service (FPS); Metropolitan Council of Governments (COG); U.S. 
Department of Agriculture (USDA); legislative branch agencies; and 
other local law enforcement agencies.
    As a part of this effort, the Department's Containment and 
Emergency Response Team (CERT) has engaged its National Capital Region 
partner agencies to create regular joint training opportunities. As 
part of this initiative with partner agencies, USCP CERT will 
facilitate meetings on a quarterly basis to discuss issues, lessons 
learned, and develop/engage in professional development opportunities. 
Additionally, the Department's Hazardous Device Section (HDS), as part 
of the USCP's Metropolitan Council of Governments partnership, will be 
conducting a joint demonstration at our training facility in 
Cheltenham, Maryland with other National Capital Region bomb 
technicians for the COG Fire Chiefs, Police Chiefs, and various 
elected/senior local, State and Federal Government personnel on May 28, 
2014.
    Further, with the full implementation of the new USCP radio system, 
the Department took the opportunity to review interagency operations to 
take advantage of ways to further improve a timely coordinated response 
during planned and unplanned events. As a result of this review, a set 
of interoperability exercises are being planned and conducted in a 
phased manner as follows:
  --Phase 1: Single agency dispatcher and communications supervisor 
        exercises. A scenario-driven exercise is being conducted that 
        presents an event which will require the two agencies to 
        utilize existing communication methods to resolve the incident. 
        This phase has begun and is slated to end in May 2014.
  --Phase 2: Following a review of the outcome of the single-agency 
        exercises, a multi-agency communications exercise involving a 
        Capitol Hill-based scenario that requires interaction with 
        multiple partner agencies will be developed. This phase is 
        currently planned for the summer of 2014.
  --Phase 3: A Command-level tabletop utilizing an expansion of the 
        Phase 2 scenario will explore agency relationships, procedural 
        and jurisdictional differences and gaps, a unified command, 
        resource management and methods of information exchange. All of 
        our interoperability partners will be invited as participants 
        and we intend to invite other support and partner agencies as 
        observers.
                                 ______
                                 
             Question Submitted to Hon. Terrance W. Gainer
               Question Submitted by Senator John Hoeven
                      deferred capital investments
    Question. Last year, budgets for replacing capital investment 
items, such as printing equipment and data storage and network 
equipment were deferred. Sergeant at Arms (SAA) mentioned these were 
areas where we will need to restore funding in the future. Which 
investments are requested for funding this year and which projects are 
the most critical?
    Answer. The fiscal year 2015 budget includes a request of 
$1,082,000 for data network equipment to enable us to upgrade our State 
office capabilities and deploy our new phone system to the State 
offices. We view this network upgrade as most critical from both a 
service perspective and from a long-term financial perspective. We have 
deferred again the purchase of new printing equipment and data storage 
equipment.
                                 ______
                                 
               Question Submitted to Hon. Nancy Erickson
               Question Submitted by Senator John Hoeven
                          financial management
    Question. What are the lessons learned from the rollout of the 
Senate payroll system and how can they be applied to a new financial 
management system?
    Answer. I appreciated having the opportunity to appear before the 
Subcommittee on the Legislative Branch Appropriations on March 25 and 
am eager to address your question about the lessons learned from the 
rollout of the new Senate payroll system and how those lessons can be 
applied to a new financial management system.
    The current financial system has been in place since 1999. The 
system change was necessitated due to the looming issues associated 
with Y2K. Unfortunately, due to a very short implementation window we 
were not able to develop and execute a detailed plan that provided us 
the time needed to properly test the new system which resulted in a 
difficult rollout.
    Our approach for the replacement of the payroll system was very 
different. With the luxury of time, we were able to carefully develop a 
detailed plan that allowed us to configure the new system to meet the 
unique and special requirements of our environment. As part of our 
planning we also consulted with the House which had experienced a 
problematic roll out of their payroll system several years earlier. 
They volunteered to meet with us to describe their process and lessons 
learned. This meeting proved very informative and helped us establish a 
good framework around our project.
    This longer timeframe also enabled us to run multiple parallel 
tests comparing data between payroll systems in search of differences 
from the same payroll periods. This testing allowed us to explore and 
resolve issues that arose and ultimately provided a degree of 
confidence that the system would work as designed.
    The replacement of the financial system is considerably more 
complex than the replacement of our payroll system. We will follow the 
same basic process that we utilized with our payroll system as we 
prepare to replace our financial system. Good planning along with 
detailed and thorough testing are required keys before our new system 
will be deemed production ready.
    Again, thank you for the opportunity to respond to your questions 
and concerns.

                         CONCLUSION OF HEARINGS

    Senator Shaheen. Thank you.
    [Whereupon, at 4:50 p.m., Tuesday, March 25, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]
</pre></body></html>
